Case No.

t

r ts

Supreme Court, U.S.
FILED

Originating Case Ninth Circuit: 18-15202

FEB 2 3 2021

(Nevada District Court Case No. 2:16-cv-01124-JCM-NJK)
OFFICE OF THE CLERK

2.0-110?
In the

SUPREME COURT OF THE UNITED STATES
DECEMBER TERM, 2021

Salma Agha-Khan, M.D., Petitioner,

v.

Pacific Community Mortgage In. et. al., Respondent.

PETITION FOR WRIT OF CERTIORARI

Salma Agha-Khan, M.D.
Petitioner in Pro Se
3751 Motor Ave Unit 34727
Los Angeles, CA 90034
Telephone: 949-332-0330
email: salmahagha@aol.com

r—I

RECgytjJ
WRIT OF CERTIORARI (Originating Ninth Circuit Case

2 ' 2021
Us..

0)
00

ro

Q_

I.

QUESTIONS PRESENTED

Petitioner’s two filings below received by Ninth Circuit on November 03, 2019
were deliberately destroyed by the Ninth Circuit. (Appendix Ex A, B, C)
A. First removed and destroyed filing received by Ninth Circuit.
RECEIVED
office of-tke clerk

1
2

LI S. COURT OF AFPEA’-S
PUBLIC INFORMATION UN T

Ninth Circuit Case No. 18-15202

WZOHOV-3 PH !2: U i
Originating US District Court Case No. 2;16-cv-0ii'24-JCM-NJK

3

FILED___ _
DOCKETED^.

4

----------------------------------------- -------- ------------- -------- nw£

int.a:

s

IN THE UNITED STATES COURT OF APPEALS

6
7

FOR THE NINTH CIRCUIT

8

9
10

Salma Agha-Khan
Appellant-Plaintiff

n
12

V.

13

Pacific Community Mortgage, Inc., et al.
Appellees-Defendants

14
15
16
17

APPELLANT'S THIRD MOTION TO DISQUALIFY

18

NINTH CIRCUIT BASED UPON MANDATORY AND

19

SELF-EXECUTING DISQUALIFICATION STATUTES

20

28 U.S.C, § § 144 and 455; AND JUDICIAL CODES OF
CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS 1,

21
22
■

2, 3; AFFIDAVIT/DECLARATION OF APPELLANT
r\i01

00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

B. Second destroyed filing received by Ninth Circuit.
V.
nlcOURT OF APPELS
PUSUC^ORMATIO;! UNb

i

2

2320 HOV “3 PHKI :
Ninth Circuit Case No. 18-15202
Originating US District Court Case No. 2:16-cv-01124-^NH\13K
docketed...

3

dwT

4

IN THE UNITED STATES COURJ OF APPEALS

5

l*s

tI'; mftt

FOR THE NINTH CIRCUIT

6

7
8
9

SALMA AGHA-KhiAN,-M.-Dr> - Plaintiff-Appellant
V.

10

Pacific Community Mortgage, In., et al.
ii

Defendant-Respondent
12
13

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE
14

ELECTRONIC REGISTRATION SYSTEMS, INC., THEODORE
IS

SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION
16

FOR SUMMARY AFFIRMANCE FILED CONCURRENTLY WITH
17

THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION
18

BASED UPON MANDATORY, SELF-EXECUTING STATUTES 28

19

U.S.C, § § 144 and 455
Art

C. Docket lacks Petitioner’s filings received on November 03, 2019.
10/08/2019 Q ja_
2 pg. toess kb

12/17/2019
2 pg. 12S.64 ke

Red derit order (Deputy Cterfi: MKS): The court has received Aurora Loan Services, LLC’s status report
(Docket Entry No. (491) and notice of entry of order extending the automatic stay imposed by 11 U.S.C. §
362 to certain non-debtor parties to this appeal (Docket Entry No. Q2J). Appellate proceedings are stayed
tor Aurora Loan Services, LLC; Mortgage Electronic Registration Systems, Inc.; Theodore Schultz; and
Trisha McMutlin only. This appeal win proceed as to the remaining parties. The opposed motions tor
summary affirmance (Docket Entry Nos. (23,1301) and appellant’s motion for disquaBfication (Docket
Bitty No. 1421)wfflbe addressed by separate order. The briefing schedule remains stayed pending further
order of the court. (11456390] (AF) (Entered: 10/08/2019 03:35 PM]
Red clerk order (Deputy Cleric MKS): This appeal has bear held m abeyance as to Aurora Loan
Services, LLC ("Aurora*) since Apr! 15,2019, mid as to Mortgage Electronic Registration Systems, Inc.

m<u

GO

TO
Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Any reasonable person will ask “what “special interest did Ninth Circuit have
in Petitioner’s case to act in this manner?” Petitioner is hoping that Supreme Court
Judges will also have this question when this Petition is placed before them.
1. Can Ninth Circuit dismiss the Appeal by Affirming the Summary Affirmance of
District Court after Ninth Circuit had deliberately destroyed Petitioner’s
Opposition ? (App Ex B, C)
2. Can Ninth Circuit issue Dismissal with pending Motions for their Recusal, after
they had deliberately and knowingly destroyed Petitioner’s Third Motion for
their Disqualification?
3. Does deliberate destruction of Petitioner’s filings received by Ninth Circuit not
constitute “Fraud Upon the Court by the Court Itself’ so proceedings are void?
4. Can Ninth Circuit delegate “adjudication” to Clerks to perform legal analysis,
quote statutes and case law to reach conclusions i.e. practice law without being
an active member of Bar Association?
5. Does Judicial Oath, Judicial Canons and Codes of Conduct include Court Clerks?
6. Are Judges and Clerks the same entity and can their titles be used
interchangeably in Orders? Or was this only because of a minority Pro Per?
7. Can a non-existing Lender have assets and assignees that can claim the assets?
8. Can such self-proclaimed “assignees” collect mortgage after “loan” is paid off in
full in SEC filings and have standing to perform a “non-judicial” foreclosure?
9. Did Ninth Circuit demonstrate malice and retaliate for bringing a lawsuit
naming three Ninth Circuit Judges as Defendants, including-Judge Consuelo M.
Callahan, appointed to the Appeal? (See NV Bk. Adv. 19-01074-ABL)?
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

0)
00
03

10. Is it not a duty of Federal employees to report Judicial Misconduct and other
white collar crimes to appropriate authorties for investigation?
U.S. Supreme Court stated in Price v. Vincent 538 U.S. 634 (2003) that a
party is “entitled to relief’ if they can demonstrate that lower “court's adjudication
of their claim was "contrary to" or an "unreasonable application of' this Court's
clearly established precedents.”
Based on above Petitioner is now turning to this Court for Justice through
legal adjudication denied to her by the recused Ninth Circuit that deliberately and
knowingly destroyed her filings in malicious retaliatory behavior to deliberately
benefit Respondents and continue Petitioner depravation.

LOCD

QJD

2?

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

II.

LIST OF PARTIES

Petitioner-Appellant-Plaintiff
Salma Agha-Khan, MD.

v.

Respondents-Appellees-Defendants
Pacific Community Mortgage Inc., a suspended California Corporation;

Pacific

Community Mortgage Inc., a suspended California Corporation, its successors and
assignees; Gold Reverse Inc., a dissolved California Corporation; Kurt Kingsolver, an
individual, and as agent for Pacific Community Mortgage Co. Inc., and as agent for
Gold Reverse Inc.; Quality Loan Service Corp., a California corporation - form
unknown; Bobbie Irias/Irlas, an individual and as agent for Quality Loan Service
Corp; Ronald Alonzo, an individual, and as authorized agent of Quality Loan Service
Corp; Bee Vang, an individual and as agent for Quality Loan Service Corp; Mortgage
Electronic Registration Systems, Inc. a Delaware agency/ corporation - form
unknown, Mary Jane Same, an individual and as Vice President of Mortgage
Electronic Registration Systems, Inc.; Trisha McMullin, agent for Aurora Loan
Services; Theodore Schultz, an individual and as Vice President of Mortgage
Electronic Registration Systems, Inc.; Servicelink, a business organization form
unknown; Servicelink-Irvine, a business organization form unknown; Aurora Loan
Services, a surrendered Corporation; Fidelity National Title , a business
a>
CtD
ro

Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

organization form unknown; Steven Joe, an individual;

Michael McNeill, an

individual; Juliann McNeil, an individual; Christopher J. Flaharty, an individual;
Nichole R. Flaharty, an individual; Wells Fargo Bank, N.A., a US national bank;
Wells Fargo Financial National Bank, a US bank; Christopher J. Flaharty, and
Nichole R. Flaharty, as Trustees of the Flaharty Family Trust; Flaharty Family
Trust, a trust including subject property; American Securities Company of Nevada, a
company form unknown; Noble Title, a Title company in Nevada; William Go, an
individual and Realtor in Prudential Americana Group; Prudential Americana
Group, a real estate company; Aurora Loan Services, LLC., a surrendered
Corporation; And Does 1 to 100 inclusive.
Appellees-Respondents

<u
QJD
OJ

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

III.

OPINION

No “Opinion” was issued by Ninth Circuit. The entire Appeal was adjudicated
by the Court Clerk, Molly C. Dwyer. Eighteen (18) out of total twenty-one (21)
“orders” in the Docket, were from this Clerk. (ECF 2, 4, 5, 6, 8, 14, 15, 16, 24, 33, 47,
53, 54, 56, 57, 58, 61, 64). Clerk issued Mandate, Recalled it, Issued Partial Mandate.
Case: 18-15202,02J05/202G. ID: 11585750. DktErrtry: 56. Page 1 of I

UNTIED STATES COURT OF APPEALS
FORTHENINIH ORCUII

SALMA AGKA-EHAN MU, MU,
Plamtiff-Appellant
v,
PACIFIC COMMUNITY
MORTGAGE, INC., a suspended
CafifbEiiia. Corporation. its successors
and assigns: et aL.

FILED
ms m 2020

m is-ism
D.C. No. 2:i6-cv-0II24-JCM-NJK
US. District Court fm-Nevada. Las
MANDATE

Defendants - Appellees.
The judgmeri ofthis Conit, entered JamHry 14.2020. takes effect this date.
TIriscousritates the fxmnal mandate ofthisConri issuslpuisuaii} to Rule
41(a) of fee Federal Rules ofAjgxdkte Ptooedom.
FOR IKE COURT:
MOLLY C.DWTER
CLERK OF COURT
Above Mandate was Recalled, “Issued in Error” and Partial Mandate Issued by Clerk

00CD

U)

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

04/24/2020 0 57
1pg.—
80.33 KB

Filed clerk order (Deputy Clerk: cw): The mandate issued on 02/05/2020 is recalled as issued in error.
{11670910] (CW)ptered: 04/24/202011.-35 AM]

04/24/2020 n to

PARTIAL MANDATE ISSUED issued as to all parties except Aurora Loan Services, LLG, Mortgage
Electronic Registration Systems, Inc, Theodore Schultz, and Trisha McMullin. (CMC, JHN and ADH)
[11670921] (CW) pntered: 04/24Q02011:38 AM]

1 ps, 88.62 KB

Then another Final Mandate was issued by the Clerk.
Case: 18-15202.12/01/2020. ID: 11910277, OMEntry: 04, Page 1 of 1

Uts

STATES COURT OF APPEALS

FILED

FGRT®NMMCiRCijir

DEC0I2020
iaiss'CjimMSBac

SALMA AGHA-KSAN. 'MB., MB,
PkintifT-Appellanf.
v.
PACIFIC COMMUNITY
MORTGAGE, INC., a suspended
CaKfomia Corporation- & successors
axxdassigns^etaL,

Bo.IS-15202
B.C. No. 2:16-crr-01124-JCM-NJK
'IIS. District Court fisrlferada las
Vegas
MANDATE

I>efsiid3iis - AppeD^s.
Thfijadgmstti ofiMs Court. entHredNcrceaibEr09,2020. takes effect &us
date.
Hasooosixhties the fbnn?l mandate of das Court issued ptcsnaiit to Ride
41(a) ofthe Federal Rules of Appellate Procedure.
FQRlffi COURT;
MOLLY CDWYER
CLERK OF COURT

cn

CD

2CUD
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

IV.

CORPORATE DISCLOSURE

In accordance with Supreme Court Rule 29.6 Petitioner, Salma Agha-Khan,
MD., Pro Se certifies that there are no other parties, corporations or entities that
have a direct or pecuniary interest in the outcome of this case.

O
t—I

QJ
00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

V.

APPENDIX

I.

QUESTIONS PRESENTED

2-5

II.

LIST OF PARTIES

6-7

III.

OPINION

8-9

IV.

CORPORATE DISCLOSURE

V.

APPENDIX

11 - 12

VI.

BASIS FOR JURISDICTION

13 - 15

VII.

UNTED STATES CONSTITUTION, LAWS STATUTES

16 - 26

10

VIII. NTRODUCTION

27 - 32

IX.

STATEMENT OF CASE

33 - 45

X.

LEGAL ARGUMENTS PERSUANT TO 10(a) FOR
GRANTING THE WRIT OF CERTIORARI

46

A. NINTH CIRCUIT’S DELIBERATE DESTRUCTION OF PETITIONER’S
FILINGS ESTABLISHED VALIDITY OF HER CLAIM

47 - 50

B. NINTH CIRCUIT DELEGATED ADJUDICATION OF APPEAL TO
CLERK VIOLATING JUDICIAL AND CLERICAL DUTIES

51 - 59

C. NINTH CIRCIT FAILED TO PERFORM DE NOVO REVEW
EVEN WITH SEC FRAUD ALLEGATION

60 - 62

D. NINTH CIRCUIT VIOLATED JUDCIAL OATH, JUDICIAL CANONS AND
CODES OF CODUCT AND ETHCS

63 - 67

E. NINTH CIRCUIT LACKED JURISDICTION TO ISSUE JUDGMNETS
SINCE FLING OF PETITIONER’S FIRST RECUSAL MOTION BASED
t—I

UPON MANDATORY SELF-EXECUTNG STATUTES
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

68 - 71

CD
CUD

ro

Q_

F. NINTH CIRCUIT JUDGES ACTING WTHOUT JRISDICTION
LOST THEIR JUDICIAL IMMNTY.

72 - 73

G. NINTH CIRCUITS APPLCATION OF 28 SC 455, MANDATORY RECUSAL
STATUTE REEKS OF ABOLISHED “DOCTRINE TO SIT” VASTLY
VARYING FROM TS APPLICATON BY SUPREME COURT AND
OTHER CIRCUTS. WHY IS THERE THIS SPLIT?

74-81

H. NINTH CIRCUIT HAS INCONSISTENT RULINGS WHERE RULING
HEREIN CONTRADICTS THEIR OWN PRIOR RULNGS

82-87

I. NINTH CIRCUITS PROCEEDINGS WERE DEPARTED FROM USUAL
COURSE, LAW AND STATUTES DIRECTLY VIOLATING THEM....88 - 91
J. NINTH CIRCUIT DELIBERATELY AND KNOWINGLY
FAILED TO ACT ON CRITICAL ISSUES

92 - 94

K. NINTH CIRCUIT ACTIVELY OBSTRUCTED JUSTCE

95 - 98

L. PETITIONER WAS DENIED DUE PROCESS

99 - 102

M. PETITIONER, WAS TREATED DIFFERENTLY PERHAPS
BECAUSE SHE WAS A MINORITY WOMAN

103 - 106

N. NINTH CIRCUIT’S USE OF WORD “INSUBSTANTIAL” IS WITHOUT
LEGAL DIGNTY AND IT MUST PROHIBIT ARBITRARINESS.....107 - 109
O. FEDERAL EMPLOYEES VIOLATED DUTY TO REPORT MSCONDUCT
P. FRAUD UPON THE COURT VITIATES PROCEEDINGS
XI.

CONCLUSION

XII.

WORD COUNT CERTIFICATION

112 - 114
115 - 119
120

CNJ

*—I

XIII. PROOF OF SERVICE WITH SERVICE LIST
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

121 - 125

O)

00
03
CL

STATUTES AND US CONSTITUTION
28 U.S.C. § 455

2, 3, 20, 27, 28, 42, 43, 47, 48, 66, 67, 69, 70,

74, 75, 77, 78, 79. 80, 81, 87, 104
28 U.S.C. § 144

2, 3, 19, 27, 28, 42, 43, 47, 48, 66, 67, 69, 70,

78, 79, 80, 81, 87, 104
Judicial Code of Conduct and Ethics

2, 4, 18, 28, 42, 47, 63, 66, 67, 69, 78,

90, 96, 106
Judicial Canons 1, 2, 3

2, 4, 19, 28, 42, 47, 63, 64, 65, 66, 67, 69, 81, 90, 96

FRAP 41(a)

8, 9

U.S. Const, art. Ill, § 2, cl. 1, 2

13

28 U.S.C. § 1251(a)

13

28 U.S.C. §1251

13

US Constitution

13, 17, 30, 31, 32, 40, 45, 67, 73, 91, 94, 96, 98, 99,

104, 109, 110, 115, 116, 117, 118, 119
28 U.S.C. § 1254(1)

15

25 CFR § 11.420

16, 49

18 U.S.C. § 1519

16, 49

California Penal Code Section 141

16, 49

California Penal Code Section 132

16, 49

California Penal Code Section 134,

16, 49

California Penal Code Section 135

16, 49

California Title 15 Crimes

16, 49
<D

n>

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

16, 49

NRS.199.220

16, 25, 49

Felony
First Amendment

17, 96, 97, 98

Fourth Amendment
Fifth Amendment.

17, 96, 104
17, 96, 99, 104

Seventh Amendment

17, 96, 104

Eleventh Amendment

17, 96, 104

Fourteenth Amendment
California Civil Rights

17, 96, 99, 104, 118
17, 96, 104, 115, 116, 117

California Civil Rights Article 1 Section 2

17

California Civil Rights Article 1 Section 3

17

California Civil Rights Article 1 Section 7

18

California Civil Rights Article 1 Section 9

18

California Civil Rights Article 1 Section 13

18

Nevada Civil Rights

18, 32, 40, 45, 96, 115, 116, 117

28 U.S.C. section 535(b) (2002)

20,110

Federal Whistle Blower Statute

20, 110

5 C.F.R. § 2635.101

20, 110
20

Codes of Professional Conduct
42 U.S. Code § 1981: Equal Rights Under the Law
42 U.S. Code § 1982: Property Rights of Citizens

20, 73, 96
20, 115, 116

CD

£3

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

42 U.S. Code § 1983: Civil Action for Deprivation of Civil Rights

20, 73, 85

115, 116, 117
42 U.S. Code § 1985: Conspiracy to Interfere with Civil Rights

20

42 U.S. Code § 1986:

20

NRS 205.090

20

NRS 193.130

20

NRS 205.095

20

NRS 205.110

21

NRS 205.115

21

NRS 205.120

21

NRS 205.330

21

NRS 598D.020

21

NRS 645A.010

21

NRS 645B.0121

21

NRS 598D.050

21

NRS 645B.0125

21

NRS 645E.100

21

NRS 645B.0127

21

NRS 205.375

21

NRS 205.377

21

NRS 598.0903 to 598.0999, inclusive

21

NRS 207.380

21
<U
GO

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

NRS 205.395

21

Nev. Rev. Stat. § 112.230

21

NRS 42.001 et. seq

21, 115, 116

NRS 42.005

21

NRS 645.440

21

NRS 107.080

21

NRS 645F

21, 116

NRS 645F.320

21, 116

NRS 645F.330

21, 116

NRS 645F.365

21, 116

NRS 645F.063

21, 116

NRS 645F.267

21, 116

NRS 645F.400

21, 116

NRS 645F.405

21, 116

NRS 645F.410

21, 116

NRS 645F.420

22, 116

NRS 645F.430

22, 116

NRS 645F.440

22, 116

NRS 645F.445

22, 116

NRS 645F.450

22, 116

NRS 645

22, 115, 116

NRS 675

22, 115, 116

>
<D
txO

ro

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

11 U.S.C. § 101 et. seq

22

11 U.S.C. § 546

22

11 U.S. Code § 362(a), (c), (k)

22

28 U.S.C. § 586

22

28 U.S.C. § 586(a)

22

28 C.F.R. § 58.6(a)(3)

22

28 C.F.R. § 58.5

22

28 U.S.C. § 586(d)

22

28 C.F.R § 58.3

22

11 U.S.C. §321

22

11 U.S.C. § 704(a)

22

11 U.S.C. § 554

22

11 U.S.C. § 704

22

Section 363(b)

22

Fed. R. Bankr. P. 2002(a)(2)

22

Fed. R. Bankr. P. 6004(a)

22

11 U.S.C. § 327(a)

22

11 U.S.C. § 330

22

11 U.S.C. § 704(a).

22

11 U.S.C. §101(14).

22

11 U.S.C. § 327(b)

22

11 U.S.C. § 327(c).

22

><V

txO
^ro

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

11 U.S.C. § 327(e).

22

Section 328(c)

22

Section 326(d)

22

11 U.S.C. § 327(f)

22

11 U.S.C. § 704(a)(3)

23

11 U.S.C. § 704(a)(4)

23

11 U.S.C. § 704(a)(5)

23

Fed. R. Bankr. P. 3001

23

Fed. R. Bankr. P. 3002(a)

23

18 U.S.C. §3057

23

18 U.S.C. §152

23

18 U.S.C. § 153

23

18 U.S.C. § 154

23

18 U.S.C. § 155

23

18 U.S.C. § 157

23

Sarbanes-Oxley Act of 2002

23

18 U.S.C. §1519

23

California Civil Code Section 43

23

California Civil Code Section 51

23

California Civil Code Section 52

23

Hobbs Act 18 U.S.C. § 151

23

18 U.S.C. § 1346

24

>CO

W)

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

24

18 U.S.C. § 666
18 U.S.C. § 1341 Mail Fraud

24, 25, 93, 95, 115, 116

18 U.S.C. § 1343 Wire Fraud,

24, 25, 93, 95, 115, 116, 117

18 U.S.C. § 1344 Financial Institution Fraud

25, 93, 95, 115, 116, 117

18 U.S.C. § 1503 Obstruction of Justice

25, 45, 46, 95

18 U.S.C. § 1510 Obstruction of Justice

25

18 U.S.C. § 1511 Obstruction of Justice related

25

18 U.S.C. § 1512 Obstruction of Justice related

25

18 U.S.C. § 1513 Obstruction of Justice related,

25

18 U.S.C. § 1951

25

18 U.S.C. § 1952

25

18 U.S.C. §1953

25

18 U.S.C. § 1956

25

18 U.S.C. § 1957

25

Section 2332(b)(g)(5)(b)

25

18 U.S.C. § 154 Adverse Interest and Conduct of Officers

25

18 U.S.C. § 1001

25

18 U.S.C. § 1961ET SEQ RICO

25, 93,115, 116, 117

18 U.S.C. § 201

25

18 U.S.C. § 659

25

18 U.S.C. §641

25

18 U.S.C. § 654

26

>a>

GO

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

11 U.S.C. § 362

28, 43, 48, 70

18 U.S.C. § 1952

25

Perjury

29, 93, 95,109, 117

Due Process

30, 31, 32, 40, 45, 46, 80, 99, 101, 102, 115, 116

Rule 10(a)

46, 74, 88
52, 68

FRCP 54(b)
FRCP 54
FRCP 42.1

52
52, 53, 55, 68,89, 96, 104

California Business and Professions Code 6125

52, 65

California Business and Professions Code 6126

52, 65

FRAP 45

52, 59, 90

Local Rule 30-1.7

53

Local Rule 27-11

53, 55

Rule 41(a)

57, 58

12(b)(6)

60, 86, 92

28 U.S. Code § 453: Judicial Oath

63

Judiciary Act of 1789

63

TILA,

93, 118

RESPA.

93

State Created Danger,

102

28 U. S. C. §2254(d)(l)

102

Federal Question

108

><D

CUD

OJ

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

FRCP Rule 60(b)(3)

112

FRCP Rule 60(b)(4)

112

FRCP Rule 60(b)

112

UFTA.

115, 118

NRS 112.180

115, 116

NRS 112.190

115, 116

18 U.S.C. § 1342

115, 116

15 U.S.C. § 1601

115, 116

26 U.S.C. § 860g,

115, 116

Lack of Notice and Takings Clause

115, 116

FDCPA

115, 116, 118

Racketeering,

115, 116

Negligence

115, 116

15 U.S.C. § 1692

115, 116

Unjust Enrichment

115, 116

NRS 645F.400

116

Conversion

116

Trespass to Chattel

116

Slander,

115, 116, 118

X
<u

bo

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

CASE LAW
Agha-Khan v. United States et. al. NV Bk. Adv. 19-01074-ABL/GS (Bankruptcy
Lead Case No. 16-16593 Title Alessi & Koenig. LLC,

4, 14, 29, 33, 41, 81, 91

In Re Salma H. Asha California Eastern District Bankruptcy Case 10-16183

39

Agha-Khan v. Mortgage Registration System Inc, et. al. Nevada District Court Case
No. 2:17-cv-02739-GMN-CWH

33, 54, 55, 89, 104

Price v. Vincent 538 U.S. 634 (2003)

5

United States v. Hooten. 693 F.2d 857, 858 (9th Cir. 1982)

29, 107

Hebbe v. Pilier. 627 F.3d 338, 341-42 (9th Cir. 2010)

29, 107

Williams vs. Pennsylvania. Certiorari to Supreme Court of Pennsylvania No. 155040. Argued February 29, 2016—Decided June 9, 2016. In the BRIEF OF FORMER
APPELLATE

COURT JURISTS AS AMICI

CURIAE

IN

SUPPORT

PETITIONER,

OF

30, 31

Aetna Life Ins. Co.. 475 U.S. 813, 822 (1986)

30

Ward v. Village of Monroeville. 409 U.S. 57, 60 (1972)

30

Mayberry v. Pennsylvania. 400 U.S. 455, 466 (1971)

30

Withrow v. Larkin, 421 U.S. 35, 47 (1975)

31

In re Murchison. 349 U.S. 133, 136 (1955)

31, 91, 101, 103

Tellabs nc. v. Makor Issues & Rights Ltd.. 551, 322, 127 S. Ct. 2499, 168 L.Ed.2d
179 (2007)

32, 60, 86, 92

Caverton v. A. T. Massey Coal Co 556 U.S. 868 129 S.Ct. 2252 (S. Ct. 2009) 173
L.Ed.2a 1208. 77 USLW 4456.

32, 99, 103

X<D
TO

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

Chacon v. Babcock. 640 F.2d 221 (9th Cir.)

52, 68

Fidelity & Deposit Co. u. City of Adelanto, 87 F.3d 334, 336 (9th Cir.)

53

Anderson v. Allstate Ins. Co.. 630 F.2d 677, 680-81 (9th Cir.)

53

Freeman v. DirecTV. Inc., 457 F.3d 1001, 1004 (9th Cir. 2006)

60, 86

Asyeman v. INS. 296 F.3d 871, 876 (9th Cir. 2002),

60, 86

Stilwell v. Smith & Nephew. Inc.. 482 F.3d 1187, 1193 (9th Cir. 2007)

60, 86

United States v. Waites. 198 F.3d 1123, 1126 (9th Cir. 2000)

60, 86

Lawrence v. Den’t of Interior, 525 F.3d 916, 920 (9th Cir. 2008)

61, 86

Lewis v. United States. 641 F.3d 1174, 1176 (9th Cir. 2011).

61, 86

Branch Banking & Tr. Co. v. D.M.S.I.. LLC,871 F.3d 751,759 (9th Cir. 2017)...61, 86
Mull for Mull v. Motion Picture Indus. Health Plan. 865 F.3d 1207, 1209 (9th Cir.
2017)

61, 86

Szaier v. City of Los Angeles. 632 F.3d 607, 610 (9th Cir. 2011)

61, 86

Universal Health Servs.. Inc, u. Thompson. 363 F.3d 1013, 1019 (9th Cir. 2004)...61,
86
Barrientos v. Wells Fargo Bank. N.A., 633 F.3d 1186, 1188 (9th Cir. 2011)

62, 86

Ditto v. McCurdy. 510 F.3d 1070, 1075 (9th Cir. 2007)

62, 86

Rabkin v. Oregon Health Sciences Univ.. 350 F.3d 967, 971 (9th Cir. 2003)..... 62, 86
Frudden v. Pilling. 877 F.3d 821, 828 (9th Cir. 2017)

62, 86

Olsen v. Idaho State Bd. of Medicine. 363 F.3d 916, 922 (9th Cir. 2004). [123]... 62, 86
Balint v. Carson City. 180 F.3d 1047, 1054 (9th Cir. 1999)

62, 86

Simo v. Union of Needle trades. 322 F.3d 602, 610 (9th Cir. 2003)

62, 86

X<D

00

n:

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

Rhode Island v. Massachusetts. 37 U.S. 657, 718, 12 Pet. 657, 726, 9 L. Ed. 1233
(1838)

71

Elliot v. Piersol. 1 Pet. 328, 340, 26 U.S. 328, 340 (1828)

71

Harlow v. Fitzserald. 457 U.S. 800, 818, 102 S.Ct. 2727, 73 L.Ed.2d 396 (1982)

72

Rankin v. Howard. 633 F.2d 84-49 (9th Cir. 1980). Cert, denied, 451 U.S. 939, 101
S.Ct. 2020, 68 L.Ed.2d 326 (1981)

72

Lopez v. Vanderwater. 620 F.2d 1229. 1235-37 (7th Cir. 1980)

72

Bradley v. Fisher. 80 U.S. (13 Wall.) 335, 351-2 (1872), 20 L.Ed. 646

72, 73

Sparks v. Duval County Ranch Co., Inc., 604 F.2d 976 (5th Cir.1979) (en banc), aff'd
sub nom.

72

Dennis v. Sparks. _ U.S. _, 101 S.Ct. 183, 66 L.Ed.2d 185 (1980), (5th Cir.) 604 F.2d at

978. Supreme Court granted 445 U.S. 942, 100 S.Ct. 1336, 63 L.Ed.2d 775 (1980),
denied 445 U.S. 943, 100 S.Ct. 1339, 63 L.Ed.2d 777 (1980)

72

Turner v. Raynes. 611 F.2d 92. 95 (5th Cir. 1980)

73

Stump 435 U.S. at 358, 98 S.Ct. at 1105

73

Duba v. McIntyre. 501 F.2d 590. 592 (8th Cir.1974), cert, denied, 424 U.S. 975, 96
S.Ct. 1480, 47 L.Ed.2d 745 (1976)

73

Ryan v. Scossin. 245 F.2d 54. 58 (10th Cir. 1957)

73

El Fenix de Puerto Rico v. The M/ Y Johanny 36 F.3d 136 (1st Cir. 1994)

75

United States v. Cowden. 545 F.2d 257, 265 (1st Cir. 1976)

75

United States v. Arache, 946 F.2d 129, 140 (1st Cir. 1991)

75

In Re Drexel Burnham Lambert Inc. 861 F. 2d. 1307

75

X<L)

QjD

CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

Pepsico, Inc. v. McMillen 764 F.2d 458, 460 (7th Circ. 1985)

75

United States v. Bernstein, 533 F. 2d 775, 7785 (2d Cir.)

75

In Re Kensington Intern Ltd. 353 F. 3d. 211 (3rd Cir. 2003)

75

Alexander v. Primerica Holdings Inc.. 10 F.3d 155, 162 (3rd Cir. 1993)

76

Trevino v. Johnson 168 F.3d 173 (5th Cir. 1999)

76

Davis v. Board ofSch. Comm’rs. 517 F.2d 1044,1052 (5th Cir. 1975)

76

United States v. Norton. 700 F.2d 1072, 1075 (6th Cir.), cert denied,461 U.S. 910
(1983)

76

United States v. Dandy. 998 F.2d 1344, 1349 (6th Cir. 1993),

76

Roberts v. Bailar. 625 F..2d 125, 129 (6th Cir. 1980)

77

U.S. v. State of Ala. 828 F.2d 1532 (11th Cir. 1987)

77, 78

Fletcher v. Conoco Pipe Line Co 323 F. 3d 661 (8th Cir. 1994)

77

Nichols v. Aliev 71 F.3d. 371 (10th Cir. 1995)

77

Bonner v. City of Prichard. 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc)

77

Baker Hostetler v. U. S. Dept of Commerce 471 F.3d 1355 (D. C. Cir.2006)

78

Liliebers v. Health Services Acquisition Corn.. 486 U.S. 847, 858 n. 7, 108 S. Ct. 2194,
2202 100 L. Ed.2d 855 (1988)

78

Litekv v. United States. 510 U.S. 540, 555 S.Ct. 1147,1157,127 L.Ed.2d 474 (1994)..79
Offutt v. United States. 348 U.S. 11 (1954)

79

United States v. Sibla. 624 F.2d 864 (9th Cir. 1980)

80, 87

United States v. Olander, 584 F.2d 876, 882 (9th Cir. 1978)

80, 87

United States v. Carisnan. 600 F.2d 762, 764 (9th Cir. 1979)

80, 87

X<D

bO

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

Davis. 517 F.2d at 1052

80, 87

Kester v. Citimortsase. Ninth Circuit Memorandum decision (2017)

82, 83

In reMorts. Elec. Registration Svs. Inc. 754 F.3d 772, 783-84 (9th Cir. 2014)....83, 117
Lucas v. Dep’t of Corr.. 66 F.3d 245, 248 (9th Cir. 1995)

83

Flowers v. First Hawaiian Bank. 295 F.3d 966, 976 (9th Cir. 2002)

83

Gerber v. Hickman. 291 F.3d 617, 623 (9th Cir. 2002) (en banc)

83

Thinket Ink Info. Res.. Inc, v. Sun Microsystems. Inc.. 368 F.3d 1053, 1061 (9th Cir.
2004)

83

Swartz v. KPMG LLP. 476 F.3d 756, 764 (9th Cir. 2007)

84

NL Indus.. Inc, v. Kaplan. 792 F.2d 896, 898 (9th Cir. 1986)

84

United States of America v. Nicholas Lindsey (9th Cir. No. 14-10004)

84

United States v. Jinian 725 F.3d 954, 960 (9th Cr. 2013)

84

United States v. Dimiceli (9th Cir. Case No. 16-10157. Aug 19, 2019 Opinion)

84

Unsher v. City of Los Anseles 828 F.2d 556 (9th Cir. 1987)

85

Watson v. Weeks. 436 F.3d 1152, 1157 (9th Cir. 2006)

85

Kirtlev v. Rainey. 326 F.3d 1088,1092 (9th Cir. 2003)

85

Knox v. Davis. 260 F.3d 1009, 1012 (9th Cir. 2001)

85

Zimmerman v. City of Oakland. 255 F.3d 734, 737 (9th Cir. 2001)

85

Bardzik v. County of Oranse. 635 F.3d 1138, 1144 (9th Cir. 2011)

85

Webb v. Sloan, 330 F.3d 1158,1163 n.4 (9th Cir. 2003)

85

Cortez v. County of Los Anseles. 294 F.3d 1186, 1188 (9th Cir. 2002)

85

United Transp. Union, 401 U.S. at 585

96

>

Xa)

ao

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

Bounds v. Smith. 430 U.S. 817 (1977)

96

Delew v. Wagner, 143 F.3d 1219, 1222 (9th Cir. 1998)

96

Borough of Duryea v. Guarnieri, 564 U.S. 379, 388, 403 (2011)

97

District of Columbia v. Heller, 554 U.S. 570, 577 (2008)

97

Devt of Revenue v. Ass’n of Wash. Stevedoring Cos., 435 U.S. 734, 759 (1978)

97

Rhode Island v. Palmer. 253 U.S. 350, 407 (1920)

97

Knowlton v. Moore. 178 U.S. 41, 87 (1900)

97

Marburv v. Madison. 5 U.S. 137, 174 (1803)

97

Holder v. Humanitarian Law Project. 561 U.S. 1, 4 (2010)

97

Rhodes v. Chapman. 452 U.S. 337 (1981)

98

Bill Johnson’s Rests., Inc, v. NLRB. 461 U.S. 731(1983)

98

Turney v. Ohio. 273 U.S. 510, 523, 47 S.Ct. 437, 71 L.Ed, 749

99

Withrow v. Larkin 421 U.S. 35, 47, 95 S. Ct. 1456, 43 L.Ed.2d 712

99

Ward v. Monroeville. 409 U.S. 57, 93 S.Ct. 80, 34 L.Ed.2d 267

99

Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 106 S.Ct. 1580, 89 L.Ed.2d 823

99

Mathews v. Eldridse 424 U.S. 319 96 S.Ct. 893
Wolfe v. McDonnell 418 U.S. 539, 557-558 (1974)

99, 100
100, 101

Phillips v. Commissioner. 283 U.S. 589, 596-558 (1974)

100

Dent v. West Virginia. 129 U.S. 114, 124-125 (1889)

100

Joint Anti-Fascist Comm. V. McGrath. 341 U.S. 123, 168 (1951)

100

Armstrong v. Manzo. 380 U.S. 545, 552 (1965)

100

Grannis v. Ordean, 234 U.S. 385, 394 (1914)

100

>

Xai

DO

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

Goldberg v. Kelly supra, at 263-271

100

Fusari v. Steinberg, 419 U.s. 379, 369 (1975)

100

Daniels v. Williams. 474 U.S. 327, 331 (S.Ct. 1986)

100, 101, 119

Murray’s Lessee 332*332 v. Hoboken Land & Improvement Co.. 18 How 272, 277
(1856)

100

County of Sacramento v. Lewis Supreme Court

100

Bank of Columbia v. Okely, 4 Wheat. 235—244 [(1819)]:

100

Hurtado v. California, 110 U.S. 516, 527 (1884)

100

Fuentes v. Shevin. 407 U.S. 67, 82 (1972)

101

Gromley v. Wood El. (S.Ct. 2014),

102

Price v. Vincent 538 U.S. 634 (2003)

102

Williams v. Taylor, 529 U.S. 362, 405-406

102

Page v. United States. 356 F.2d 337. 339 n. 1 (9th Cir. 1966)

107

Bell Atlantic Cory, v. Twombly, 550 U.S. 544, 570 (2007)

108

Hishon v. King & Spalding, 467 U.S. 69, 73 (1984)

108

Hosp. Bldg. Co. v. Trustees of RexHosp.. 425 U.S. 738, 740 (1976)

108

Love v. United States. 915 F.2d 1242, 1245 (9th Cir. 1989)

108

Haines v. Kerner. 404 U.S. 519, 520 (1972)

108

Western Mining Council v. Watt. 643 F.2d 618, 624 (9th Cir. 1981)

108

Department of Commerce v. United States House of Representatives. 525 U.S. 316
(1999)

108

Bulloch v. United States. 763 F.2d 1115, 1121 (10th Cir. 1985),

112

>

X<1)

00
O)

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

In re Village of Willowbrook, 37 Ill.App.2d 393 (1962)

112

Allen F. Moore v. Stanley F, Sievers. 336 Ill. 316; 168 N.E. 259 (1929)

112

Dunham v. Dunham, 57 IlLApp. 475 (1894), affirmed 162 Ill. 589 (1896)

112

Skelly Oil Co. v. Universal Oil Products Co.. 338 Ill.App. 79, 86 N.E.2d 875, 883-4
(1949)

112

Thomas Stasel v. The American Home Security Corporation, 362 Ill. 350; 199 N.E.
798 (1935)

112

United States v. Burke. No. 05-5277, 2006 WL 2135044, *1 (3d Cir. 2006)

112

Herrins v. United States. 424 F.3d 384, 389 (3d Cir. 2005)

112

United States v. Barbosa, No. 07-1292, 2007 WL 2050881, *1 (3d Cir. 2007)

112

Demianiuk v. Petrovsky. 10 F.3d 338, 348 (6th Cir. 1993),

112

Kupferman v. Consol. Research & Mfs. Cory., 459 F.2d 1072

113

Hadses v. Yonkers Racins Corp.. 48 F.3d 1320

113

Bailey v. Internal Revenue Service. No. 98-CV-123-TUC-RTT (JMR), 1998 U.S. Dist.
Lexis 21517 at *26 (D. Ariz. 1998)

113

Wright, Miller & Kane at 2870

113

England v. Doyle. 21 F.2d 304, 309 (9th Cir. 1960)

113

Elliot v. Piersol. 1 Pet. 328, 340, 26 U.S. 328, 340 (1828)

114

Rochin v. California 342 U.S. 165 (1952)

118

McCulloch v. Maryland 4 Wheat. 316, 407 (1819)

119

>

X<D

GO

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

MISCELLANEOUS PUBLICATIONS
The Brennan Center’s Brief in Support of Petitioner in the Williams Case:
The Brennan Center for Justice amicus curiae brief

31

Brief amici curiae of Brennan Center for Justice and Justice at Stake, filed on
12/7/15

32

Brief amicus curiae of Constitutional Accountability Center, filed on 12/7/15

32

Brief amici curiae of The American Civil Liberties Union, and The ACLU of
Pennsylvania, filed on 12/7/15

32

Brief amicus curiae of The American Academy of Appellate Lawyers, filed on
12/7/15

32

Brief amici curiae of Former Judges with Prosecutorial Experience, filed on 12/7/15
32

Brief amici curiae of The American Bar Association, filed on 12/7/15

32

Brief amici curiae of The Ethics Bureau at Yale, filed on 12/7/15

32

Brief amici curiae of Former Appellate Court Jurists, filed on 12/7/15

32

FBI Press Release: “Public Corruption: Court Room For Sale. Judge Gets Jail
Time In Racketeering Case” https://www.fbi.gov/news/stories/public-corruptioncourtroom-for-sale 1

32

https://www.lexisnexis.eom/lawschool/resources/p/casebrief-tellabs-inc-v-makorissues-rights-ltd.aspx

60, 87

The First Amendment Right to a Remedy. Benjamin Plener Cover University of
California, Davis [Vol. 50:1741]

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

97

>
X<L>
2bo

James E. Moliterno, Federal Government Lawyers Duty to Breach Confidentiality;
Roger C. Cramton, The Lawyer as Whistleblowe; Robert P. Lawry. Who is the Client
of the Federal Government Lawyer: An Analysis of the Wrong Question, 37 Fed.
B.Ass’nJ. 61, 62(1978)
https: //www. justice, sov/ imd/ethics-handbook

110-111
111

X
X<u

CUD

^ro

WRIT OF CERTIORARI (Originating Ninth Circuit Case No. 18-15202

VI.

BASIS FOR JURISDICTION

The United States Constitution provides that the Supreme Court shall have
jurisdiction in all cases in which a State is a party. U.S. Const, art. Ill, § 2, cl. 1, 2.
“The Supreme Court shall have original and exclusive jurisdiction of all cases
between two or more States

28 U.S.C. § 1251(a)

Recent Supreme Court practice has read § 1251’s “shall” as meaning “may.”
In cases where this Court declines to exercise its exclusive jurisdiction, it deprives a
citizen of a forum in which to have grievances against others heard. This Court,
therefore, has in effect taken sides in these controversies, which is contrary to the
Framers’ design.

The Petitioner therefore asks this Court to use its jurisdiction.

Petitioner has no other redress for her remedy and obtain justice denied to her.
A.

District Court of Nevada:
Petitioner filed the Complaint on May 19, 2016 (ECF 1), alleging Fraud with

Specificity, SEC Fraud, Bankruptcy Fraud, Attorney Fraud etc., deliberate and
knowing violations of United States Constitution, Laws and Statutes, mortgage
fraud, recording of forged title documents signed by well-established robo-signers, to
lay fraud claim, collect mortgage and steal Petitioners home.
Petitioner also alleged that since a “lender” did not exist, assets and loan could
not exist and no assignees, beneficiaries etc could exist. Also the “loan” was fully
paid off in a few months of origination in SEC filings. Respondents were selfproclaimed assignees defrauding Petitioner, Courts, SEC.
The Complaint provided copies from State of Nevada and California as to non-

co
t—i

existent status of Lender, SEC filings showing unsigned Deed of Trust, paid off loan.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

<D
CIO
CD

Q_

Other recordings showed fraud flings signed by well-established robo-signers.
Petitioner was not allowed Discovery or to Amend her Complaint upon
discovery that Quality Loan “beneficiary” was owned by Attorneys that obtained
fraudulent relief from Bankruptcy Court. (ECF 105 Ex 1). Not one hearing held.
District Court tried to keep Petitioner unaware of proceedings as no Proof of
Service was attached to any of their Orders, Notices and proceedings. Petitioner’s
Moton for recusal was also denied (ECF 98).
Complaint was dismissed on July 31, 2018, ECF 190, also awarding judgment
against Plaintiff to defaulted defendants.
B.

Ninth Circuit:
Appeal Brief was entered in the Docket on April 02, 2019, ECF 20 following

original submission on Oct 25, 2018. (collecting twice the amount of filing fee).
The entire Appeal was adjudicated by the Court Clerk, Molly C. Dwyer. Total
twenty-one (21) “orders” were in the Docket. Eighteen (18) were from this Clerk.
Judge Consuelo M. Callahan was appointed to the case who with two other
Ninth Circuit Judges were simultaneously defending their actions in Nevada
Bankruptcy Court Case No. 19-01074-ABL-GS. (ECF 60).
Petitioner’s first Motion for Disqualification of Ninth Circuit was ignored;
second unopposed motion was kept hanging (ECF 42) was ignored till Appeal
Dismissal; Third Motion for Disqualification was destroyed.
Three (3) Orders in the Docket entered by Clerk were by Judges but actual
Orders did not bear any signatures to authenticate them. (ECF 55, 60, 63). No Orders
*—I

were not signed by anyone.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CtO
03

Appeal ws dismissed by Ninth Circuit Affirming the Summary Affirmance of
District Court first by Defendant-Judge Callahan on January 14, 2020 (ECF 55).
Then Defendant Judge was switched by Judge Barry L. Silverman and same Order
reissued July 17, 2020 (ECF 60).
Mandate issued by Clerk on February 05, 2020 (ECF 56); Recalled by Clerk
on April 24, 2020 (ECF 57); Partial Mandate by Clerk issued April 24, 2020 (ECF
58). Order of Affirmance recalled by Clerk on July 17, 2020 (ECF 59). Mandate
reissued by Clerk August 10, 2020 (ECF 61). Mandate reissued by Clerk December
01, 2020 (ECF 64). All were unsigned.
No Opinion and Orders were published.
Review of this Judgment by Ninth Circuit Court is invoked based up 28 U.S.C. §
1254(1).

m
*—i

cuo
TO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

VII.

UNITED STATES CONSTITUTION, AMENDMENTS,

CALIFORNIA AND NEVADA CIVIL RIGHTS AND OTHER
STATUTES
A. CRIMINAL CODES (Pertaining to Tampering)
Destruction of Court records is a criminal offence.
1. FEDERAL CODES
25 CFR § 11.420: Tampering with records.
A person commits a misdemeanor if, knowing that he or she has no privilege to do
so, he or she falsifies, destroys, removes or conceals any writing or record, with
purpose to deceive or injure anyone or to conceal any wrongdoing.
18 U.S. Code § 1519 Destruction, Alteration or Falsification of Records
Whoever knowingly alters, destroys, mutilates, conceals, covers up, falsifies, or
makes a false entry in any record, document, or tangible object with the intent to
impede, obstruct, or influence the investigation or proper administration of any
matter within the jurisdiction of any department or agency of the United States or
any case filed under title 11, or in relation to or contemplation of any such matter or
case, shall be fined under this title, imprisoned not more than 20 years, or both.
California Penal Code Section 141
It is illegal to alter, modify, plant, place, conceal, manufacture, or move any physical
matter with the intention of causing someone to be charged with a crime, or for the
physical matter to be used as evidence in a trial, inquiry, or proceeding.
2. CALIFORNIA CODES
California Penal Code Section 132,
California Penal Code Section 134,
California Penal Code Section 135
California Title 15 Crimes
3. NEVADA CODES
NRS 199.220 prohibits purposely destroying evidence. Specifically, it is a crime to
destroy evidence with the intent either to 1) Conceal a felony: 2) Protect a felon; 3)
Obstruct the law; or 4) Prevent the production of the evidence.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

t—I
CD

CUD
00
Q_

B. UNITED STATES CONSTITUTION
abridging the
FIRST AMENDMENT: Congress shall make no law
freedom of speech
and to petition the Government for a redress of grievances.
FOURTH AMENDMENT: The right of the people to be secure in their persons,
houses, papers, and effects...........
FIFTH AMENDMENT: No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand Jury, ...............;
nor shall any person be subject for the same offence to be twice put in jeopardy of life
nor be deprived of life, liberty, or property, without due process of
or limb;
law;.....
SEVENTH AMENDMENT: In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of trial by jury shall be preserved...
ELEVENTH AMENDMENT: The Judicial power of the United States shall not be
construed to extend to any suit in law or equity, commenced or prosecuted against
one of the United States by Citizens of another State, or by Citizens or Subjects of
any Foreign State.
FOURTEENTH AMENDMENT: Section. 1
No State shall make or enforce any
law which shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of
the laws.
C. CALIFORNIA CIVIL RIGHTS AMENDMENTS
Article 1 Section 2:
(a) every person may freely speak, write and publish his or her sentiments on all
subjects, being responsible for the abuse of this right. A law may not restrain or
abridge liberty of speech or press.
Article 1 Section 3: The people have the right to
redress of grievances

petition government for

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

<D
OjO
<TJ

(a) No person shall be denied the right to prosecute any petition in any court on
its merits, and in particular, on the basis of prior petitions or his performance in
pursuing such.
(b) No person shall be denied the right to prosecute a claim against any official
or office of government on the basis of any practice or doctrine, such as "sovereign
immunity". Only the people are sovereign and immune.....
for declaratory or
(c) Any person shall have standing in any court
injunctive relief, or both, from any statute, regulation, administrative order,
repeal, or other official act on the grounds that it is unconstitutional, unlawful,
or inapplicable, without having to first become a defendant under such act, and
without a presumption that such act is lawful or applicable.
(d) For any petition for possession or custody, for declaratory or injunctive relief,
for disablement for incompetency, or for compensatory, damage, or punitive relief
involving value equal or greater than 866.67 troy ounces of standard silver, the
petitioner shall have the right to have a decision by a randomly-selected jury of
twelve......
Article 1, Section 7:
(a) A person may not be deprived of life, liberty or property without due process
of law or denied equal protection of the law.
Article 1, Section 9: A bill of attainder, ex post facto law, or law impairing the
obligation of contracts may not be adopted.
Due process rights may not be disabled.
(c)
Article 1, Section 13: The right of the people to be secure in their persons, houses,
papers, and effects against all unreasonable seizures and searches may not be
violated; and a warrant may not issue except on probable cause, supported by oath
or affirmation, particularly describing the place to be searched and the persons and
things to be seized.
D. NEVADA CIVL RIGHTS
E. CODE OF JUDICIAL CONDUCT AND JUDICIAL CANONS
“The Code of Conduct for United States Judges includes the ethical canons
that apply to federal judges and provides guidance on their performance of official
duties and engagement in a variety of outside activities.
00
T---I
00
03
Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

This Code applies to United States circuit judges, district judges, Court of
International Trade judges, Court of Federal Claims judges, bankruptcy judges, and
magistrate judges..........”
Canon 1: A Judge Should Uphold the Integrity and Independence of the
Judiciary. An independent and honorable judiciary is indispensable to justice in
our society. A judge should maintain and enforce high standards of conduct and
should personally observe those standards, so that the integrity and independence
of the judiciary may be preserved. The provisions of this Code should be construed
and applied to further that objective.
Canon 2: A Judge Should Avoid Impropriety and the Appearance of
Impropriety in all Activities
(A) Respect for Law. A judge should respect and comply with the law and
should act at all times in a manner that promotes public confidence in the integrity
and impartiality of the judiciary.
(B) Outside Influence. A judge should not allow family, social, political,
financial, or other relationships to influence judicial conduct or judgment. A judge
should neither lend the prestige of the judicial office to advance the private interests
of the judge or others nor convey or permit others to convey the impression that they
are in a special position to influence the judge. A judge should not testify voluntarily
as a character witness.
Canon 3: A Judge Should Perform the Duties of the Office Fairly,
Impartially and Diligently
The duties of judicial office take precedence over all other activities. In
performing the duties prescribed by law, the judge should adhere to the following
standards:
(A) Adjudicative Responsibilities.
(B) Administrative
(C) Disqualification
(D) Remittal of Disqualification.

F. OTHER STATUTES
28 U.S.C. Section 144: “Whenever a party to any proceeding in a district court
makes and files a timely and sufficient affidavit that the judge before whom the
CT>
*—I

O)
DO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

matter is pending has a personal bias or prejudice either against him or in favor of
any adverse party, such judge shall proceed no further therein, but another judge
shall be assigned to hear such proceeding. ............ ”
28 U.S.C. Section 455: Disqualification of justice, judge, or magistrate judge
(a) Any justice, judge, or magistrate judge of the United States shall disqualify
himself in any proceeding in which his impartiality might reasonably be questioned,
(emphasis added)
28 U.S.C. section 535(b) (2002): requires that any information, allegation, matter,
or complaint witnessed, discovered or received in a department or agency of the
executive branch of the Government relating to violations of Federal Criminal Law
involving Government Officers and employees to be expeditiously reported to the
Attorney General by the head of the department or agency, or the witness,
discoverer, or recipient, as appropriate.
Federal Whistle Blower Statute.
Codes of Professional Conduct.
42 U.S. Code § 1981: Equal Rights Under the Law
42 U.S. Code § 1982: Property Rights of Citizens
42 U.S. Code § 1983: Civil Action for Deprivation of Civil Rights
42 U.S. Code § 1985: Conspiracy to Interfere with Civil Rights
42 U.S. Code § 1986: Every person who, having knowledge that any of the wrongs
conspired to be done, and mentioned in section 1985 of this title, are about to be
committed, and having power to prevent or aid in preventing the commission of the
same, neglects or refuses so to do, if such wrongful act be committed, shall be liable
to the party injured, or his legal representatives, for all damages caused by such
wrongful act, which such person by reasonable diligence could have prevented;......
G. NEVADA STATUTES
NRS 205.090
NRS 193.130
NRS 205.095
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

O
CM

<U

txo
ro

CL

NRS 205.110
NRS 205.115
NRS 205.120
NRS 205.330
NRS 598D.020
NRS 645A.010
NRS 645B.0121
NRS 598D.050
NRS 645B.0125
NRS 645E.100
NRS 645B.0127
NRS 205.375
NRS 205.377
NRS 598.0903 to 598.0999, inclusive
NRS 207.380
NRS 205.395
Nev. Rev. Stat. § 112.230
NRS 42.001
NRS 42.005
NRS 645.440
NRS 107.080
NRS 645F
NRS 645F.320
NRS 645F.330
NRS 645F.365
NRS 645F.063
NRS 645F.267
NRS 645F.400
NRS 645F.405
NRS 645F.410

r\iCD

t»0
<TJ

Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

NRS 645F.420
NRS 645F.430
NRS 645F.440
NRS 645F.445
NRS 645F.450
NRS 645
NRS 675
H. BANKRUPTCY STATUTES
These apply. Due to Bankruptcy Fraud
Bankruptcy Code 11 U.S.C. § 101 et. seq.
11 U.S.C. § 546
11 U.S. Code § 362(a), (c), (k)
28 U.S.C. § 586
28 U.S.C. § 586(a)
28 C.F.R. § 58.6(a)(3).
28 C.F.R. § 58.5.
28 U.S.C. § 586(d)
28 C.F.R § 58.3
11 U.S.C. § 321.
11 U.S.C. § 704(a)
11 U.S.C. § 554
11 U.S.C. § 704
Section 363(b)
Fed. R. Bankr. P. 2002(a)(2)
Fed. R. Bankr. P. 6004(a).
11 U.S.C. § 327(a).
11 U.S.C. § 330
11 U.S.C. § 704(a).
11 U.S.C. § 101(14).
11 U.S.C. § 327(b)
11 U.S.C. § 327(c).
11 U.S.C. § 327(e).
Section 328(c)
Section 326(d).
11 U.S.C. § 327(f).
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

rsi

C\lCD

bo
tv

11 U.S.C. § 704(a)(3)
11 U.S.C. § 704(a)(4)
11 U.S.C. § 704(a)(5)
Fed. R. Bankr. P. 3001
Fed. R. Bankr. P. 3002(a)
18 U.S.C. § 3057.
18 U.S.C. § 152
18 U.S.C. § 153
18 U.S.C. § 154
18 U.S.C. §155
18 U.S.C. §157
Sarbanes-Oxley Act of 2002
18 U.S.C. § 1519: “Whoever knowingly alters, destroys, mutilates, conceals, covers
up, falsifies, or makes a false entry in any record, document, or tangible object with
the intent to impede, obstruct, or influence the investigation or proper
administration of any matter within the jurisdiction of any department or agency of
the United States or any case filed under title 11, or in relation to or contemplation
of any such matter or case, shall be fined under this title, imprisoned not more than
20 years, or both.”
California Civil Code Section 43
California Civil Code Section 51
California Civil Code Section 52
F. CRIMINAL STATUTES:
These apply because all involved Federal Officer (Government Employees) failed
to uphold the law and ignored their duty to report misconduct
Hobbs Act: 18 U.S.C. 1951:
(a)
Whoever in any way or degree obstructs, delays, or effects commerce or the
movement of any article or commodity in commerce, by robbery or extortion or
attempts or conspires to do so, or commits or threatens physical violence to any
person or property in furtherance of a plan or purpose to do anything in violation of
this section shall be fined under this title or imprisoned not more than twenty years
or both
(b)

As used in this section.........................................
(2) The term “extortion” means the obtaining of property from another, with his
consent, induced by wrongful use of actual or threatened force, violence, or fear,
or under color of official right.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

no
rsia;

ao

18 U.S.C. §§ 1346: Definition of “scheme or artifice to defraud”:
For the purposes of this chapter, the term “scheme or artifice to defraud” includes a
scheme or artifice to deprive another of the intangible right of honest services.
18 U.S.C. § 666:
(a) Whoever, if the circumstance described in subsection (b) of this section exists
(1) being an agent of an organization, or of a State, local, or Indian tribal government,
or any agency thereof
(A) embezzles, steals, obtains by fraud, or otherwise without authority knowingly
converts to the use of any person other than the rightful owner or intentionally
or
misapplies, property that— (i) is valued at $5,000 or more
(B) corruptly solicits or demands for the benefit of any person, or accepts or agrees
to accept, anything of value from any person, intending to be influenced or
rewarded in connection with any business, transaction, or series of transactions
of such organization, government, or agency involving any thing of value of
in connection with any business, transaction, or series
$5,000 or more;
of transactions of such organization, government, or agency involving anything
of value of $5,000 or more; shall be fined under this title, imprisoned not more
than 10 years, or both.
18 U,S.C. §§ 1341 - Frauds and swindles:
Whoever, having devised or intending to devise any scheme or artifice to defraud, or
for obtaining money or property by means of false or fraudulent pretenses,
representations, or promises,... for the purpose of executing such scheme or artifice
or attempting so to do, places in any post office or authorized depository for mail
matter, any matter or thing whatever to be sent or delivered by the Postal Service,
or deposits or causes to be deposited any matter or thing whatever to be sent or
delivered by any private or commercial interstate carrier, or takes or receives
therefrom, any such matter or thing, or knowingly causes to be delivered by mail or
such carrier according to the direction thereon, or at the place at which it is directed
to be delivered by the person to whom it is addressed, any such matter or thing, shall
be fined under this title or imprisoned not more than 20 years, or both.
18 U.S.C. §§ 1343: Fraud by wire, radio, or television:
Whoever, having devised or intending to devise any scheme or artifice to defraud,
or for obtaining money or property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be transmitted by means of
wire, radio, or television communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the purpose of executing such
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CNI

CU
Q0

scheme or artifice, shall be fined under this title or imprisoned not more than 20
years, or both ....
18 U.S.C. § 154: Adverse Interest and Conduct of Officers
18 U.S.C. § 1001:
(a)
Except as otherwise provided in this section, whoever, in any matter within
the jurisdiction of the executive, legislative, or judicial branch of the Government of
the United States, knowingly and willfully
(1) falsifies, conceals, or covers up by any trick, scheme, or device a material fact;
(2) makes any materially false, fictitious, or fraudulent statement or
representation; or
(3) makes or uses any false writing or document knowing the same to contain any
materially false, fictitious, or fraudulent statement or entry; shall be fined under
this title, [and/or] imprisoned not more than 5 years.
18 U.S.C. § 1961 ET SEQ: RICO
kidnapping,........
“racketeering activity” means (A) any act or threat involving
.... robbery, bribery, extortion,
which is chargeable under State law and
punishable by imprisonment for more than one year; (B) any act which is indictable
under any of the following provisions of title 18, United States Code: Section 201
(relating to bribery), section 659 (relating to theft from interstate shipment) if the
section 1341 (relating to
act indictable under section 659 is felonious
mail fraud), section 1343 (relating to wire fraud), section 1344 (relating to financial
section 1503 (relating to obstruction of justice), section
institution fraud),
1510 (relating to obstruction of criminal investigations), section 1511 (relating to the
obstruction of State or local law enforcement), section 1512 (relating to tampering
with a witness, victim, or an informant), section 1513 (relating to retaliating against
a witness, victim, or an informant) section 1951 (relating to interference with
commerce, robbery, or extortion), section 1952 (relating to racketeering), section
1953 (relating to interstate transportation of wagering paraphernalia),.....................
section 1956 (relating to the laundering of monetary instruments), section 1957
(relating to engaging in monetary transactions in property derived from specified
(D) any offense involving fraud
unlawful activity),
connected with a case under title 11 (except a case under section 157 of this title)
............................ punishable under any law of the United States, ......................
(G)
any act that is indictable under any provision listed in section 2332b(g)(5)(B)
LD

18 U.S.C. § 641 - Public money, property or records
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CN
CtO

Whoever embezzles, steals, purloins, or knowingly converts to his use or the use of
another, or without authority, sells, conveys or disposes of any record, voucher,
money, or thing of value of the United States or of any department or agency
thereof, or any property made or being made under contract for the United States
or any department or agency thereof; or Whoever receives, conceals, or retains the
same with intent to convert it to his use or gain, knowing it to have been embezzled,
stolen, purloined or converted shall be fined under this title or imprisoned not more
than ten years, or both; but if the value of such property in the aggregate, combining
amounts from all the counts for which the defendant is convicted in a single case,
does not exceed the sum of $1,000, he shall be fined under this title or imprisoned
not more than one year, or both.
(Illegal use of Courts to steal Appellant’s properties)
18 U.S.C. § 654: Officer or employee of United States converting property of another
Whoever, being an officer or employee of the United States or of any department or
agency thereof, embezzles or wrongfully converts to his own use the money or
property of another which comes into his possession or under his control in the
execution of such office or employment, or under color or claim of authority as such
officer or employee, shall be fined under this title or not more than the value of the
money and property thus embezzled or converted, whichever is greater, or
imprisoned not more than ten years, or both; but if the sum embezzled is $1,000 or
less, he shall be fined under this title or imprisoned not more than one year, or both.

<X>
CM
GO
to

Ou

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

VIII. INTRODUCTION
This case poses issues about Judges acting as owners of United States judicial
system doing what they please to extent of DESTROYING Petitioners filings for
personal gains. (TWO Motions below were destroyed. App Ex A, B, C)
i

received

OFFICE OF THt CU RR
i Pc COURT OF APP EALS

PuliSMAnonuRiT
i

Ninth Circuit Case No. 18-15202

i02G HOV -3

Originating US District Court Case No. 2:16-cv-0112^T^MJNUK
2

OOCKETED_^—

3

D?vnr

4

IN THE UNITED STATES COURJ OF APPEALS

5

■f; : rrsAi

FOR THE NINTH CIRCUIT

6
7

SALMA AGHA-KHAN, M.U.,-8

9
10
ii

Plaintiff-Appellant
v.
Pacific Community Mortgage, In., et al.
Defendant-Respondent

12
13

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE
14

ELECTRONIC REGISTRATION SYSTEMS, INC., THEODORE
15

SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION
16

FOR SUMMARY AFFIRMANCE FILED CONCURRENTLY WITH
17

THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION
18

BASED UPON MANDATORY, SELF-EXECUTING STATUTES 28
19

U.S.C. § § 144 and 455
20

(Oral hearing requested)
CM0)
00
TO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

RECEIVED

fflSSS®,

i
2

RUBUCtNFOSEVHlQN UN T

Ninth Circuit Case No. 18-15202

557ft HGV-3 PH12**L>
Originating US District Court Case No, 2:16-cv-0ii~24-JCM-NJK

3

?HJED.
•JDCKCrED„

4

■ .VTr.

fVT-V

S

IN THE UNITED STATES COURT OF APPEALS

«
7

FOR THE NINTH CIRCUIT

3
3
10

Salma Agha-Khan
u Appellant-Plaintiff
12

13

V,

Pacific Community Mortgage, Inc,, et al.
Appellees-Defendanfcs

is
IS

n
ie
19
20

21
22

APPELLANT'S THIRD MOTION TO DISQUALIFY
NINTH CIRCUIT BASED UPON MANDATORY AND
SELF-EXECUTING DISQUALIFICATION STATUTES
28 U.S.C. § § 144 and 455; AND JUDICIAL CODES OF
CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS 1,
2, 3; AFFIDAVIT/DECLARATION OF APPELLANT
Docket does not have the Motions. No Opposition was filed by Respondents

served, likely stopped from filing by Ninth Circuit in ex-parte communications?
10/08/2019 Q 53
2 pg. 10619 kb

Fled cterf; order (Deputy Clerk: MKS): The court has received Aurora Loan Services, LLC's status report
(Docket Entry No. (49j) and notice of entry of order extending the automatic stay imposed by 11 U.S.C. §
362 to certain non-debtor parties to this appeal (Docket Entry No. 1391). Appelate proceedings are stayed
for Aurora Loan Services, LLC; Mortgage Electronic Registration Systems, Inc.; Theodore Schultz; and
Trisha McMufSi oily. This appeal wit proceed as to the remaking psties. The opposed motionsfor
summary affirmance (Docket Entry Nos. [22. Qflj) and appelant’s motion for disqualification (Docket
Bitty No. [42}) wil be addressed by separate order. The briefing schedule remains stayed pending further
order of fire court (11458390) (AF) [Entered: 10/08/2019 03:35 PM]

12/17/2019 Q^_
a pg,112SS4 kb

Fled ctert: order (Deputy Cterf:: MKS): This appeal has been held r abeyance as to Aurora Loan
Service, LLC ("Aurora*) since April 15,2019, and as to Mortgage Electronic Registration Systems, toe.

OO
rsj

<D
OO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

The entire Appeal was adjudicated by Clerk, Molly Dwyer, issuing eighteen
(18) “Orders” out of total twenty-one (21) orders in the Appeal (ECF 2, 4, 5, 6, 8, 14,
15, 16, 24, 33, 47, 53, 54, 56, 57, 58, 61, 64). The Clerk issued OSC, recalled it,
dismissed Appeal for non-payment when fee was paid and deliberately logged into
another case. Clerk performed legal research, quoted statutes and case law to reach
fact violating State Bar Association Rules, Judges Duties and Clerk’s Duties.
“Judge” and “Clerk” were used interchangeably as one and same entity.
Judge Consuelo M. Callahan was appointed to the Appeal, who with two other
Ninth Circuit Judges was simultaneously defending their actions in another
property case filed by Petitioner’s in Nevada Bankruptcy Court (NV. Bk. Case No
19-01074-ABL/GS).
Petitioner’s Mortgage Fraud began with non-existing “lender”. The “loan”
reported as fully paid off in SEC filings few months later. Respondents were selfproclaimed “assignees” of non-existing Lender that collected over $5,000.00 per
month mortgage from Petitioner for years, forcing her into Bankruptcy, enrolling her
in fraud Loan Modification, recording forged title documents signed by wellestablished robo-signers to steal Petitioner’s home.
Violations of United States Constitution, Statutes, Laws including case law,
as well as SEC Fraud, Bankruptcy Fraud, forgery, perjury... called “insubstantial”.
01/1472020

Filed order (CONSUELO M. CALLAHAN, JACQUELINE H. NGUYEN and ANDREW D. HURW1TZ): Upon
a review of the record and the opening brief, we conclude that Ihe questions raised in this appeal are so
insubstantial as not to require further argument. See United States v. Hooton, 693 F.2d 857,858 {9th Cir.
1982} {stating standard for summary affirmance); see also Hebbe v. Piter. 627 F.3d 333,341-42 {93i Cir.
2010) (although pro se pleadings are construed liberally, plaintiff must present factual allegations
sufficient to stele a plausible claim for relief). Accordingly, the opposed motions for summary affirmance
pocket Entry Nos. 123 and {23) are granted. We summarily affirm the district court's judgment as to alt

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

cn
CnI

a
2

As mandated a “de novo” review or investigation of alleged SEC fraud was not
performed. (See App. Ex B)
Ninth Circuit reversed all its prior rulings and standards it had established
and also Standards established by Supreme Court.
Ninth Circuit acted as owners of the Court and Justice system. The “Wild Wild
West” (See Pg 14- 16 of destroyed Third Disqualification Motion App Ex A)
2f

III the matter of Williams vs. Pennsylvania, Certiorari to

m Supreme Court, of Pennsylvania No, 15-5040. .Argued February
».

$
4

29, 2016—Decided June 9, 2016, In the BRIEF OF' FORMER
APPELLATE COURT JURISTS AS AMIC3 CURIAE IN SUPPORT OF
PETITIONER, former appellate judges wrote:

s
6
1

%
§

16

it

n
m
its

u
it

m
it

s#
a

“Standard For Determining Whether Reraisa! Is
Required. The standard for determining whether a judge's
refusal to recuse himself or herself violates dire process is
whether the drounnstaoces of the case ’"would offer a
possible temptation to the average . . . judge to . , . lead
him not to told the balance nice, dear and true/" .Aetna, .fife
Ins. Co., 475 U.S, 813, 822 (1986) (quoting Ward v. Village
of Monroeville, 409 U.8. 57, 60 (1972)). The question is not
whether the judge is actually, subjectively biased—though
that fe of course sufficient—but whether "the average judge'
in his position is likely' to be neutral, or whether there is an
unconstitutional ’potential for bias/" Gb
F, AT,
Massey..Coal.Co.f 556 U.S, 868, 881 (2009) (quoting
Mavbsrrv v, Pennsylvania. 400 U.S, 455, 466 (1971)).. This
objective determination involves “a realistic appraisal of
psychological tendencies and human weakness/ (and
whether] the interest ’poses sudh a risk of actual bias or
prejudgment 'that, the practice must be forbidden .if the
guarantee of due process fe to be adequately implemented/"
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

O

no<u

00

{2

a
22
' 24
2£
26
2?
26

«
*

m
1.2
iS
2*

26
if

m
i*

(quoting Withrow v, LarMnf 421 US, 35, 47 (1975)}. Any
potential for bias is unacceptable because in every judicial
proceeding there must not be "even the probability of
unfairness.” In re Murchison, 349 U.S. 133, 136 (1955).
'"Whenever a party to any proceeding in a district: court
makes and hies a timely and sufficient affidavit that die
judge before whom the matter is pending has a personal
biasor prejudice either against him or in favor of any
In the' matter of Williams vs, Pennsylvania, (2615) Justice
Kennedy said:
"Bias is easy to' attribute to others and difficult to'" discern m
oneself.” Thus, there must be an '"objective standard* that,
requires certain judges to" recuse regardless of whether they
think they are capable of deciding a particular case
impartially. Hie Constitution's due process guarantees, the
Court concludes, establish that "there is an impermissible
risk of actual bias when a judge earlier had significant
personal involvement as a prosecutor in a critical decision
regarding toe defendant's case."
Many Amicus Briefs were tiled in this case which detail the

26
21.
22

lade of recusal when it Is appropriate and the ramifications of
lack of it.

23
£4

as

Hie Brennan Center's Brief In Support of Petitioner in toe
Williams Case: The Brennan Center for Justice filed; an amicus

26
tt

curiae brief in support of Petitioner's argument on Question One,

rH

noCD

00
co

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

*

Amid argued that the Supreme Court of Pennsylvania's fade of a

4
9
4

procedure for an independent review of recusal motions Should
be viewed as an additional factor contributing to a violation of

5

*

Petitioner's right to due process.

»

Other Amicus briefs were riled on this issue and on the issue

«
9
4®

of bias are as follows
Brief amid curiae of Brennan Center for Justice and Justice at

«.

Stake, filed on 12/7/15; Brief amicus curiae of Constitutional
is

Accountability Center, filed tin 17/7/15- Brief amid curiae of The

14.

m American Qvil Liberties Union, and The ACLU of Pennsylvania.
m filed on 12/7/15; Brief amicus curiae of The American Academy ol
XI

it

«»

Appellate Lawyers, filed on 12/7/15: Brief amid curiae of Former
Judges with Prosecutorial Experience, filed on 12/7/15: Brief

4S

amid curiae of The Ai Hi-. Iican Bar Association,, filed on 12/7/15*
44

Brief amid curiae of The Ethics Bureau at Yalef filed on 12/7/15

**
44.
4*

Brief amid curiae of Former Appellate Court Jurists, fifed on
12/7/15.
As show above this “Wild Wild West” attitude is not favored in our Justice

System. We must not turn a blind eye to “Court Rooms for Sale” as outlined by FBI
https://www.fbi.gov/news/stories/public-corruption-courtroom-for-salel
This unruly and even criminal Judicial behavior leading to erosion of Public
Confidence does not even remotely give an “appearance of justice” or “satisfies
CsJ

justice”.

m<u

bo

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

IX.

STATEMENT OF CASE

This Writ arises from Petitioner’s dismissed Appeal in Ninth Circuit Case No.
18-15202 filed 10/25/2018, ECF 10 entered in the Docket again on April 02, 2019
ECF 20. Supplement to 06/28/ 2019 ECF 40. Underlying complaint was filed in
Nevada District Court, Case No 2:16-cv-01124-JCM-NJK on May 19, 20l6.
This is a case regarding mortgage fraud and illegal foreclosure where
“Lender” did not exist so loan could not exist. Also the “loan” was reported
as fully paid off in SEC filings within few months of origination.
Petitioner paid cash $964,102.00 on June 25, 2004 for her home. DOT recorded
July 30, 2004; Inst No: 20040730-0001902. Physical address of home s 1967 Cherry
Creek Circle Las Vegas, Nevada 89135; APN: 164-02-218-001.
On 18 August 2004, Petitioner obtained a loan for $615,000.00 on subject
property, with Respondent Pacific Community Mortgage Inc. (“PCM”), a California
Corporation, listed as the lender. Recorded September 08, 2004.

DEED OF TRUST
DEFINITIONS
Words used in multiple sections of this document are defined below and other wonts are defined in Sections 3,11,
13, 18.20 ami 21, Certain rules regarding the usage of words used in ths document are also provided in Section
16.
(A) "Security lostruincat” means this document, which is dated AUGUST 18, 2004
together with all Riders to this document.
(B) “Borrower" is *AIMA It. KHAN, AN ONMMUUXD IRIAN
. Borrower is the trustor undo this Security Instrument.
(Q "MENS" is Mortgage Electronic Registration Systems, Inc, MERS is a separate corporation dim is acting
solely as a nominee for Lender and Lender’s successors and assigns. MERS Is the mortgagee under this
Security Instrumeut. MERS is organized and existing under die laws of Delaware, and has an address and
telephone number ofP. O. Box 2026, Flint, Ml 48301-2026, teL (888)675>-MERS.
(D)“Lender"k PACIFIC COMMUNITY MORTGACS, INC.,A CALIFORNIA CORPORATION
Lender is a corporation
CALIFORNIA
600, ANAHEIM, CA 92806

. Lender's address is

organized and existing under die taws of
2099 8. state COLLEGE BLVD. •

Lender is the beneficiary under this Security Instrument.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

00

no

<U
CtO

Petitioner later realized that PCM had ceased to exist ten years earlier. (Comp. ECF
1 Pg 16; Comp. Ex A, B, C).
13 ! Entity Name:

!

14

f Entity Number:
j Date Filed:

IS

J Status:

j Jurisdiction:
j Entity Address:
Entity City, State, Zip:
17
Agent for Service of
|
Process:
18
Agent Address:
19 Agent City, State, Zip:
16

PACIFIC COMMUNITY MORTGAGE
COMPANY
C1670354
08/02/1990
FTB SUSPENDED
CAUFORNIA .
2608 VAN GOGH DRIVE
MODESTO CA 9S356 •
DALE F. MURATORE
2608 VAN GOGH DRIVE
MODESTO CA 95356

In business law a contracts is between two or more parties. Since Lender,
PCM did not exist, a contract could not possibly exist. No Borrower-Lender
relationship was established. The “loan” was simply an anonymous “gift”.
A non-existing entity cannot have assets or interests, cannot have successors
or assignees, cannot assign or transfer anything and cannot lend money. Thus the
Deed of Trust executed by the Petitioner was void. Also the DOT was not legible an
unsigned DOT was recorded as “clarification” by someone based on County Recorders
Memo “Poor Record due to Quality of Original Document”. (Comp Ex B Pg 65-71; Exc
III)
Grantee:
blvd

Mail Tax Statement To:

rac- *
600

ftSCOKSKft'S MKMD

no
OJ

oo
to

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

***This copy is being attached for clarification purposes only,***
(Space Above This Line For Recording Datnj
XRA»

SOWT *!

KXK-.

0408006?

100121700040800671

DEED OF TRUST
CLARIFICATION
BY SIGNING BELOW, Borrower accepts and agrees to live terms and covenants contained in this
Security Insimmcnt and in any Rider executed by Sorrower end recorded with tu
• sorrower - Siam «. mm

base

-

CLARIFICATION
AdjestabJe RnteGRid^^

Borrower accepts and agrees to the terms and covenants contained In this

*• BORROWER - SALMA. H. KHAN - DAfE -

CLARIFICATION
BY SIGNING BELOW, Borrower accepts end agrees to the terms and provisions containedfn this PUD Rider.
BORROWER - SALMA~H. KHAN - DATE -

By signing below, Borrower accepts and agrees so the terms and covenants contained in this Prepayment Rider,
~ BORROWER - SALMA H, KHAN - BASE -

0408006?

Second

®5L0W> BorW*er

CLARIFICATION

and ag««s to the terns and provisions contained .in this

- BORROWER - SAUWA H. KHAN “ DATE -

LO

m

CD
GO
ro
Cl

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

04080067

CLARIFICATION

ifLender «xerei<res ihis option. Lender shaft give Borrower notice ©f acceleration. the notice shall provide
a period of not less than 30 days from the date the notice is given in accordance with Section 15 within which
Borrower must pay all stuns secured by this Security Instrument. If Borrower fails to pay these sums prior to the
expiration of this period. Lender may invoke any* remedies permitted by this Security instrument without further
notice or demand on Borrower,
BY SIGNING BBLOW, Borrower accepts iuid agrees to the terms and covenants contained In this

addendum.

- BORROWER - SA1MA Hi KHAN - DATE »

Unknown to Petitioner non-existing PCM’s fraud loan was transferred to
Structured Adjustable Rate Mortgage Loan Trust Mortgage Pass-Through
Certificates, Series 2004-16 Trust (“SARM Trust”), never recorded in Clark County,
Nevada.

The SARM Trust filed documents with US Securities and Exchange

Commission, (“SEC’) stating specifically that Petitioner’s loan was paid off in full by
December 2004. (Exc III, Comp. Ex 10. Pg 8 -9 and 17-21).

81, The following is an internet screen shot of the last filing of the SARM
22 Trust:
23
24
25

UNITED STATES
SECURITIES AMD EXCHANGE COMMISSION
WASHINGTON, D,C. 20549
FORM I S

1

Certification and Notice of Termination of Registration under Section
12(g) of tlie Securities Exchange Act of 1934 or Suspension of Duty to
2 File Reports under Sections 13 and 18(d) of the Securities Exchange Act
of 1934.
3
4

5
6

Commission File Number: 333-115858-26
Structured Adjustable Rate Mortgage Loan Trust
Mortgage Pass-Through Certificates,
Series 2004-16 Trust

<vD

m

QJ
Q0
03

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

19

Approximate number off holders of record as off the certification or notice
date:
Less than 300 Holders

20

Pursuant to the requirements off the Securities Exchange Act off 1934,

18

Structured Adjustable Rate Mortgage Loan Trust
Mortgage Pass-Through Certificates,
Series 2004-16 Trust

21
22
23
24

has caused this certification/notice to be signed on its behalf by the
undersigned duly authorised person.

25

Date: 01/20/2005

By: Isl Beth Belfield, Assistant Vice President
Respondents were well aware of non-existing stat of PCM and fraudulently
became

self-proclaimed assignees, beneficiaries of non-existing lender to

fraudulently collect over $5,000.00 per month as mortgage from Petitioner, forcing
her into Bankruptcy in 2010. Respondents then, 6 years later, started recording
fraud claims on forged title documents signed by well-established robo-signers on
Petitioners home. Starting with Corporate Assignment of Deed of Trust in 2010,
(PCM now defunct for over 15 years). (Comp. Ex. E; Exc III Ex 10; Comp Ex A - H).
Date of Assignment April 19th, 2010
Assignor: MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC. AS NOMINEE
FOR PACIFIC COMMUNITY MORTGAGE, INC., A CALIFORNIA CORPORATION ITS
SUCCESSORS AND ASSIGNS fit 3300 S.W. 34TB AVENUE, SUITE 101, OCALA, FL 34474
Assignee: AURORA LOAN SERVICES LLCat 26! 7 COLLEGE PARK, SCOTTSBLUFF, NE
#361
Other forged recordings by Respondents included (Comp Ex A-H; Exc III)
1. “Notice of Breach”. Recorded on January 13, 2010;

on
<V
00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

2. “Substitution of Trustee”. Recorded on January 28, 2010;
3. “Foreclosure Mediation Certificate” as to Petitioner waiving her rights to
mediation when she was enrolled in their fraud Loan Modification
Program during her Bankruptcy (filed May 30, 2010).
4. “Corporate Assignment of Deed of Trust”. Recorded on April 19, 2010
5. “Notice of Sale”. Recorded on May 10, 2010
6. “Trustee Deed Upon Sale”. Recorded on September 09, 2010.
The above recorded documents were signed by well established robo-signers
such as Theodore Schultz, Mary Jane Same where her signature changed from one
document to another and Ronal Alonzo, who may have been serving a sentence.

13
14

G.

Appellee Schultz is a well recognized Robo-signer. See

sample signatures of this "MERS VP" (ECF 41 Pg 30-31)

IS
» kr

i€
17

S’ Offo'ectowreKXfd

is
15

* wimm n«ttnun^>*s\n%n ,»»i*« •*•»>
u.vGMi« •tv**™
un* as
court**
ir» uttw« t***
m *TI >

23
21

h
rarucMuc'KuCfr/
luwcvt

Jf

23
24
25

AlROftA LOAN SERVICES l LC

00

cn

O)
Q0
(0
Cl.

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

1
2

« 4

♦*

^ CORPORATE^
HATS
-f
5**

jt^%o?lgrflsfnr FnRFfT/lSl'RF FRUH)
THEODORE “THEO" SCHULTZ CORPORATE BANK TITLES

i’

3

****'t*JS&

€

aumaJoajsgiias-

|v]

fira nwiawl Iswib of ari?(wti, jvfriMtfefund. Iwffelifltd hwfc, fehmrni tntxftm. MIRS. MORTGAGE
... _ ELECTRONIC REGISTRATION SYSTEMS KC„mtiois hast finfe. Nttasta. ataade fimarid. mho
■*» fal-^dma.saB&ciOTtfmnrtinitt. gofl5Mt£ thro Alfa. iha)tfaresb3te.virepiicgfat

4
5

***£<&£! Odnter 2010, Tif? nssigiaK&,gfifcdeifimL

H.

Appellee "Theo" Schultz is also VP of many other

corporations including Appellee Aurora.

7

Mi; Stfcitu h« life taiM* Cvipwalt Hath Tiw w»riiH<»
8

l*»ra»«l> tw«ty#«.
VJw PiviMtal •(:

S

MORTGAGE ELECTRONIC REGISTRATION SYSTEMS INC.
Awat* Lmi Servian*.

10

11

m e«t1

tsifcj

ItowtaMBnlL
D«t>ii» Ob® Mauastf C<»p8>’.

N*iom H«n* Fendw*.
of Aifipms,
Pimoclf Fmaacal.
Tiril MupfflS FisBKi'al
Ijclmna Rmter*

12
13

THEODORE ’THEO" SCHULTZ
Thus not only was the Deed of Trust was void but these six year delayed title

recordings were also void, amounting to cancelled instruments with no value or
enforceability. Also the loan was fully paid off in SEC flings for over 6 years.
Respondents then perpetrated Bankruptcy Fraud becoming Creditors and
without filing a Claim obtained relief by submitting same forged title documents
(Exc VI, Ex 19, Bk. Claims Register). Respondent Wells Fargo’s Motion to dismiss
complaint attached Respondent Aurora’s attorneys of record McCarthy & Holthus,
LLP, JaVonne M. Phillips, Mishaela J. Graves filings in Plaintiffs Bankruptcy on
June 17, 2010 asking for relief (CA Eastern District Case No. 10-16183 ECF 16 - 19
and 30 - 31) did not have a Declaration “under penury” by any of the filing attorneys.
They knew they were committing perjury (Exc VI, Ex 22).
<T>

no
01

CXO

ro

Cl.

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Respondents enrolled Petitioner if a fraud Loan Modification Program during
Bankruptcy and sold her home illegally clamed.
Petitioner’s First Amended Complaint, alleged that these same attorneys
were owners of Respondent Quality Loan Service Corp, that existed only in non­
judicial foreclosure states of California, Nevada, Washington, Oregon, Arizona and
New Mexico. States where they created and fraudulently enforced their one room,
robo-signed,

non-judicial

foreclosures

documents;

acts,

undetected

and

unchallenged, however they are now under investigation along with their Wells
Fargo cronies. (Exc IV, Ex 11, 12, 13, 14; Exc VI, Ex 25). Petitioner discovered this
new fact but was disallowed from amending complaint to include as Defendants
McCarthy & Holthus, LLP, JaVonne M. Phillips, Mishaela J. Graves when their
actions were criminal and deserved investigation by Attorney General. (Comp. ECF
105).
Petitioner was asked by District Court to submit for review. After review by
the Court, the Amendment was denied (Comp. ECF 105 Exl),
Petitioner was denied Due Process and her Constitutional Rights repeatedly
by the District Court denying Amendment after discovery of new facts, staying
discovery (Exc V, Ex 15, 16, 17, 18), failing to hold a single hearing, refusing to
investigate SEC fraud, Bankruptcy fraud etc. (Exc IV, Ex 11, 12,13, 14). Petitioner’s
Motion for Disqualification of District Court was also denied. (Comp ECF 98 and
128). All forged documents signed by well-established robo-signers submitted were
accepted by the District court.

O
CL)

DJD
CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Petitioner had filed for Defaults pertaining to parties served in accordance
with Rule 4 but had failed to appear in the District Court. The Clerk granting few of
these yet in blanket dismissal the District Court Judge took the position that all
Defendants including defaulting Defendants were entitled to Judgement against the
Plaintiff. (Exc I; Comp. Doc #190).
District Court tried to keep the Petitioner unaware of proceedings by failing
to attach Proof of Service to any of their Orders, Notices etc. with Clerk lyng on
record as to mail getting returned.
The Judges even refused to finalize the case for almost two years so that Ninth
Circuit closed its initial appeal and started a new case. (Exc I, Ex 4, 9).
Ninth Circuit added to the District Court frauds by appointing Judge
Consuelo M. Callahan, who with two more Ninth Circuit Judges, simultaneously
defending their actions in Nevada Bankruptcy Court for over one year. (NV Bk, Adv.
19-01074-ABL-GS).
Ninth Circuit was desperately avoiding recusal so it ignored Motion for their
recusal till dismissal of Appeal (ECF 42, June 28, 2019; ECF 55 January 14, 2019).
Petitioner’s repeat Motion for their recusal accepted for filing on November 03, 2019
was destroyed. Also destroyed was Petitioner’s simultaneously filed “Opposition to
Summary Affirmance” to Respondent MERS and its robo-signers Theodore Schultz
and Trisha MeMullin (See following two pages for stamped copies of these filings).
Docket does not have entries on November 03, 2019.
(See below face sheet of Ninth Court stamped filings and Docket entries).

*—I
CL)

txo
ro

Ou

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

1

2
3

received
OFFICE OF THE CLERK
U S COURT Of APPEALS T
PUEL5C INFORMATION UN T

Ninth Circuit Case No. 18-15202

2h?0 HDV -3 FH12- U >

Originating US District Court Case No. 2:16-cv-01124-JCM-N3 K
filed___ .
OOCKETED__
IWE

4
5

IN THE UNITED STATES COURT OF APPEALS

6
7

FOR THE NINTH CIRCUIT

s
9
10

Salma Agha-Khan

ii

Appellant-Plaintiff

12

V.

13

Pacific Community Mortgage, Inc., et al.

1<S

Appellees-Defendants

15
16
17
18
19
20
21
22

APPELLANT'S THIRD MOTION TO DISQUALIFY
NINTH CIRCUIT BASED UPON MANDATORY AND
SELF-EXECUTING DISQUALIFICATION STATUTES
28 U.S.C. § § 144 and 455; AND JUDICIAL CODES OF
CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS 1,
2, 3; AFFIDAVIT/DECLARATION OF APPELLANT

23
24
25
26
27
28

SALMA AGHA-KHAN, M.D.
3751 Motor Ave #34727
Los Angeles, CA 90034
949-332-0330
saimaiiaQha@aol.rom
Appellant-Debtor in Pro Per
CNj

,vf<1)

00
(O
Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

2028 HOV-3
Ninth Circuit Case No. 18-15202
Originating US District Court Case No. 2:16-cv-0112%^NHm_J—
2

DOCK£TCD___—i—-

3

om

4

IN THE UNITED STATES COURT OF APPEALS

5

s-inw-

FOR THE NINTH CIRCUIT

6
7

SALMA AGHA-KHAN, M.D., -8

9
10
ii

Plaintiff-Appellant
v.
Pacific Community Mortgage, In., et a).
Defendant-Respondent

12
13

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE
14

is

ELECTRONIC REGISTRATION SYSTEMS, INC., THEODORE
SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION

16

FOR SUMMARY AFFIRMANCE FILED CONCURRENTLY WITH
17

THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION
18

BASED UPON MANDATORY, SELF-EXECUTING STATUTES 28
19

U.S.C. § § 144 and 455
20

(Oral hearing requested)
21
22
23
24

25

SALMA AGHA-KHAN, M.D.
3751 Motor Ave #34727
Los Angeles, CA 90034
949-332-0330
saimahaoha@aol.com

m
0>

200
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

10/08/2019 0 53
2 pg, toe-® K6

FSedcteifc orter (Deputy Cfertc MKS): Hie court Iks received Aurora lean Services, H(7s status report
(Docket Entry Mo. [49}) and notice of entry o! outer extending the automatic stay imposed by 11 US,C.§
362 to certain norwtebtor parties to the appeal (Docket Bitty No. (22J). AppeBate proceedings are stayed
for Aurora Loan Services, ULC; Mortgage Electronic KepstaSon Systems, Inc.; Theodora Schultz; and
Trisha MeMUjfti only, The appeal vat! proceed as to the remaining parties. The opposed motions for
summary affirmance /Docket Bitty Nos. PH. 13011 and aaoeflanfs motion for disqualification (Docket
Entry No. (4Zj) wil be addressed by separate orter. The briefing schedule remains stayed pending further
order of the court 111458390] (AF) [Entered: 10/08/2019 03:35 PM]

12/17/2019

Fled deft, order (Deputy Cfeifc MKS): This appeal has been held in abeyance as to Aurora Loan
Services, LLC ("Aurora’} since April 15, M19, and as to Mortgage Electronic Registration Systems, Inc.

2 pg. 125*64 kb

The fact that not one Respondent filed any opposition to these Motions despite
being served suggests collusion between Ninth Circuit and Respondents in Ex-Parte
communications, unknown to Petitioner.
This alone speaks volumes regarding Petitioners standing as to her claims
and allegations and lack of standing of Respondents whose only claim was their
friendship to Judges and Circuit Court.
Ninth Circuit delegated the Appeal to Clerk who issued eighteen orders
eighteen (18) Orders out of total twenty-one (21) orders in the Appeal (ECF 2, 4, 5,
6, 8, 14, 15, 16, 24, 33, 47, 53, 54, 56, 57, 58, 61, 64). Only three Orders were entered
in the Docket by the Clerk with Judges names entered in the Docket but not on the
■ document which had no signatures and no names of issuing authority other than
Judges last names (ECF 55, 59, 60).
Surely a Clerk cannot adjudicate the matters, providing legal findings and
statutes when they lack the legal degree and experience needed for these actions.
Ninth Circuit failed to perform a De Novo Review as mandated, also failing to
investigate SEC Fraud also mandated. All outlined in Complaint, Appeal and in the
Supplement to Brief. (Comp. Pg 17-21; Exc III; ECF 40 Pg 13-14) (App A, B)

^1CU

do
03

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

t®

is
'90
21
■

m transference of loan TO sarh trust wih sec:
FUJWSS SHOWING LOAN .AS PAID OFF C0NSHTUTE5
SEC FRAUD' KNOWN TO APPEULEE-DEFENDAffTS AN©

22

LOWER COURT

.23

20

as

The United States Supreme' Court stated in Teffabs. Inc, v.
Makar Issues a Rights, Ltd, 551 322,127 5,Ct. 2499,168

1 L.Ed.2d 179 (2007} that, in assessing securities fraud claims,
■2

3

"courts must' consider the complaint in its entirely, as 'well
Ninth Circuit also reversed rulings on standards established by themselves

denying unopposed recusal motion and even destroying repeat motion for recusal.
Ninth Circuit actively obstructed justice to deny Petitioner Due Process and other
Constitutional Rights.
United States Supreme Court in Canerton v. A. T. Massev Coal Co 556 U.S.
868 129 S.Ct. 2252 (S. Ct. 2009) 173 L.Ed.2a 1208. 77 USLW 4456. stated
“Held:

due process requires recusal. Pp 2259-2267.

Ninth Circuit dismissed the Appeal as “insubstantial” quoting inapplicable
case law, perhaps as a threat to Petitioner. Petitioner s turning to Supreme Court so
that “Justice must satisfy the appearance of Justice”, (emphasis added)

LO
CP
CtO
(O
CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

X.

LEGAL ARGUMENTS PURSUANT TO RULE 10(a) FOR
GRANTING THIS WRIT OF CERTIORARI

Ninth Circuit’s deliberate destruction of Petitioners filings it received on
November 03, 2019, establishes that her Claim was valid, a fact well-known to Ninth
Circuit forcing its “judgement” by obstructing Justice and denying due process. Same
was very obvious to District Court who tried to keep Petitioner unaware of
proceedings as not one Proof of Service is attached to Orders, Notices.
It is easily apparent to any reasonable person that if a Lender does not exist
then “Assets” and “Assignee” cannot exist. Also the “loan” was reported to be fully
paid off in SEC filings soon after origination. Thus Respondents had no claim,
“interest” or “standing” to
a. Collect over $5,000 per month as “mortgage”
b. record forged title documents signed by well-established robo-signers
c. become Creditor’s in Petitioner’s Bankruptcy
d. obtain fraud “relief’
e. sell Petitioner’s home
These facts were clearly apparent to District Court and the Ninth Circuit,
that forbid discovery, kept Petitioner unaware of proceedings, destroy her filings,
failing to perform de novo review or investigate SEC fraud and deny recusal in face
of obvious bias and prejudice. They denied Due Process, restricted access to Courts,
and actively obstructed Justice to dismiss Complaint and Appeal. Judgement was
issued against Petitioner favoring even the Defaulted Defendants. The Appeal was
“adjudicated” by Ninth Circuit Clerk also issuing Mandates.
In face of such obvious corruption, eroding public confidence the Petitioner
has no other remedy but to come to United States Supreme Court with this Writ.
CtO
OJ

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

A. NINTH CIRCUIT’S DELIBERATE DESTRUCTION OF PETITIONER’S
FILINGS ESTABLISHED VALIDTY OF HER CLAIM
Petitioner’s two filings received on November 03, 2019 were destroyed by the
Ninth Circuit. These included
1. “Third Motion for Ninth Circuit Disqualification”
OFFi^OPTHECLER!^
l
2
3

pSSSSt
Ninth Circuit Case No. 18-15202
.
2820 NGV-3 PH12;*4 5
Originating US District Court Case No. 2:16-cv"0li24-3CM-NlK
r!LED____
03CKETED_

4

-------------------------- --------------------------------------------------------------nftTt

•

iN’T’A"

5

IN THE UNITED STATES COURT OF APPEALS

e
7

FOR THE NINTH CIRCUIT

8
9
10
ii
12
13

u

Salma Agha-Khan
Appellant-Plaintiff
V.

Pacific Community Mortgage, Inc., et al.
Appellees-Defendants

15
16
17
18
IS
20
21
22

APPELLANT'S THIRD MOTION TO DISQUALIFY
NINTH CIRCUIT BASED UPON MANDATORY AND
SELF-EXECUTING DISQUALIFICATION STATUTES
28 U.S.C. § § 144 and 455; AND JUDICIAL CODES OF
CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS 1,
2, 3; AFFIDAVIT/DECLARATION OF APPELLANT

r^
<D
00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

2. “Opposition to Motion for Summary Affirmance”

if* rOURTOFAPFiMJS
PUSUC WFORWATiOI! UWf

i

Ninth Circuit Case No. 18-15202

2820 HOV -3 PHSu:l*6

Originating US District Court Case No. 2:16-cv-01124:T^M::N3l<_-_..—
2

docketed

3

D/?nr

4

IN THE UNITED STATES COURT OF APPEALS

* m*.t

5

FOR THE NINTH CIRCUIT
6
7

SALMA AG HA- KHAN, -M^Dvj — 8

Plaintiff-Appellant
9
V.

10
11
12

Pacific Community Mortgage, In., et al.
Defendant-Respondent

13

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE
14

ELECTRONIC REGISTRATION SYSTEMS, INC., THEODORE
15

SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION
16
17

FOR SUMMARY AFFIRMANCE FILED CONCURRENTLY WITH
THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION

18

BASED UPON MANDATORY, SELF-EXECUTING STATUTES 28

19

U.S.C. § § 144 and 455
Aft

Despite being “Received”, They were never entered in the Docket.
10(08/2019 o_53_
2 pfl. 106.58 KB

12/17/2019 Q
2pg.12S.64K8

Filed cJertt order (Deputy Cleric MKS): Tire court has received Aurora Loan Services, LLC’s status report
(Docket Entry No. [49]) and notice of entry of order extending the automatic stay imposed by 11 U.S.C. §
362 to certain non-debtor parties to this appeal (Docket Entry No. (29]). Appellate proceedings are stayed
for Aurora Loan Services, LLC; Mortgage Electronic Registration Systems, Inc.; Theodore Schultz; and
Trisha McMullin only. This appeal will proceed as to the remaining parties. Trie opposed motions for
summary affirmance (Docket Bitry Nos. Eg, [22]) and appellant’s motion for disqualification (Docket
Entry No. (42]) will be addressed by separate order. The briefing schedule remains stayed [ending further
order of the court (11458390] (AF) [Enteral: 10/08/2019 03:35 PM]
Bled clerk order (Deputy Clerk: MKS): This appeal has been held in abeyance as to Aurora Loan
Services, LLC ("Aurora") since April 15,2019, and as to Mortgage Bectronic Registration Systems, Inc.

00
O)
CUD

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Destruction of Court records is a criminal offence.
4. FEDERAL CODES
25 CFR § 11.420: Tampering with records.
A person commits a misdemeanor if, knowing that he or she has no privilege to do
so, he or she falsifies, destroys, removes or conceals any writing or record, with
purpose to deceive or injure anyone or to conceal any wrongdoing.
18 U.S. Code § 1519 Destruction, Alteration or Falsification of Records
Whoever knowingly alters, destroys, mutilates, conceals, covers up, falsifies, or
makes a false entry in any record, document, or tangible object with the intent to
impede, obstruct, or influence the investigation or proper administration of any matter within the jurisdiction of any department or agency of the United States or
any case filed under title 11, or in relation to or contemplation of any such matter or
case, shall be fined under this title, imprisoned not more than 20 years, or both.
California Penal Code Section 141
It is illegal to alter, modify, plant, place, conceal, manufacture, or move any physical
matter with the intention of causing someone to be charged with a crime, or for the
physical matter to be used as evidence in a trial, inquiry, or proceeding.
5. CALIFORNIA CODES
California Penal Code Section 132,
California Penal Code Section 134,
California Penal Code Section 135
California Title 15 Crimes
6. NEVADA CODES
NRS 199.220 prohibits purposely destroying evidence. Specifically, it is a crime to
destroy evidence with the intent either to 1) Conceal a felony; 2) Protect a felon; 3)
Obstruct the law; or 4) Prevent the production of the evidence.
There are essential elements that constitute tampering as “offence”
a. Intent: The evidence was willfully and purposefully interfered with and
destruction was not accidental.

CD
<D
00
03
Q.

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

b. Knowledge: The person acted knowingly and were aware that their conduct
will probably cause a certain result.
c. Evidence: This covers anything that can be produced in any kind of legal
trial, proceeding, or investigation.
d. Awareness of a Potential or Pending Investigation: Person committing
the crime was in contemplation of a current or future proceeding.
All the above elements were present in this Appeal where Petitioners filings
were deliberately and knowingly destroyed by the Ninth Circuit itself to legitimize
their illegal dismissal. This also established validity of Petitioners claim and lack of
Respondent’s standing. Also that Ninth Circuit was well aware of these facts.
Penalties for tampering include monetary fines and prison sentencing of up to
20 years. Surely Ninth Circuit was aware of these Statutes and other laws.

O
LOQJ

bO

^03

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

B. NINTH CIRCUIT DELEGATED ADJUDICATION OF APPEAL TO
CLERK, VIOLATING JUDICIAL DUTIES AND CLERK’S DUTIES
This Court must grant certiorari because the Ninth Circuit failed to perform
its duty by delegating the Appeal herein to a Clerk for “adjudication”.
1. Clerk is not a Judge, both have specific duties that cannot be assumed.
2. Judge and Clerk are not the same entity
3. Clerk and Judge titles are not interchangeable, cannot be switched
4. Clerk lacks in education, experience and appointment to be a Judge.
5. Judicial Oath does not include Court Clerks
6. Judicial Canons apply to Judges and not their Clerks
7. Clerks cannot set OSC, issue Order, Mandates and partial mandates.
8. Clerks cancel Orders, recall Mandates etc.
9. Clerk cannot perform legal analysis, provide legal basis and come to
conclusions or fact based upon them.
Appeal herein was delegated by Judges to Clerk for adjudication where all of
the above actions were performed by Ninth Circuit Clerk, Molly C. Dwyer. The Clerk
issued eighteen (18) Orders out of total twenty-one (21) orders in the Appeal (ECF
2, 4, 5, 6, 8,14,15, 16, 24, 33, 47, 53, 54, 56, 57, 58, 61, 64). Only three Orders entered
in the Docket by the Clerk stated Judges full names but not on the actual Orders
that were not even signed for authenticity. (ECF 55, 59, 60). Last names of Judges
stated on Orders were as follow

Before:

m
<1>

00
05
Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

And after switching Defendant-Judge Callahan with Silverman (ECF 60)

Before:

SEVERii^!NGU¥m!^HURWnZ,CiraDiJnapi.

Federal Rules of Appellate Procedure Rule 45.
(a) General Provisions.
(1) Qualifications. The circuit clerk must take the oath and post any bond
required by law. Neither the clerk nor any deputy clerk may practice as
an attorney or counselor in any court while in office, (emphasis added)
Below are Docket entries where the Ninth Circuit Clerk violated the FRAP Rule
stating statutes, providing law, coming to conclusions and reaching fact.
02/28/2018 Q 2
2 pg. 263.47 kb

filed clert; order (Deputy Clerk: MF): It appears that the district court’s order challenged in this appeal
may not have disposed of the action as to ail claims and ail parties. Wiffiin 21 days after the date of this
order, appellant shall move for voluntary dismissal of this appeal or show cause why it should not be
dismissal for lack of jurisdiction. See Fed. R. Civ. P. 54(b); Chacon v. Babcock, 640 F2d 221 (9th G'r.
1981). If appellant elects to show cause, a response may be filed within 10 days alter service of the
memorandum. If appellant does not comply with this order, the Cleft shall dismiss this appeal pursuant to
Ninth Circuit Rule 42-1. Briefing is suspended pending further order of the court. [10780676] (CKP)
[Entered: 02/28/2018 10:46 AM]

The above order by the clerk, called “Memorandum”, is not signed. The clerk
decided all parties were not of the judgment, applied FRCP Rule 54, and cited a
case. All amounting to legal research which is not part of a Clerk’s duties. Setting
an OSC may be a function of a clerk only after the Order is made by a
judge. Otherwise it should state clearly Order To Show Cause Clerk.
An OSC, Order to Show Cause, is a legal substantive action. If it was purely
administrative then it should read so. This is violation of Clerks duty and illegal
practice of law in California unless the Clerk is an active member of the Bar. See
California Business and Professions Code 6125 & 6126. You may not practice
law in California unless you are an active member of the California State Bar.
05/24/2018 q ^
1 pg,'mss kb

Filed order (Deputy Cleft: CKP) Motion to dismiss ease for failure to prosecute (Cir. Rule 42-1). Pursuant
to Ninth Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated
02/28/2018).This order served on the district court shall, 21 days after the date of the order, act as the
mandate of this court. [10884254] (CKP) [Entered: 05/24/2018 09:30 AM]

r\i
lo
QJ
CIO
CO
Cl.

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Deputy Clerk continued Clerks illegal law practice to Dismiss the Appeal, again
citing Statues.
07/30/2018
2 pg, 255.82 KB

Filed dert: order (Deputy Cleric MF): On May 24,2018, the court dismissed this appeal for failure to
prosecute because appellant had not responded to the February 28,2018 order to Show cause. See 9th
Cir. R. 42-1. Appellant has now responded to the order to show cause. The motion to reinstate this appeal
is granted (Docket Entry No. [4]). The May 24,2018 order is vacated, and the appeal is reinstated. The
court's February 28,2018 order to show cause and any pending motions will be addressed by separate
order. Briefing remains suspended pending further court order. [10959521] (AF) ptered: 07/30/2018
01:52 PM]

Another unsigned clerk’s order stating that the “Court dismissed the Appeal.
No it was Clerk who Dismissed the Appeal. “Court” and “Clerk” are not the same
entity and should not be used interchangeably as it constitutes lies, fraud etc.
Here the Clerk vacated “Order” pursuant to 9th Circuit Rule 42-1; reinstated
the appeal; vacated the OSC. All consistent with legal research which is not their
duty. Also varying with ECF 6 below, where Commissioner discharged the OSC,
CIRCUIT RULE 42-1. DISMISSAL FOR FAILURE TO PROSECUTE
When an appellant fails to file a timely record, pay the docket fee, file a timely brief,
or otherwise comply with rules requiring processing the appeal for hearing, an order
may be entered by the clerk dismissing the appeal.
08/10/2018 O
8pg.387.T7 KB

Filed order (Appellate Commissioner): On July 31,2018, the district court entered a final judgment
dismissing the remaining parties to the underlying action. Accordingly, the February 28,2018 order to
show cause is discharged. See Fidelity & Deposit Co. v. City of Adelanto, 87 F.3d 334,336 (9th Cir. 1996)
(premature appeal horn distnct court’s dismissal order cured by dismissal of remaining parties); see also
Anderson v. Allstate Ins. Co., 630 F2d 677,680-81 (9th Cir. 1980). If appellant wishes to challenge the
dismissal of the remaining parties, appellant must file a new notice of appeal within the time limits
prescribed by Federal Rule of Appellate Procedure 4(a)(1). A review of this court's docket reflects that the
filing and docketing fees for this appeal remain due. Within 21 days after the date of this order, appellant
shall pay to the district court the $505.00 filing and docketing fees for this appeal and file in this court
proof of such payment or file in this court a motion to proceed in forma pauperis. Failure to pay the fees or
file a motion to proceed in forma pauperis shall result in the automatic dismissal of the appeal by the
Clerk for failure to prosecute. See 9th Cir. R. 42-1. The Clerk shall serve a Form 4 financial affidavit on
appellant. The opening brief is due September 10,2018; the answering brief is due October 10,2018;
and the optional reply brief is due within 21 days after service of the answering brief. Because appellant is
proceeding without counsel, the excerpts of record requirement is waived. See 9th Cir. R. 30-12.
Appellees' supplemental excerpts of record are limited to the district court docket sheet, the notice of
appeal, the judgment or order appealed from, and any specific portions of the record cited in appellees’
brief. See 9th Cir. R. 30-1.7. The filing of a motion to proceed in forma pauperis will stay the briefing
schedule pursuant to Ninth Circuit Rule 27-11. (Pro Se) [10972751] (GKP) [Entered: 08/10/2018 09:40
AM]

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CD
LO<U
2GO

The above “Order” (ECF 6) is by Appellate Commissioner”. It seems every
employee of Ninth Circuit can issue Orders in Appeals, except the Judges
themselves.
This “Order” contradicts the ECF 5 “Order above where the Clerk has
reinstated the appeal and vacated the OSC while the Appellate Commissioner’s
Order. (Please note this varies with Docket 5).
Both the Clerk and the Commissioner lied on record as to Petitioner not
paying the fee which was paid and docketed by them n the wrong case (Proof of
payment, copies of cashiers checks and receipts, were provided in Petitioner’s filing
and in Appeal Exc. I Ex 6 Pg 105, 106).
Excerpt I Exhibit 6 in Appeal herein
r.'anrrified copy of money order payment to District Court
Chech is dated August 1 4.2018.

r

,.n

11
I ...»

c

oi

r

i

y
f•

41 ■

s:

4
•?>

■ ?

\

■?

i
m

'xfLD

<U

e*o
to

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

10/31/2018 0 j4_
epa.30P.65 KB

11/01/2018 Qjk
1 pg, 199.06 KB

Bled clerk order (Deputy Clerk; CO): Appellant's motion for an extension of tiro to file the opening brief is
granted [9J. Tbe Clerk shall file the opening brief received on October 25,2)18. Appellants motion for an
extension of time to tile the opening brief includes a statement that she has paid the fees for this appeal.
The receipt appellant provides is for appeal No. 18-16553, notforthis appeal. The fees for this appeal
remain due. Within 21 days after the date of this order, appellant shall have one final opportunity to pay to
the district court $505.00 as the docketing and tiling fees for this appeal and file proof of payment in this
court, orfile in this court a motion to proceed in forma pauperis. The filing of a motion to proceed in forma
pauperis will automatically day the briefing schedule under Ninth Circuit Rule 27-11. If appellant tails to
comply with this order, the appeal will be dismissed automatically by the Clerk under Ninth Circuit Rule
42-1. The Clerk shall serve a Form 4 financial affidavit on appellant The answering brief is due December
7,2018; and the optional reply brief is due within 21 days after service of the answering brief. (11067485)
(CKP) [Entered: 10/31/2018 0123 PM]
Rled clerk order (Deputy Clerk: MF): Tire portion of the October 31,2018 order addressing the Meting
schedule for this appeal is vacated. The Clerk shall not file the opening brief until the fee status for this
appeal is resolved. The remainder of the briefing schedule will be set if the opening brief is filed. Appellant
remains obligated to comply with the portion of the October 31,2018 order requiring appellant to pay the
fee for this appeal or file a motion to proceed in forma pauperis. [11069015] (CKP) [Entered: 11/01/2018
02:54 PM]

Petitioner did not know that the District Court Clerk applies fees paid to
various cases and will deliberately apply her fee paid to another case when the
Appeal No was stated on the payment. Surely the Ninth Circuit Court Clerk and
the Commissioner could have verified this deliberate “mistake” when provided with
Proof of Payment instead of issuing one Order after another and performing legal
research to quote statutes in effort to actively restrict Petitioner’s access to Courts.
12/04/2018 0 j£
1pg.1BB.14KB

12/21/2018 Qj£
32 pg. 1.46 MB

04/02/2019 Q je_
2 pg, 263.14 KB

Filed order (Deputy Clerk: CKP) Motion to dismiss case for failure to prosecute (Cir. Rule 42-1). Pursuant
to Ninth Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated
10/31/2018). This order served on the district court shall, 21 days alter the date of the order, act as the
mandate of this court. [11108695] (CIO3) [Entered: 12/04/201811:05 AM]
Rled Appellant Salma Agha-Khan, M.D. motion to reconsider order of the Clerk of the Court filed on
11/01/2018. Deficiencies: None. Saved on 12/21/2018. [11217834] (CW) [Entered: 03/06/2019 10:37 AM]
Filed clerk order (Deputy Clerk: MF): On December 4,2018, trie court dismissed this appeal for failure to
prosecute because appellant had not paid the filing and docketing fees. See 9th Cir. R. 42-1A review of
the district court’s records reflects that appellant has now paid the filing and docketing fees for this appeal.
However, appellant erroneously paid the fees for this appeal in District of Nevada civil case No. 2:17-cv02739-GMN-CWH, not the above-referenced district court docket. The motion to reinstate this appeal is
(panted (Docket Entry No. [IZD The December 4,2018 order is vacated, and the appeal is reinstated.
The Clerk shall amend the docket to reflect that the fees for this appeal have been paid. The Clerk shall
file the opening brief received on October 25,2018 (Docket Entry No. [10]). The answering brief is due
May 3,2019; and the optional reply brief is due within 21 days after service of the answering brief. The
Clerk shall send a copy of this order to the district court The district court clerk shall transfer the fee
payment received on November 26,2018 in dvil case No. 2:17<v-02739-GMN-CWH to Are abovereferenced district court docket. [11250217] (AF) ptered: 04/02/2019 0120 PM]
LO
LO

<U
GO
05

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Where the actual title of Petitioner’s filing, ECF 17, was
i.<*

15
IS

it
19
id

APPELLANT'S NOTION FOR RELIEF FROM CLERK'S ORDER
DISMISSING APPEAL DESPITE APPELLANT REPEATEDLY
PROVIDING PROOF OF REPEAT PAYMENTS M ADE TO
DISTRICT COURT IS VIOLATION OF APPELLANTS CIVIL
RIGHTS SUGGESTING COLLUSION BETWEEN NINTH
CIRCUIT AND DEFENDANTS MANDATING RECUSAL
This was also Petitioner’s first Motion asking for Recusal of Ninth Circuit,

ignored by Ninth Circuit Clerk, Commissioner and Judges.
Ninth Circuit forced Petitioner to pay the fling fee TWICE for this Appeal.
Magnified copy of SECOND money order payment to District
Court
Check is doted November 14.2018.

•«
O
o
o
D
a
i»

°n ^
ru

ru

tn

s.4-1

•XT
-vJ

c.
■■
f ^

t

r '
T

r

tn
tn

0

5s
P 5 fs , as
tn rt

tn m

o»

Z<

JD
tr*
kH

V

i

Ir
#1;

05

•

?a

5^

lH

-0
kH
• r*
r.

^0

r
fT :

r- V

r

VJ

P'

r*

.U

1/5

m

O

m
*o
—r*
•J

m

I
<X>
LO
QJ
200

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Appeal filed on October 25, 2018 was officially “reinstated” on April 02, 2019.

10/18/2018 Q g
Filed Appellant Salma Agha-Khan, M.D. motion to extend time to file appellant opening brief. Also
s Pg. 273.26 kb included copy of receipt of payment of fees, Out the receipt is not for this DC docket or appeal,
Deficiencies: None. Served on 10/18/2018. [11053424] (CW) [Entered: 10/19/201811:29 AM]
And April 02, 2019

04/02/2019 □ 19

Fee status changed ([Case Number 18-15202: Paid]). (See 4/2/2019 order [|8] of the court) [11250221]
(AF) [Entered: 04/02/2019 01:21 PM]

Ninth Circuit Clerk also issued Mandate in the Appeal.
Case: 1345202,02/05/2020. ID: 11585750, DfctEntry: 56. Page 1 of I

UNn£DSTAIES.OOGKfOFAraEALS
FORI®

ORCOir

FILED
FEB 05 2020
■m. cauKtm appeals

SALMA AGHA-KKAN, MD... MB,
PfagrtifF- Appellant
v.
PACIFIC GGMMUNE1Y
MORTGAGE, lNC,a suspended.
CaiifbiEia CwgKaaiuEL its successors
and assigns: etal.

m>. 18-15202
D C No. 2:16-cv-Ql124-JCM-NJK
UJS. District Court forNevada. Las
VflEas.
MANDATE

Defendants - Appellees.
The judgment ofthis Court entered Jammy 14,2020. takes effect this date.
This constates tie fbnnaimaDdz.teof1iiis Court issued frarsvtznf fo Rule
41(a) oftbe Federal Rules ofAppellate Procedure.
FOR THE COURT:
MOILYC. DWYER.
CL£RKOF COURT
LO

a)
do

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Then Recalled it and Reissued “Partial Mandate”. All similarly unsigned.
02/05/2020 □
1 re. 87.5 KB

MANDATE ISSUED.(CMC, JHN and ADH) [11585750) (CW) [Entered: 02/05/2020 06:39 AM)

04/24/2020 Q 57_

Rled cleft order (Deputy Clerk: ew): The mandate issued on 02/05/2020 is recalled as issued in error.
[11670910] (CW)ptered: 04/24/202011:35 AM]

1pg.SO.33 KB

04/24/2020 0 58
1 pg. 80:62 KB

PARTIAL MANDATE ISSUED issued as to all parties except Aurora Loan Services, LLC, Mortgage
Electronic Registration Systems. Inc., Ttieodore Schultz, and Trisha McMuIlin. (CMC, JHN and ADH)
[11670921) (CW) [Entered: 04/24/20201138 AM]

Reissuing the Mandates all over again.
08/10/2020 □ _61_
1 PS, 85.47 KB

12/01/2020

Q

PARTIAL MANDATE ISSUED. AFFIRMED as to at! parties except Aurora Loan Services, LLC, Mortgage
Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMuIlin. (BGS, JHN and ADH)
[11782293] (CW) [Entered: 08/10/2020 07:35 AM]
MANDATE ISSUED,(BGS. JHN and ADH) [11910277] (CW) [Entered: 12/01/2020 07:14 AM]

1 ps. 82,85 KB

Case: 18-15202,12/01/2020. ID: 11810277, DktErtry: 64. Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FORIHE NINTH aRCUIT

DEC 012020
M«xc,!i)nn«<un
Oi OO'-'K or MWAU

SALMA AGHA-KHAN. MD,. MB.,
Plaintiff- Appellant.
V.

pacific community
MORTGAGE., lNC,a suspended
California CoiporzticQ. its successois
and assigns; etaL

No. IS-I5202
D:C No. 2:16-cr-0li24-JQvf-NJK
IIS. District Court far Nevada. Las
Veg35
MANDATE

Defendants - Appellees.
The judgment ofthis Coait. entered Novanber09,2020. takes effect this
date.

This constitutes (he formal mandate offixe Gnat issued pursuant to Rale
41(a) of (be Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C DWYER
CLERK OF COURT

OO
lna>

bo

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

The Clerk even “Withdrew” Order issued by Judges. An Order issued by a
Judge must be vacated by a Judge and not the Clerk. Still unsigned.
07/17/2020 □ 59
1 PS. 85.58 KB

Filed order (CONSUELO M. CALLAHAN, JACQUELINE H. NGUYEN and ANDREW D. HURWITZ): The
order filed on January 14,2020 (Docket Bitty No. [5511 is hereby withdrawn. A replacement order will be
filed concurrently with this order. {11757150] (AF) [Entered: 07/17/2020 02:23 PM]

FRAP Rule 45
(c) Notice of an Order or Judgment. Upon the entry of an order or judgment,
the circuit clerk must immediately serve a notice of entry on each party, with
a copy of any opinion, and must note the date of service on the docket. Service
on a party represented by counsel must be made on counsel.
(d) Custody of Records and Papers. The circuit clerk has custody of the
court's records and papers. Unless the court orders or instructs otherwise, the
clerk must not permit an original record or paper to be taken from the clerk's
office. Upon disposition of the case, original papers constituting the record on
appeal or review must be returned to the court or agency from which they were
received. The clerk must preserve a copy of any brief, appendix, or other paper
that has been filed.
Clerk can only provide notices and keep records according to their duties in
FRAP Rule 45. Yet incredibly they failed to adhere to their duties in full knowledge
of supervising Judges and other
The Clerk without any formal legal education, degree was citing statutes,
circuit rules, case law was producing one “Order” after another. “Court” and
“Clerk” were used interchangeably, treated as one to represent the same
entity/authority in this Appeal.

Clerk even recalled Judges Orders and Issued

Mandates, recalled them and reissued Partial Mandates and Mandates.
Surely any reasonable person and this Supreme Court will see these actions
constitute deliberate and knowing fraud to actively prevent Petitioner from
accessing Courts, receiving Justice and recovering her stolen home and monies by
Respondents. Once again these Ninth Circuit actions validate Petitioner’s Claims.

CTi
LO(D

00

fU
Cl.

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

C. NINTH CIRCUIT FAILED TO PERFORM DE NOVO REVIEW EVEN
WITH SEC FRAUD ALLEGATION
The Ninth Circuit granted Summary Affirmance to District Courts ruling
ignoring case law, even reversing their case law, Statutes and constitution (See
destroyed Opposition to Summary Affirmance Ex B Pg 21-24 in Appendix)
IV, DE NOVO STANDARD REVIEW IS MANDATED

s

The United States Supreme Court stated in Teflabs. Inc. v.

€
7

Makor Issues & Rights, Ltd., 551 322,127 S.Ct. 2499,168 LEd.2d

8
9

179 (2007) that, in assessing securities fraud claims, "courts must

10

consider the complaint in its entirety, as welt as other sources

11

courts ordinarily examine when ruling on Rule 12(b)(6) motions
12
13

14
IS

to dismiss, in particular, documents incorporated into the
complaint by reference, and matters of which a court may take
fl

judicial notice."

1€
17
18

https://1mmc lexisnexis.com/la wschooi/resources/p/casebrieftellabs-inc-v-makor-issues-riahts-itd.aspx
The appellate court must consider the matter anew, as if no

13

14

decision previously had been rendered. See Freeman v. DirecTV.

IS

Inc.,

457 F.3d

1001,

1004 (9th Cir.

2006).

Review is

1€
17
18

"independent," see Aoveman v. INS. 296 F.3d 871, 876 (9th Cir.
2002), or "plenary," see Stilwel! v. Smith & Nephew. Inc.. 482

19

F,3d 1187, 1193 (9th Cir. 2007); United States v. Waites. 198

o

20

21

F.3d 1123, 1126 (9th Cir. 2000).

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

kD(U
200

De novo review means that this court views the case from

>2
!3

the same position as the district court.

Lawrence v. Deot of

l!4

Interior. 525 F.3d 916, 920 (9th Cir. 2008); see also Lewis v.

>5

United States. 641 F.3d 1174, 1176 (9th Cir. 2011).
9
iQ
ii

De novo review is well settled as it applies to Summary
Judgment A district court's decision to grant partially grant or
deny summary judgment or a summary adjudication motion is

12
13
14
IS

reviewed de novo. Branch Banking & Tr. Co. v. D.M.S.I., LLC.
871 F.3d 751, 759 (9th Cir. 2017); Mull for Mull v. Motion Picture
Indus. Health Plan, 865 F.3d 1207, 1209 (9th Cir. 2017); Szaier

1€
17
IS
19

v. city of Los Anoefes. 632 F.3d 607, 610 (9th Cir. 2011);
Universal Health Servs.r Inc, v. Thompson. 363 F.3d 1013, 1019
(9th Qr. 2004).

20
21
22

On review, the appellate court must determine, viewing the
evidence in the light most favorable to the nonmoving party,

23

whether there are any genuine issues of material fact and whether
24
23

21
22

the district court correctly applied the relevant substantive law.
On review, the appellate court must determine, viewing the
evidence in the light most favorable to the nonmoving party,
whether there are any gen uine issues, of material feet a nd whether

24
25-

the district court correctly applied the relevant substantive law.
*--1

<£>a>

oo

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

i
S:
3

Fruddan w. Pillim. 877 F.3d 821, 828 (9th CSr. 2017); Olsen v.
Idaho Slate. Bd, of Medicine. 363 F„3d 916, 922. (9th Or,
20Q4),[i23f

*
S

Hie court must not weig h the evidence or determine the truth

6

of the matter but only determine whether there is a genuine issue

1

for trial

Bafint v. Carson City. 180 F.3d 1047, 1054 (9th Or.

B
9
30
II,

1999). Summary judgment is not proper if materia! factual issues
exist for trial Simo v. Union ofNeedle trades, 322 F,Sd 602,810
(9th dr- 2003).

IS 1*

i
2

%

Wo deference is given to the district court. See Barrientos v.
Wells Fargo Bankr N.A.r 633 F.3d 1186,1188 (9th Or. 2011); Ditto
v. McCurdy, 510 F,3d 1070, 1075 (9th Or, 2007); Rabkin v.

I

&
€
7

Oregon Health Sciences Univ., 350 F.3d 967, 971 (9th Or. 2003)
"When de novo review is compelled, no form of
appellate deference is acceptable."
Perhaps it was this reminder of Ninth Circuits own case law established that

led them to destroy this particular filing. Petitioner hopes that Supreme Court will
Order to include these destroyed failing into Appeal Record.

C\l
<D
CD
TO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

D. NINTH CIRCUIT JUDGES VIOLATED JUDICIAL OATH, JUDICIAL
CANONS, CODES OF CONDUCT AND ETHICS
Ninth Circuit Judges by delegating the case to Clerk for “Adjudication”,
violated their Oath, Judicial Canons, Codes of Conduct and Ethics. The Judges had
the Clerk performing legal analysis, Issuing OSC, Recalling OSC, Issuing Orders,
Withdrawing Orders, Issuing Mandates, Recalling Mandates, Issuing Partial
Mandates and Dismissing Appeals.
Judges Oath does not include Clerks and contains mandatory language.
28 U.S. Code § 453 - Oaths of justices and judges
“Each justice or judge of the United States shall take the following oath or
affirmation before performing the duties of his office: “I,
., do solemnly
swear (or affirm) that I will administer justice without respect to persons, and
do equal right to the poor and to the rich, and that I will faithfully and
impartially discharge and perform all the duties incumbent upon me as__
under the Constitution and laws of the United States. So help me God.”
According to Judicial Canons 1, 2 and 3 “A Judge Should Perform the
Duties of the Office Fairly, Impartially and Diligently
the Integrity and Independence of the Judiciary

Should Uphold
Should Avoid

Impropriety and the Appearance of Impropriety in all Activities”.
Judicial Canon 3 set the standards for Judges to adhere to. These include
(A) Adjudicative Responsibilities:

This responsibility was deliberately and

knowingly violated by the Ninth Circuit Judges when they delegated the case to their
Clerk for Adjudication. Instead of the Judges judging the case on its merits the Clerk
did. The Clerk performed legal analysis, quoted statutes, law and reached fact, when
the Clerk had not spent one day in law college and did not have a law degree to
provide basis for such actions.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

m

to<u

GO
03

The Clerk issued eighteen (18) Orders out of total twenty-one (21) orders in
the Appeal (ECF 2, 4, 5, 6, 8, 14, 15, 16, 24, 33, 47, 53, 54, 56, 57, 58, 61, 64). Only
three Orders entered in the Docket by the Clerk stated Judges full names but not on
the actual Orders. The actual “Order” lacked names of issuing authority and were
not even signed so that authenticity could not be established. (ECF 55, 59, 60). Last
names of Judges stated on Orders were as follow

Before

GAI2ABA1^19G(n^^BI3Kll^GraAlB^

adHORSrai^CMt Mgs.
And after switching Defendant-Judge Callahan with Silverman (ECF 60)

SILVSCMAIiliGUXEN, and HURWIIZ, Circuit Judges.
Judges unsigned Order was even withdrawn by the Clerk.
The Judiciary Act of 1789 authorized the Supreme Court and the judge of each
district court to appoint a clerk to assist with the administration of federal judicial
business in those courts. Nothing in this act permits the determination of legal
issues. In 1870 the Department of Justice was established and assumed
responsibility for supervising the clerks and their accounts. Nothing in the policies
of USDOJ permits determination of legal issues by a Clerk of Court..
Yet, the Clerk here acted as a Judge as directed by the Judges shamelessly.
(B). Administrative Responsibilities: See Canon 3
(2) A judge should not direct court personnel to engage in conduct on the judge’s
behalf or as the judge’s representative when that conduct would contravene
the Code if undertaken by the judge.

to

0)

txo

0>
CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Ninth Circuit Judges discharged their duty of administering other Judges and
Court personnel when the Appeal was delegated to the Clerk for adjudication. Clerk
issued OSC, which is a legal substantive action. If purely administrative then it
should have read so. The Clerk also dismissed the same OSC. The Clerk performed
legal research to provide cite statutes, case law to reach fact. The Clerk also recalled
Judges Order in unsigned Order which only a Judge can recall. The Clerk issued
Mandates, recalled them and reissued Partial Mandates and Mandates.
It is illegal to practice of law in California unless the person is an active
member of the Bar. Ninth Circuit Clerk illegally practiced law which is a crime.
California Business and Professions Code 6125 & 6126. You may not
practice law in California unless you are an active member of the California
State Bar.
These are all violations of Clerk’s duties and complete failure of Ninth Circuit
Judges to perform their supervisory/administrative duty.
Ninth Circuit Judges violated Judicial Canons deliberately and knowingly to
deny Petitioner her constitutional rights.
(C). Disqualification:
(1) A judge shall disqualify himself or herself in a proceeding in which the
judge's impartiality might reasonably be questioned....

Use of word “shall” denotes mandatory connotation and not an option.
Petitioner had filed three motions for Disqualification of Ninth Circuit where
the third motion was destroyed by Ninth Circuit. The titles of Petitioners Motions
were changed in the Docket.
LO
QJ

Cut)

CO
Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

First Motion for Disqualification, ECF 17, was not even acknowledged. The
Motion was incorrectly entered in the Docket and thus not opposed or ruled upon
12/21/2018 OJL

32 pg, 1.46 MB

Filed Appellant Salma Agha-Khan, M.D. motion to reconsider order of the Clerk of the Court filed on
11/01/2018. Deficiencies: None. Served on 12/21/2018. {11217834] (CW) [Entered: 03/06/201910:37 AM]

Where the actual Title of Motion was
M | APPELLANT'S MOTION FOR RELIEF FROM. CLERK'S ORDER
15

dismissing appeal despite appellant repeatedly

it.

PROVIDING PROOF OF REPEAT PAYMENTS MADE TO
DISTRICT COURT IS VIOLATION OF APPELLANTS CIVIL

1f
1®

RIGHTS SUGGESTING COLLUSION BETWEEN NINTH

19

CIRCUIT AND DEFENDANTS MANDATING RECUSAL

Second Motion for Disqualification, ECF 42, was not ruled upon till dismissal
of Appeal on January 14, 2020, ECF 55. Again, Motion title was changed
06/28/2019 Q 42
62ps~MB

Filed Appellant Salma Agha-Khan, M.D. motion 2ndmtnto disqualify Ninth Circuit. Deficiencies: None.
Served on 06/27/2019. [11349740] (CW) ptered: 07/01/2019 08:06 AM]

Where the Motion title was

HO

APPELLANT'S SECOND MOTION TO DISQUALIFY
NINTH CIRCUIT BASED UPON 'MANDATORY AND ■
SELF-EXECUTING DISQUALIFICATION STATUTES.

as

28 ikSJC. § § 144 and 455; DECLARATION OF APPELLANT

$8

1*

Third Motion for Disqualification: received by the Clerk on November 03, 2019
was destroyed by Ninth Circuit. Title of Motion
17
18

19
20

21
22

APPELLANT'S THIRD MOTION TO DISQUALIFY
NINTH CIRCUIT BASED UPON MANDATORY AND
SELF-EXECUTING DISQUALIFICATION STATUTES
28 U.S.C. § § 144 and 455; AND JUDICIAL CODES OF
CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS 1,
2, 3; AFFIDAVIT/DECLARATION OF APPELLANT
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

UD
UDa.

on

w

Surely Three Disqualification Motions with required affidavits were enough
for Ninth Circuit to disqualify themselves? Surely Judges impartiality was not just
“reasonably” but clearly in question. The malicious intent of Ninth Circuit fueled by
personal gains blurred all statutes, laws, constitution by comparison.
(D). Remittal of Disqualification: Where Canon 3 states
The judge may participate in the proceeding if, after that disclosure, the
parties and their lawyers have an opportunity to confer outside the presence
of the judge, all agree in writing or on the record that the judge should not be
disqualified, and the judge is then willing to participate. The agreement should
be incorporated in the record of the proceeding.
Thus the three requisites based upon Judicial Canons to continue on case following
recusal by mandatory, self-executing statutes 144 and 455 are
1. Disclosure by the Judge
2. Approval of parties following Judges disclosure
3. Agreement allowing the Judge to continue incorporated in Court Records
In Appeal herein there was no Judges “disclosure” or agreement between any
party or any entry in the Appeals records regarding one. Petitioner’s repeat
reminders as to Disqualified status of Ninth Circuit since 21 December 2018 were
not acknowledged, ignored and destroyed.
Petitioner’s Constitutional rights of free unbiased access to courts, due
process, equal protection etc were denied with deliberate and knowing violations of
Judicial Oath and Canons. Petitioner was actively prevented from recovering her
stolen property and money. These actions establish validity of her claims. Petitioner
now turns to Supreme Court for restoration of law and her Constitutional Rights.
<u

00
03

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

E. NINTH CIRCUIT LACKED JURISDICTION TO CONTNUE IN APPEAL
AFTER FILING OF PETITIONER’S FIRST MOTION FOR THEIR
RECUSAL BASED UPON MANDATORY SELF-EXECUTING STATUTES
Petitioner First Motion for Disqualification of Ninth Circuit and its
Judges filed December 21, 2018. When Brief entered in the Docket on October 25,
2018. Motion was ignored. (Before Appeal “accepted” by Clerk on April 02, 2019.)
10/25/2018 Q jn
Received original and 7 copies of Appellant Salma Agha-Khan, M.D. opening brief (Informal: No) 93
1420^41.36 mb pages. 4 copies of excerpts of record in 6 volumes. Served on 10/14/2018. Major deficiencies: fee due.
(110625951 (SMI) ptered: 10/26/2018 02:59 PM]
04/02/2019 Q 19

Fee status changed ([Case Number 18-15202: Paid]). (See 4/2/2019 order (18] of the court) (11250221]
(AF) [Entered: 04/02/201901:21 PM]

Note: The Clerk is calling “Clerical Orders” as “Court Orders”. So that Clerk and
Court seem to the same entity.
02/26/2018 Q 2
2p9,263.47 KB

Pled clerk order (Deputy Clerk: MF): It appears that the district court's order challenged in this appeal
may not have disposed of the action as to all claims and allparties. Within 21 days after the date of this
order, appellant shall move for voluntary dismissal of this appeal or show cause why it should not be
dismissed for lack of jurisdiction. See Fed. R. Civ. P. 54(b); Chacon v. Babcock, 640 F.2d 221 (9th Or.
1981). if appellant elects to show cause, a response may be filed within 10 days after service of the
memorandum. If appellant does not comply with this order, the Clerk shall dismiss this appeal pursuant to
Ninth Circuit Rule 42-1. Briefing is suspended pending further order of the court [10780676] (CKP)
ptered: 02/28/201810:46 AM]

07/30/2018 0 £
Filed clerk order (Deputy Clerk: MF): On May 24,2018, the court dismissed this appeal for failure to
2 pg, 255.82 kb prosecute because appellant had not responded to the February 28,2018 order to show cause. See 9th
Cir. R. 42-1. Appellant has now responded to the order to show cause. The motion to reinstate this appeal

And again
09/19/2018 0
Fried clerk order (Deputy Clerk: CO): On August 10,2018, this court issued an order directing appellant to
2 pg. 27137 kb pay $505.00 to the district court as the docketing and fifing fees for this appeal, or file in this court a

G4/02Q019 0J_
Fled clerk order (Deputy Clerk: MF): On 060601136/4,2018, the court dismissed this appeal for failure to
2pg,mi4 Ks prosecute because appelant had not paid the tiling and docketing fees. See 9th Cir. R.42-1. Areviewof
(««•»*«

««

•

m

i

it

*

it

H

M

******

»

n <

(Petitioner had paid the filing fee that was docketed by Clerk in a wrong case.)

«

00
CD
QO

ro

Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Petitioner’s Second Motion for Disqualification of Ninth Circuit and its
Judges filed on June 28, 2019, ECF 42. Ignored till Appeal Dismissal on January 14,
2020. ECF 55.

06/28/2019 []£
62 do. 1.63 MB

Rled Appellant Salma Agha-Khan, M.D. motion 2nd mtn to disqualify Ninth Circuit Deficiencies: None.
Served on 0M)?9. H13497401 (GW) (Entered: 07/010019 08:05 AMI

Petitioner’s Third Motion for Disqualification of Ninth Circuit and its
Judges filed on November 03, 2019 was destroyed by the Ninth Circuit.
received
1
2
3

OFFICE OF THE CLERK
U S COURT OF APPEALS
PUBLIC INFORMATION UN T

Ninth Circuit Case No. 18-15202
.
2fi20HQV-3 PH!2: I4)
Originating US District Court Case No. 2:16-cv-0li24-JCM-NJK
'I LEO

______ ___

docketed__ ..__—.

4

DATE

IN*T :a:

5
6

IN THE UNITED STATES COURT OF APPEALS

7

FOR THE NINTH CIRCUIT

8
9
10

u
12

Saima Agha-Khan
Appellant-Plaintiff
v.

13

Pacific Community Mortgage, Inc., et a!,

14

Appellees-Defendants

IS
IS
17
18
19
20
21
22

APPELLANT'S THIRD MOTION TO DISQUALIFY
NINTH CIRCUIT BASED UPON MANDATORY AND
SELF-EXECUTING DISQUALIFICATION STATUTES
28 U.S.C. § § 144 and 455; AND JUDICIAL CODES OF
CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS 1,
2, 3; AFFIDAVIT/DECLARATION OF APPELLANT

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CD
CL)
OO
TO

This Motion is not in the Docket and was destroyed.
10/08/2019 Q 53
2 pB.m6B kb

Filed clerk order (Deputy Clerk: MKS): The court has received Aurora Loan Services, LLC’s status report
(Docket Entry No. (49]) and notice of entry of order extending the automatic stay imposed by 11 U.S.C. §
362 to certain non-debtor parties to this appeal (Docket Entry No. [29]). Appellate proceedings are stayed
for Aurora Loan Services, LLC; Mortgage Electronic Registration Systems, Inc.; Theodore SchUltz; and
Trisha McMuli'm only. This appeal win proceed as to the remaining parties. The opposed motions for
summary affirmance (Docket Entry Nos. [25], [30]) and appellant’s motion for disqualification (Docket
Entry No. (22!) will be addressed by separate order. The briefing schedule remains stayed pending further
order of the court (11458390] (AF) (Entered: 10/08/2019 03:35 PM]

12/17/2019 OjgjL

Filed clerk order (Deputy aerie MKS): This appeal has been held in abeyance as to Aurora Loan
Services, LLC ("Aurora") since April 15,2019, and as to Mortgage Electronic Registration Systems, Inc.

2pg. 125.64 KB

No Respondent filed opposition, perhaps because they were told not to by
Ninth Circuit in ex-parte communications unknown to Petitioner.
All Disqualification Motions were unopposed yet not acknowledged, ignored,
destroyed and denied.
Recusal Statues are mandatory and self-executing.
28 U.S.C § 144 - Extra Judicial Sources of Bias and Prejudice
“Whenever a party to any proceeding in a district court makes and files
a timely and sufficient affidavit that the judge before whom the matter is
pending has a personal bias or prejudice either against him or in favor of any
adverse party, such judge shall proceed no further therein, but another
judge shall be assigned to hear such proceeding.
The affidavit shall state the facts and the reasons for the belief that bias
or prejudice exists, and shall be filed not less than ten days before the
beginning of the term at which the proceeding is to be heard....... ”
Destroyed Third Recusal Motion detailed “pre-existing” “extra Judicial
Sources of Bias and Prejudice” exhibited towards the Petitioner. (App A)
28 U.S. Code § 455: Mandatory, Self-Executing statute
Disqualification of justice, judge, or magistrate judge
(a) Any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might
reasonably be questioned, (emphasis added)
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or
personal knowledge of disputed evidentiary facts concerning the
proceeding; (emphasis added)

O
CD
00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

(2) Where in private practice he served as lawyer in the matter in
controversy, or a lawyer with whom he previously practiced law served
during such association as a lawyer concerning the matter, or the judge or
such lawyer has been a material witness concerning it;
(3) Where he has served in governmental employment and in such capacity
participated as counsel, adviser or material witness concerning the
proceeding or expressed an opinion concerning the merits of the
particular case in controversy; (emphasis added)
The word “shall” disqualify means that disqualification is not optional and is
in effect whether the Judge and or the Circuit accept it or not. The Ninth Circuit
proceeded defiantly in this Appeal following their Disqualification for personal gains.
"Jurisdiction is the power to hear and determine the subject matter in
controversy between parties to a suit, to adjudicate or exercise any judicial
power over them; the question is, whether on the case before a court,
their action is judicial or extratjudicial, with or without the authority
of law, to render a judgment or decree upon the rights of the litigant
parties." Rhode Island v. Massachusetts. 37 U.S. 657, 718, 12 Pet. 657, 726, 9
L. Ed. 1233 (1838). (emphasis added)
U.S. Supreme Court stated such a court is "without authority, its judgments
and orders are regarded as nullities. They are not voidable, but simply void” Elliot
v. Piersol. 1 Pet. 328, 340, 26 U.S. 328, 340 (1828)
Surely malicious deliberate destruction of Petitioner’s filings is not a routine
judicial act so that Ninth Circuit lacked the authority to continue and their judgment
is void. Petitioner is now hoping that this Supreme Court will reestablish the law
and grant this Writ.

<U
CtO

ro
o_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

F. NINTH CIRCUIT JUDGES ACTING WTHOUT JURISDICTION LOST
THEIR JUDICIAL IMMUNITY
This Supreme Court has defined “qualified immunity” of Judges
“Qualified immunity shields public officials performing discretionary
functions from 1983 and Fourteenth Amendment liability ‘insofar as their
conduct does not violate clearly established statutory or constitutional rights
of which a reasonable person would have known” See Harlow v. Fitzgerald, 457
U.S. 800, 818, 102 S.Ct. 2727, 73 L.Ed.2d 396 (1982).
Destroying Petitioner’s filings, failing to recuse and follow law and statutes for
personal gains are not “discretionary functions”.
This Supreme Court has also been very clear in stating that if the Judge
proceeds further when he lacks jurisdiction and loses immunity.
“A Judge who acts in the clear and complete absence of personal jurisdiction
looses his judicial immunity”. Rankin v. Howard. 633 F.2d 84-49 (9th Cir. 1980).
Cert, denied, 451 U.S. 939, 101 S.Ct. 2020, 68 L.Ed.2d 326 (1981).
“We conclude that a judge's private, prior agreement to decide in favor of
one party is not a judicial act. See also Lopez v. Vanderwater. 620 F.2d 1229.
1235-37 (7th Cir. 1980) (judge not immune for "prosecutorial" acts prior to
biased decision).2
Added
“When the Supreme Court first formulated the "clear absence" standard,
however, it stated that the principle of immunity applied when there was
"jurisdiction of both subject and person." Bradley v. Fisher. 80 U.S. (13 Wall.)

9. In Sparks v. Duval County Ranch Co., Inc., 604 F.2d 976 (5th Cir. 1979) (en banc), aff'd sub nom.
Dennis v. Sparks,__ U.S.___ , 101 S.Ct. 183, 66 L.Ed.2d 185 (1980), the Fifth Circuit held that a
judge accused of accepting a bribe to enter an injunction was "unqualifiedly immune from suit for
damages occasioned by his judicial act." 604 F.2d at 978.
The Supreme Court granted certiorari on the issue of derivative immunity, 445 U.S. 942, 100 S.Ct.
1336, 63 L.Ed.2d 775 (1980), but denied certiorari on the issue of judicial immunity. 445 U.S. 943,
100 S.Ct. 1339, 63 L.Ed.2d 777 (1980).

CN
0)

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

335, 352 (1872), 20 L.Ed. 646.U An absence of personal jurisdiction may be said
Both must be met before a court has
to destroy "all jurisdiction"
authority to adjudicate the rights of parties to a dispute.”
Further adding
“But when a judge knows that he lacks jurisdiction, or acts in the face of clearly
valid statutes or case law expressly depriving him of jurisdiction, judicial
immunity is lost. See Bradley v. Fisher. 80 U.S. (13 Wall.) at 351 ("when the
want of jurisdiction is known to the judge, no excuse is permissible"); Turner
v. Ravnes. 611 F.2d 92. 95 (5th Cir.1980) (Stump is consistent with the view
that "a clearly inordinate exercise of unconferred jurisdiction by a judge one so
crass as to establish that he embarked on it either knowingly or recklesslysubjects him to personal liability").^
Also 42 U.S.C. 1983 provides:
“Every person who, under color of any statute, ordinance, regulation, custom,
or usage, of any State or Territory or the District of Columbia subjects, or
causes to be subjected, any citizens of the United States or other persons within
the jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity or other proper proceeding for
redress”.
Ninth Circuits deliberate violations of laws, statutes, US Constitution to even
criminally destroy Petitioner’s filings maliciously were not “discretionary actions”.
They were malicious and Ninth Circuit has lost their Judicial Immunity.

11. Several courts have repeated this language indicating in dicta that both subject matter and
personal jurisdiction are necessary to confer judicial immunity. See, e. g., Duba v. McIntyre, 501 F.2d
590. 592 (8th Cir.1974), cert, denied, 424 U.S. 975, 96 S.Ct. 1480, 47 L.Ed.2d 745 (1976) ("the judge
must have both jurisdiction over the person and subject matter if he is to be immune from suit"); Ryan
v. Scoggin, 245 F.2d 54. 58 (10th Cir.1957) (judge is immune for order or judgment when "court has
jurisdiction of the subject matter and of the parties").
14. In Stump, although Indiana law did not expressly grant subject matter jurisdiction over
sterilization petitions, the Court found it "more significant that there was no Indiana statute and no
case law in 1971 prohibiting a circuit court, a court of general jurisdiction, from considering a petition
of the type presented to Judge Stump." 435 U.S. at 358, 98 S.Ct. at 1105.
The implication is that, had there been Indiana law expressly prohibiting the defendant judge from
exercising jurisdiction, a clear absence of jurisdiction would have been established. Here the plaintiff
contends that Kansas law expressly prohibited the defendant judge from exercising jurisdiction over
Rankin. If this contention is correct, the judge lost his immunity.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

no
a>

QO
03
Q_

G. NINTH CIRCUIT’S APPLICATION OF 28 USC § 455, MANDATORY
JUDICIAL RECUSAL STATUTE REEKS OF ABOLISHED “DOCTRINE
TO SIT”, VASTLY VARYING FROM ITS APPLICATION BY SUPREME
COURT AND OTHER CIRCUITS. WHY IS THERE THS SPLIT?
Petitioner brings this issue for consideration under this Court’s Rule 10 (a),
specifically (a) as United States Ninth Circuit court of appeals has entered a decision
in conflict with the decisions of other United States courts of appeal and Supreme
Court — very confusing for the public.
28 U.S. Code § 455 - Disqualification of justice, judge, or magistrate judge
“(a) Any justice, judge, or magistrate judge of the United States shall disqualify
himself in any proceeding in which his impartiality might reasonably be
questioned..........” (emphasis added).
The current section § 455 is divided into two parts. Section §455(a) states the
main disqualification standard, “catch all” according to Judge Kavanaugh. This is
the broader amended statute. While subsection § 455(b) enumerates specific extra
judicial circumstances in which a judge must recuse himself. “(1) Where he has a
personal bias or prejudice concerning a party, or personal knowledge of disputed
evidentiary facts concerning the proceeding....”.
According to the legislative history, the general language of section § 455(a)
was intended to replace the subjective standard of the pre-1974 statute with a purely
‘objective test.' H.R. REP. No. 1453, supranote 52, at 6354-55. H.R. REP.No. 1453,
supra note 52, at 6355. The new standard was "designed to promote public confidence
in the impartiality of the judicial process by saying, in effect, if there is a reasonable
factual basis for doubting the judge's impartiality, he should disqualify himself and
CD

txo

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

let another judge preside over the case." Heeding this legislative history, most courts
have adopted objective standard under § 455(a).
The First Circuit states in El Fenix de Puerto Rico v. The M/Y Johannv 36
F.3d 136 (1st Cir. 1994) “The recusal regimen under 28 U.S.C. § 455(a) in this circuit
requires the presiding judge to determine “whether the charge of lack of impartiality
is grounded on facts that would create a reasonable doubt concerning the judge’s
impartiality

in the mind of reasonable [person].” United States v. Cowden. 545

F.2d 257, 265 (1st Cir. 1976), quoted in United States v. Arache, 946 F.2d 129, 140
(I®* Cir. 1991)
The Second Circuit in In Re Drexel Burnham Lambert Inc. 861 F. 2d. 1307
used the Seventh Circuit’s standard “....The test to be applied is an objective one
which assumes that a reasonable person knows and understands all the relevant
facts. See Pepsico, Inc, v. McMillen 764 F.2d 458, 460 (7th Circ. 1985)”. In same case
Second Circuit limited bias from extrajudicial conduct to § 455(b)(1) stating “Under
§ 455(b)(1) what a Judge learns or comes to believe in his judicial capacity ‘is a proper
basis for judicial observations, and the use of such information is not the kind of
matter that results in disqualification’” United States v. Bernstein, 533 F. 2d 775,
7785 (2d Cir.)....”A determination of bias under this section must be based on extra­
judicial conduct, not conduct arising in a trial setting”
The Third Circuit in In Re Kensington Intern Ltd. 353 F. 3d. 211 (3rd Cir.
2003) First identified the “standard for disqualification under § 455(a). Whenever a
judge’s impartiality “might reasonably be questioned” in a judicial proceeding”, 28
U.S.C. § 455(a) requires that the judge disqualify himself.” Third Circuit further
stated “It is of no consequence that the judge is not actually biased because § 455(a)
“concerns not only fairness to individual litigants, but, equally important, it concerns

LO
CD
W)

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

‘the public confidence in the judiciary, which may be irreparably harmed if a case is
allowed to proceed before a judge who appears to be tainted.

Alexander v.

Primerica Holdings Inc.. 10 F.3d 155, 162 (3rd Cir. 1993)
The Fourth Circuit Court of Appeals has stated that "the question is not
whether the judge is impartial in fact" but whether a reasonable person might doubt
the judge's impartiality on the basis of all the circumstances. This standard makes
disqualification more likely than the bias-in-fact test, and therefore is consistent
with one of the main purposes of the 1974 amendments-to broaden the grounds for
judicial disqualification.”
The Fifth Circuit in Trevino v. Johnson 168 F.3d 173 (5th Cir. 1999) stated
“455(a)....the general rule adopted in this and several other circuits is that “an
appellate court, in passing on questions of disqualification

should determine

the disqualification on the basis of conduct which shows bias or prejudice or lack of
impartiality by focusing on a party rather than counsel” Davis v. Board of Sch.
Comm’rs. 517 F.2d 1044, 1052 (5th Cir. 1975)”.
The Sixth Circuit Court of Appeals explained, "the standard to be applied
under section § 455(a) is an objective one: whether the reasonable person, knowing
all of the surrounding circumstances, would consider the judge to be impartial."
United States v. Norton. 700 F.2d 1072, 1075 (6th Cir.), cert denied,461 U.S. 910
(1983). The legal standard of 455 at Sixth Circuit is a broader one, suggesting a
different test that is easier to satisfy. Section § 455(a) calls for an appearance-of-bias
standard, requiring only that the allegation support a reasonable suspicion of bias.
Sixth Circuit stated “If the question of whether Section(s) 455(a) requires
disqualification is a close one, the balance tips in favor of recusal. United States v.

to
0)
h0
CO
Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Dandy, 998 F.2d 1344, 1349 (6th Cir. 1993), “Where the question is close, the judge
must recuse himself’ Roberts v. Bailor, 625 F..2d 125, 129 (6th Cir. 1980).
The Seventh Circuit in U.S. v. State of Ala, 828 F.2d 1532 (11th Cir. 1987)
Legal Standard: The guarantee to the defendant of a totally fair and

stated

impartial tribunal, and the protection of the integrity and dignity of the judicial
process from any hint or appearance of bias is the palladium of our judicial
system”

”In 1974 Congress rewrote 28 U.S.C. § 455 to correct problems in

the disqualification statutes

In passing the amended 28 U.S.C. § 455,

Congress broadened the grounds and loosened the procedure for disqualification in
the federal courts

the statute places a judge under a self-enforcing obligation

to recuse himself.

The statute also did away with the “duty to sit” so the benefit

of the doubt is now to be resolved in favor of recusal. Section § 455(a) requires a judge
to disqualify itself when his “impartiality might reasonably be questioned”. Thus
under Section § 455(a) an actual demonstrated prejudice need not exist in order for
judge to recuse himself. ”
The Eight Circuit has a precedent as stated in Fletcher v. Conoco Pipe Line
Co 323 F. 3d 661 (8th Cir. 1994) “where in the language of 28 U.S.C. § 455(a), district
judge’s ‘impartiality might reasonably be questioned’” and “We apply an objective
standard of reasonableness....”
The Tenth Circuit in Nichols v. Alley 71 F.3d. 371 (10th Cir. 1995) stated
“The goal of section §455(a) is to avoid even the appearance of partiality. If it would
appear to a reasonable person that a judge has knowledge of facts that would give
him an interest in the litigation than an appearance of partiality is created........”
The Eleventh Circuit in Bonner v. City of Prichard. 661 F.2d 1206, 1209
(11th Cir. 1981) (en banc) stated “We hold the decisions of the United States Court of
<D
CU)
<TJ

Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Appeals for the Fifth Circuit, as that court existed on September 30, 1981

shall

be binding as precedent in the Eleventh Circuit”.
Judge Kavanaugh in District of Columbia Baker Hostetler v. U. S. Dept of
Commerce 471 F.3d 1355 (D. C. Cir.2006)

stated “Section § 455(a)’s general

“catchall” provision requires recusal when a judge’s “impartiality might reasonable
be questioned”. That section covers situations not addressed by § 455(b)”
U. S. Supreme Court in Liliebers v. Health Services Acquisition Cory., 486
U.S. 847, 858 n. 7, 108 S. Ct. 2194, 100 L. Ed.2d 855 (1988). Congress amended
Section 455 in 1974 “to clarify and broaden the grounds for judicial disqualification
and to conform with the recently adopted ABA Code of Judicial Conduct, Canon 3C
(1974).”

“Prior to 1974, both the technical and legal sufficiency requirements of

§ 144 had been construed strictly in favor or judges. Courts also operated under the
so-called “duty to sit” doctrine which required a judge to hear a case unless a clear
demonstration of extra-judicial bias or prejudice was made
amended 28 U.S.C. § 455,
obligation to recuse himself,

In passing the

the statute places a judge under a self-enforcing
The statute did away with the “duty to sit” so the

benefit of the doubt is now to be resolved in favor of recusal”. See U. S. v. State of
Ala. 828 F2d. 1532 (11th cir. 1987)
U. S. Supreme Court in Liliebers v. Health Services Acquisition Cory 486 U.S.
847 108 S. Ct. 2194, 100 L. Ed.2d 855 (1988) held “Violation of § 455(a) - is
established when a reasonable person, knowing the relevant facts, would expect that
a judge knew of the circumstances creating an appearance of partiality...” and stated
“Vacatur was a proper remedy for the § 455(a) violation”. Congress aimed to promote
public confidence in the judiciary. Id. 108 S. Ct. at 2202.
00
CD

oo

CO
Ou

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

U. S. Supreme Court in Litekv v. United States, 510 U.S. 540, 555 S.Ct. 1147,
1157, 127 L.Ed.2d 474 (1994). “Subsection (a)

entirely new “catchall” recusal

provision, covering both “interest or relationship” and “bias or prejudice
but requiring them all to be evaluated on an objective basis, so that

grounds,

what matters is not the reality of bias or prejudice, but its appearance. Quite simply
and quite universally, recusal was required whenever “impartiality might
reasonably be questioned.

“§ 455(a) proscribes all partiality, not merely the

“personal” sort”.
Supreme Court stated “It is wrong in theory

to suggest

that

“extrajudicial source” is the only basis for establishing disqualifying bias and
prejudice”. They established the secondary nature of extrajudicial source by adding
“A similar “plain language” argument could be made, however, with regard to § 144
and § 455(b)(1): they apply whenever bias or prejudice exists, and not merely when
it derives from an extrajudicial source.”
U. S. Supreme Court in Offutt v. United States. 348 U.S. 11 (1954)
stated,

“justice must satisfy the appearance of justice.” The 1972 ABA Code of

Judicial Conduct mandated that the judiciary avoid impropriety and the appearance
of impropriety. Supreme Court justices, including Justice John Harlan, put the
appearance of justice at the core of the Due Process Clause.
Despite Supreme Court’s stance and same stance of all other Circuits stance
(where 28 U.S.C. § 455(a) is the “catchall” for recusal). The Ninth Circuits uses
subsection § 455(b)(1), concentrating on extrajudicial sources only. Ninth Circuit
still adheres to the obsolete “duty to sit” doctrine abolished in 1974 when Congress
amended Section § 455.
CT>
<1>
UD

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

The Ninth Circuit in United States v. Sibla. 624 F.2d 864 (9th Cir. 1980)
stated “The test for personal bias or prejudice in section § 144 is identical to that in
section § 455(b) (1), and the decisions interpreting this language in section § 144 are
controlling in the interpretation of section § 455(b) (1). United States v. Olander. 584
F.2d 876, 882 (9th Cir. 1978); see United States v. Carisnan. 600 F.2d 762, 764 (9th
Cir. 1979).

we have ruled that section (b)(1) simply provides a specific

example of a situation in which a judge's 'impartiality might reasonably be
questioned' pursuant to section § 455(a) Olander. 584 F.2d at 882
matter which rests within the sound discretion of the judge

a

As with section §

144, the provisions of section § 455(a) & (b) (1) require recusal only if the bias or
prejudice is directed against a party and stems from an extrajudicial source.”
Carisnan. 600 F.2d at 764; Davis, 517 F.2d at 1052.
Ninth Circuit’s approach has been sharply criticized and contradicts U. S.
Supreme Court and other Circuits stance narrowing the disqualification criteria
instead of broadening it as intended by Congress and legislature.
Ninth Circuit’s emphasis on “extra judicial” source is unrealistic in most cases
as Judges do not come bearing flags that they have bias against Petitioner or ties to
defendants and are there to benefit themselves, their friends and family. In case
herein, however, Judge Callahan dd come bearing the flag of personal gains,
vendetta, retaliation as he was simultaneously defending his actions in Petitioners
case fled in Nevada District Bankruptcy with two other fellow judges. These personal
judicial gains on Defendant-Judge Callahan and Ninth Circuit established extra
judicial source for disqualification, immediately apparent to any reasonable person.
In Petitioner’s Appeal, Ninth Circuit ignored all the above issues instead of
enforcing 28 U.S.C. § 455, failed to recuse themselves to issue dismissal citing an

O
000)
QO

ro

Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

inapplicable case while three of their Judges were defending their actions in Nevada
Bankruptcy Court. (NV Bk. Case No. 19-01074-ABL-GS).
Defendant-Judge Callahan and Ninth Circuits violated the statute, 28 U.S.C.
§ 455 and as addressed in Canon 3 “(C) Disqualification. (1) A judge shall
disqualify himself or herself in a proceeding in which the judge’s impartiality might
reasonably be questioned

”. A judge is also required by the same Canon “(D)

Remittal of Disqualification. Instead of withdrawing from the proceeding, a judge
disqualified by Canon 3C(1) may, except in the circumstances specifically set out in
subsections (a) through (e), disclose on the record the basis of disqualification.....”
No disclosure was made by the Defendant-Judge Callahan or Ninth Circuit,
no permission sought to continue on the case from parties and hence no
documentation in court records. Ninth Circuit even destroyed Petitioner’s Third
Motion for their Disqualification while ignoring the First Motion, awarding the
unopposed Second Motion in Appeal Dismissal Note (ECF 4, 42, 55, 63)
Do these actions herein any kind of appearance of impartiality? Can any
reasonable person even remotely believe that above actions were not malicious,
biased and that such prejudice required recusal and that the judgments procured
were not fraudulent? And the dismissal of Appeal by recused Judges not void?
To a reasonable person it seems these Canons do not apply to Judges at all
and are just writings to fill pages of books to fill libraries. Petitioner is now turning
to the US Supreme Court to enforce execution of US Statutes, Constitution and laws
including their own case law.

00a>

txo
03

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

H. NINTH CIRCUIT HAS INCONSISTENT RULINGS WHERE RULING IN
APPEAL HEREIN CONTRADICTS THEIR OWN PRIOR RULINGS
In case herein Ninth Circuit granted Summary Affirmance to District Courts
Order flipping and contradicting their own prior rulings. Not to mention that
Petitioner’s Opposition to Summary Affirmance received by Ninth Circuit on
November 03, 2019 was destroyed by Ninth Circuit. See
1. Kester v. Citimortsase. Ninth Circuit Memorandum decision (2017) stated
“The plaintiff must have (1) suffered an injury in fact, (2) that is fairly traceable
to the challenged conduct of the defendant, and (3) that is likely to be redressed
by a favorable judicial decision."
Standard established by Ninth Circuit as to review of judgment by District
Court was not followed.
Petitioner’s one million dollar home was stolen by self-proclaimed Assignees
of a non-existing Lender, claimed a non-existing loan to collect over $5,000.00 er
month as mortgage forcing Petitioner not Bankruptcy. Also the non-existing loan
was stated to be fully paid off in SEC filings within few months of origination. Same
imposters became Creditor in Petitioner’s Bankruptcy, obtained relief by filing
forged title documents signed by well-established robo-signers. They also
fraudulently enrolled Petitioner in Loan Modification for non-existing loan during
which they illegally sold her property.
Were any of these Respondent actions not able to be “redressed by a favorable
judicial decision” according to above standard?
C\l
OOQ)
tJO
<T5
Q_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

2.

Also in Kester Ninth Circuit stated “In re Morts. Elec. Registration Svs. Inc.

754 F.3d 772, 783-84 (9th Cir. 2014) (allegations that defendants recorded documents
were
“invalid because they were ‘robo-signed’ (forged)’” sufficient to state a claim
..... without any analysis of materiality).”
Standards established by Ninth Circuit as to robo-signed and forged title
documents were not followed.
Petitioner alleged that self-proclaimed Assignees of non-existing Lender
started recording forged title documents six years after fraud loan origination and
pay-off, when she “defaulted” on fraud mortgage payments illegally getting collected
from her by Respondents. All recordings were signed by well-established robosigners such as Theodore Schultz, Mary Jane Same. Surely these had to be voided
according to above ruling?
3.

In Re MERS, that these allegation alone made the complaint plausible.

Another one of Ninth Circuit’s case law not followed by Ninth Circuit.
4.

Also see Lucas v. Dev’t of Corr,, 66 F.3d 245, 248 (9th Cir. 1995); Flowers v.

First Hawaiian Bank, 295 F.3d 966, 976 (9th Cir. 2002); Gerber v. Hickman, 291
F.3d 617, 623 (9th Cir. 2002) (en banc); Thinket Ink Info. Res.. Inc, u. Sun
Microsystems. Inc., 368 F.3d 1053, 1061 (9th Cir. 2004).
Standard established by Ninth Circuit as to court’s denial of leave to amend
complaint to add additional civil rights claims is reviewed by Ninth Circuit as abuse
of discretion. Standards established by Ninth Circuit as to Dismissal of a Pro Se
complaint without leave to amend is reviewed as abuse of discretion.

OO
00QJ
OO
(T3
CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Contradicted in Appeal herein. Petitioner upon discovery of new facts asked
to Amend her Complaint. Petitioner was asked by the District Court to submit the
First Amened Complaint for review which she did. (Comp. Doc # 105 Ex 1)
5.

Swartz v. KPMG LLP. 476 F.3d 756, 764 (9th Cir. 2007).
Standard established by Ninth Circuit that a complaint alleging fraud or

mistake must include allegations of the time, place, and specific content of the
alleged false representations and the identities of the parties involved. Not followed.
Petitioner’s Complaint and Appeal alleged fraud with specificity and detail
even providing of copies of legal forged documents recorded and presented to various
Courts by Respondents.
6.

NL Indus., Inc, v. Kaplan, 792 F.2d 896. 898 (9th Cir. 1986)
Standard established by Ninth Circuit in considering whether the complaint

is sufficient to state a claim, the court will take all material allegations as true and
construe them in the light most favorable to the Appellant.
Contradicted by Ninth Circuit.
7.

United States of America v. Nicholas Lindsey (9th Cir. No. 14-10004). “The

Panel affirmed convictions in mortgage fraud case”. Where Appellee had “falsified
loan documents” and perpetrated “wire fraud”. Court identified a ““scheme”, “use of
wire

” and “specific intent to defraud” United States v. Jinian 725 F.3d 954, 960

(9th Cr. 2013).” Ninth Circuit awarded of $2,286,911 restitution and prison time.
8.

United States v. Dimiceli (9th Cir. Case No. 16-10157. Aug 19, 2019 Opinion)

“mail fraud” and “false statements”. Ninth Circuit awarded of $2,076,917 restitution
and prison time.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

OOa)

00
CO

In Petitioner’s case no attention was paid to wire fraud, mail fraud, mortgage
Fraud etc perpetrated by Respondents that enacted a scheme to become selfproclaimed assignees of non-existing lender and collect mortgage on non-existing
loan collecting over $5,000.00 per month for about 5 years mortgage. Also falsifying
claims and later forged documents recorded and presented to Courts for fraud relief
and illegally sell Petitioner’s home was ignored. Few more contradictions.
9.

Unsher v. City ofLosAnseles 828 F.2d 556 (9th Cir. 1987). This Court stated
“For purposes of reviewing on Appeal the dismissal of a complaint we must
accept as true the Plaintiffs allegations of fact. Western Reserve Oil Gas Co. v.
New. 765 F.2d 1428, 14 30 (9* Cir. 1986)”
No review was performed as the Appeal was delegated to Clerk for

“Adjudication” who lacking the authority performed legal research and reached
conclusions to dismiss the Appeal using inapplicable case law.
10.

Regarding De Novo Review Ninth Circuit’s few cases are listed below:
a. A court’s decision to dismiss a § 1983 action pursuant to Rule 12(b)(6) is
reviewed de novo. See Watson v. Weeks, 436 F.3d 1152, 1157 (9th Cir. 2006);
Kirtley v. Rainey. 326 F.3d 1088, 1092 (9th Cir. 2003); Knox v. Davis. 260 F.3d
1009, 1012 (9th Cir. 2001); Zimmerman v. City of Oakland, 255 F.3d 734, 737
(9th Cir. 2001).
b. The court’s decision whether a party is immune from a § 1983 action is
reviewed de novo. See Bardzik v. County of Oranse, 635 F.3d 1138, 1144 (9th
Cir. 2011); Webb v. Sloan. 330 F.3d 1158, 1163 n.4 (9th Cir. 2003); Cortez v.
County of Los Anseles. 294 F.3d 1186, 1188 (9th Cir. 2002).

LO
00<U

00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

c. More case law established by Ninth Circuit includes Freeman v. DirecTV.
Inc.. 457 F.3d 1001, 1004 (9th Cir. 2006); Asveman v. INS. 296 F.3d 871, 876
(9th Cir. 2002), Stilwell v. Smith & Nephew. Inc.. 482 F.3d 1187, 1193 (9th
Cir. 2007); United States u. Waites, 198 F.3d 1123, 1126 (9th Cir. 2000).
Lawrence v. Dep’t of Interior. 525 F.3d 916, 920 (9th Cir. 2008); Lewis v. United
States. 641 F.3d 1174, 1176 (9th Cir. 2011); Barrientos v. Wells Fargo Bank.
N.A.. 633 F.3d 1186, 1188 (9th Cir. 2011); Ditto v. McCurdy. 510 F.3d 1070,
1075 (9th Cir. 2007); Rabkin u. Oreson Health Sciences Univ., 350 F.3d 967,
971 (9th Cir. 2003); Branch Banking & Tr, Co. v. D.M.S.I., LLC. 871 F.3d 751,
759 (9th Cir. 2017); Mull for Mull v. Motion Picture Indus. Health Plan. 865
F.3d 1207, 1209 (9th Cir. 2017); Szaier v. City of Los Angeles. 632 F.3d 607,
610 (9th Cir. 2011); Universal Health Servs.. Inc, v. Thompson, 363 F.3d 1013,
1019 (9th Cir. 2004); Frudden v. Pillins. 877 F.3d 821, 828 (9th Cir. 2017);
Olsen v. Idaho State Bd. of Medicine. 363 F.3d 916, 922 (9th Cir. 2004).[123];
Balint v. Carson City. 180 F.3d 1047, 1054 (9th Cir. 1999); Simo v. Union of
Needle trades. 322 F.3d 602, 610 (9th Cir. 2003).
As stated by Ninth Circuit “When de novo review is compelled, no form
of appellate deference is acceptable.”
10.

United States Supreme Court stated in Tellabs, Inc, v. Makor Issues & Rishts.

Ltd.. 551 322, 127 S.Ct. 2499, 168 L.Ed.2d 179 (2007) that, in assessing securities
(SEC) fraud claims,
"courts must consider the complaint in its entirety, as well as other
sources courts ordinarily examine when ruling on Rule 12(b)(6) motions
to dismiss, in particular, documents incorporated into the complaint by
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CD
COQi
tXQ
03
Q_

reference, and matters of which a court may take judicial notice.”
(emphasis added)
https://www.lexisnexis.com/lawschool/resources/p/casebrief-tellabs-inc-v-makorissues-rights-ltd.aspx
11.

United States v. Sibla. 624 F.2d 864 (9th Cir. 1980).
“The test for personal bias or prejudice in section § 144 is identical to that in
section § 455(b) (1), and the decisions interpreting this language in section §
144 are controlling in the interpretation of section § 455(b) (1). United States
v. Olander, 584 F.2d 876, 882 (9th Cir. 1978); see United States v. Carisnan.
600 F.2d 762, 764 (9th Cir. 1979).
we have ruled that section (b)(1)
simply provides a specific example of a situation in which a judge's
'impartiality might reasonably be questioned' pursuant to section § 455(a)
Olander. 584 F.2d at 882
a matter which rests within the sound
discretion of the judge..... As with section § 144, the provisions of section §
455(a) & (b) (1) require recusal only if the bias or prejudice is directed against
a party and stems from an extrajudicial source.” Carisnan, 600 F.2d at 764;
Davis, 517 F.2d at 1052.

Appellant seeks a full review under all the above standards.
Surely Supreme Court knows there is significantly greater case law as to
establishing these standards and other more intricate laws violated in this case
which cannot be not cited due to word limitations. Also deliberate criminal
destruction of Petitioner’s filings establishes Petitioner’s Claim. Petitioner hopes
that this Court will establish law so that she may receive Justice denied to her.

OO(V

CUD

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

I.

NINTH CIRCUIT’S JUDICIAL PROCEEDINGS WERE DEPARTED

FROM USUAL COURSE, LAWS AND STATUTES, DIRECTLY VIOLATING
THEM
Petitioner is raising this issue for this Court’s consideration pursuant to Rule
10 (a): United States Ninth Circuit has so far departed from the accepted and usual
course of judicial proceedings as to call for an exercise of this US Supreme Court’s
supervisory power.
1. Ninth Circuit DESTROYED Petitioner’s filings deliberately and
knowingly.
A Court is where laws are upheld, order restored and justice delivered yet in
Appeal herein the Ninth Circuit Court acted criminally to destroy Petitioners filings
it received on November 03, 2019. These filings included
a. Petitioner’s Opposition to Appellees Moton for Summary Affirmance
b. Petitioner’s Third Motion for Ninth Circuit’s Disqualification
2. Ninth Circuit Failing to Recuse GRANTED Summary Affirmance after
deliberately destroying Petitioner’s Opposition to Summary Affirmance.
3. Ninth Circuit IGNORED Petitioner’s Unopposed Motion (ECF 4)
4. Ninth Circuit FAILED to Rule on Petitioner’s Unopposed Motion for
over six months, keeping it hanging till dismissal (ECF 42, 55)
5. Ninth Circuit DENIED Petitioner’s Unopposed Motion (ECF 42, 55)
6. Ninth Circuit delegated the Appeal for “Adjudication” To Clerk that
Issued OSC’s, Mandates, Recalled Mandates and Reissued Partial
Mandates. (ECF 3, 56, 57, 58, 61, 64)
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

00
00
CuO

05/24/2018

□
1 pe. 183.55 KB

Filed order (Deputy Clerk: CKP) Motion to dismiss case for failure to prosecute (Cir. Rule 42-1). Pursuant
to Ninth Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated
02/28/2018).This order served on the district court shall, 21 days alter the date of the order, act as the
mandate of this court. [10884254] (CKP) [Entered: 05/24/2018 09:30 AM]

02/05/2020 ft 56
1pg.87.5KB

MANDATE ISSUED.(CMC, JHN and ADH) (11585750] (CW) [Entered: 02/05/2020 06:39 AM]

04/24/2020 D 57
lpg.S0.33 KB

Filed Clerk order (Deputy Cleric cw): The mandate issued on 02/05/2020 is recalled bs issued in error.
[11670910] (CW) [Entered: 04/24/2020 11:35 AM]

04/24/2020 n 58
1 pg.se.S2 KB

PARTIAL MANDATE ISSUED issued as to ail parties except Aurora Loan Services, LLC, Mortgage
Electronic Registration Systems, inc., Theodore Schultz, and Trisha iMcMuiBn. (CMC, JHN and ADH)
[11670921] (CW) [Entered: 04/24/202011:36 AM]

And after switching of Defendant-Judge Consuelo M. Callahan with Judge Barry G.
Silverman without switching Ninth Circuit with another Circuit.
08/10/2020 Q et
1pg.SS.«KB

12/01/2020

□

PARTIAL MANDATE ISSUED. AFFIRMED as to ail parties except Aurora Loan Services, LLC, Mortgage
Electronic Registration Systems, Inc., Theodore Schuftz, and Trisha McMUNin. (BGS, JHN and ADH)
[117822933 (CW) [Entered: 08/10/2020 07:35 AM]
MANDATE ISSUED.(BGS, JHN and ADH) [11910277] (CW) [Entered: 12/01/2020 07:14 AM]

1pg,92J65KB

7. Ninth Circuit Clerk issued EGHTEEN out of TWENTY-ONE ORDERS in
Appeal herein.
8. Ninth Circuit’s Clerk’s Orders were stated to be from Judges.
12/04/2018 0 [ 6
i nmM kb

04/02/2019 0jj_
2 pg. 283.14 KB

04/02/2019 Q 19

Filed order (Deputy Clerk: CKP) Motion to dismiss case for failure to prosecute (C-ir. Rule 42-1). Pursuant
to Ninth Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated
10/31/2018). This order served on die district court shall, 21 days after the date of the order, art as the
mandate of this court. (11108695) (CKP) [Entered: 12/04/201811:05 AM]
Filed derk order (Deputy Clerk: MF): On December 4,2018, the court dismissed this appeal for failure to
prosecute because appellant had not paid the filing and docketing fees. See 9th Cir. R. 42-1. A review of
the district court's records reflects that appellant has now paid the filing and docketing fees for this appeal.
However, appellant erroneously paid the fees for this appeal in District of Nevada civil case No. 2:17-cv02739-GMN-CWH, not the above-referenced district court docket The motion to reinstate this appeal is
granted (Docket Entry No. [12). The December 4,2018 order is vacated, and the appeal is reinstated.
The Clerk shall amend the docket to reflect that the fees for this appeal have been paid. The Clerk shall
file the opening brief received on October 25,2018 (Docket Entry No. [10]). The answering brief is due
May 3,2019; and the optional reply brief is due within 21 days after service of the answering brief. The
Clerk shall send a copy of this order to the district court The district court derk shall transfer the fee
payment received on November 26,2018 m tivil case No. 2:17-cv-G2739-GMN-CWH to the abovereferenced distrid court docket [11250217] (AF) [Entered: 04/02/2019 01:20 PM]
Fee status changed ([Case Number 18-15202: Paid]). (See 4/2/2019 order [12] of the court) [11250221]
(AF) [Entered: 04/02/2019 01:21 PM]

9. Ninth Circuit treated Clerk and Judge as same entity.
10. Ninth Circuit “Orders” used Judge and Clerk interchangeably.

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CD
OO<u
2OO

ll.Ninth Circuit Clerk practiced law illegally in violation of local Bar Ass.
Rules where person must be an active member to practice law.
The Clerk performed legal research, quoted statutes and case law to reach
fact, giving conclusions including Appeal Dismissal. This amounts to practice of law
which s not included in a Clerk’s duties. Also the Clerk was not academically
qualified to do.
12. Ninth Circuit included Clerk in their Judicial Oath so that Judicial
Canons and Codes of Conduct were applied to Clerks and Judges.
13. Ninth Circuit ignored Rule 45 detailing Clerk’s Duties, instead having
Clerk’s assume Judges Duties.
14. Ninth Circuit Clerk’s “Orders” were all unsigned.
15. Ninth Circuit Judges Order did not bear names or signatures of signees
for authentication. (ECF 55, 60)
16. No “Opinion” was issued according to the usual course.
17. Defaulted Defendants were granted judgement against Petitioner by
Ninth Circuit in affirming District Court’s Dismissal Order.
Petitioner had fled Motions to Default Defendant Pacific Community
Mortgage (ECF 99), Defaulted by Clerk (ECF 103) yet Order provided (ECF 190).
9

Cir. 2001) (holding that when a plaintiff s claims fail as a matter of law, all defendants are entitled

10

to a final judgment in their favor on these claims regardless ofwhether theyjoined die motion and

11

regardless of whether default had already been entered against them). Therefore, die court will

12

enter judgment in favor of Pacific Community Mortgage, Inc., Gold Reverse, Jhc., Bobby bias,

13

and American Securities Company ofNevada. See id,

O
CDQJ
00
^T3

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

18. Judge Callahan appointed by Ninth Circuit was simultaneously a
Defendant in Petitioner’s Nevada case “judging” a case where he had
“an interest in the outcome”
19. Ninth Circuit’s three Judges were simultaneously defending their
actions in Nevada Bankruptcy Case, NV Bk, Adv. 19-01074-ABL-GS.
Surely this one too many for a small number in this gang. The case is
still ongoing.
20. Defaulted Defendants were included in Judgement against Petitioner.
U. S. Supreme Court in In Re Murchison, 349 U.S. 133, 75 S.Ct. 623, 99
L.Ed.942 stated “No man can be a judge in his own case” and “no man is permitted
to try cases where he has an interest in the outcome” id, at 136, 75 S.Ct. 623.
The list of these Ninth Circuit’s actions “departed from usual course”
deliberately and knowingly violating United States Constitution, statutes, laws,
Judicial Oath, Canons can go on but it is very obvious from the few actions listed
here that Ninth Circuit was so blinded by their hate and malice for the Petitioner
that they stopped at nothing to continue and add to Petitioner’s harm. They
deliberately prevent her from recovering her property and monies stolen from her.
Perhaps thinking Pro Se will never get to US Supreme Court and their criminal
actions will be hidden.
Petitioner is hoping this Supreme Court that she is now turning to for redress
of her grievances will not deny her Justice.
t—I

CT>

QJ
W>
TO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

J.

NINTH CIRCUIT DELIBERATELY AND KNOWINGLY FALED TO ACT

ON CRITCAL ISSUES RAISED IN THE APPEAL
Petitioner had raised critical issues in this Appeal including
1. SEC Fraud
Petitioner specifically stated in Appeal Brief (ECF 10, 20 Pg. 16 -17)
Plaintiff's forensic title chain analysis revealed that non-

17
IS

existing Defendant PCMI transferred the loan to the Structured

19

Adjustable Rate Mortgage Loan Trust Mortgage Pass-Through
20

21

Certificates, Series 2004-16 Trust ("SARM Trust") without having

22

the right to do so.

23

County.

24
25

This transfer was never recorded in Clark

The SARM Trust has filed documents with the US

Securities and Exchange Commission, ("SEC') under penalty of

j penury, stating specifically that Appellant's loan is paid off In full
* by December 2004. (Exc III, Ex 10, Pg 17-21)
And again in Brief Supplement (ECF 40 Pg. 13 - 14)
The United States Supreme Dourt stated In Teffabs, Inc, v,

28

m Makor Issues & Rights* Ltd. 551 322,127 S.Ct, 2499,168

x L.Ed;2d 179 (2007) that, in assessing securities fraud claims,
&

**cotirts must consider the complaint in its entirety, as well!
3.

« as oilier sources courts ordinarily examine when railing on
s Rule

12fh|C6)

motions

to

dismiss,

in

particular,

rsj
CD

<D
CUD
03

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

documents incorporated into Hie complaint by reference,,
7

e and matters of which a court' may 'take Judicial' notice.*
f

(emphasis added)

10
ii

n

httDs;/Avvvw,lexisnexis.com/lawschoo1/resources/p/casebnieftel I abs -inov-m akor-issiies-rights- ltd .aspx

Similarly alleged with specificity as to person/entity, where and when with particular
documentation of the act for allegations below
2. Bankruptcy Fraud
3. Defrauding of Government, California nd Nevada States
4. Mortgage Fraud
5. Banking Fraud
6. Forgery
7. Fraud Upon the Court
8. Robo-signers, already well-established adding to their crimes.
9. Fraud identified with specificity
10. Mail Fraud
11. Wire Fraud
12. RICO, TILA, RESPA Frauds
13. Nevada Board of Real Estate Fraud
14.Attorney Fraud, forgery, perjury.
This list of allegations that were ignored by Ninth can go on.

on
cn

<D
CuO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

As stated before these allegations resulted in millions of dollars in settlement
and prison time for perpetrators but in Appeal herein and in the underlying case
they were all ignored. Fraud documents were admitted without even a comment.
Discovery was forbidden to further safe guard judicial interests and protect their
Defendant-friends. These were frauds that destroyed our country’s economy and yet
Ninth Circuit deliberately refused to hold accountable criminal for such treasonous
acts and in fact colluding with the criminals.
Ninth Circuit even went further to criminally destroy Petitioner’s filings
asking for their recusal third time around and Opposition to Summary Affirmance
which was awarded. Judgement was even awarded to Defaulted AppelleeDefendants against Petitioner.
Deliberate Frauds by Ninth Circuit itself establishes Petitioner’s Claim and
she is hoping that her Constitutional Rights denied to her thus far will be protected
by this Supreme Court.

0)

UO
(TJ
CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

K.

NINTH

CIRCUIT

ACTIVELY

OBSTRUCTED

JUSTICE

AND

DELIBERATELY RESTRICTED PETITIONER’S ACCESS TO COURTS
18 U.S.C. § 1503 defines "obstruction of justice" as an act that
"corruptly or by threats or force, or by any threatening letter or
communication, influences, obstructs, or impedes, or endeavors to influence,
obstruct, or impede, the due administration of justice."
18 USC § 1503 applies only to federal judicial proceedings. Obstruction of justice
involves specific intent and knowledge (1) that a proceeding was pending at the time
and (2) a connection between the endeavor to obstruct justice and the proceeding, and
the person must have knowledge of this connection.
Ninth Circuit’s destruction of Petitioner’s two filings it received on November
03, 2019 n Appeal herein was commission of the above act(s).
Listed below are few instances of deliberate Circuit’s Obstruction of Justice
1.

Destruction of Petitioner’s Third Motion for Ninth Circuit Disqualification

while the First Motion was never acknowledged and Second Unopposed Motion was
kept hanging for over six months and then denied in blanket dismissal.
2.

Destruction of Petitioner’s Opposition to Summary Affirmance to grant

Summary Affirmance.
3.

Compelling Petitioner to pay the filing fee twice to dismiss Appeal

4.

Failing to perform De Novo Review of Appeal

5.

Failing to investigate serious issues such as SEC Fraud, Bankruptcy Fraud,

Banking Fraud, Mail Fraud, Wire Fraud, Defrauding of Government, County
Recorder Defrauding by Recording forged and fraudulent title documents signed by
robo-signers, Negligence, Perjury, Attorney Frauds including perjury etc.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

LO
O')

CD
bJD
tv

6.

Delegation of Appeal to Clerk for Adjudication

7.

Deliberate violations of United States Constitution, laws and statutes.

8.

Deliberate violations of Judicial Oath, Canons and Codes of Conduct as well as

Clerks Duties.
9.

Dismissal of Appeal based upon “failure to prosecute” without holding the

required hearing.
These are but only a few examples of deliberate acts to obstruct justice in all
fours way, but is also fraud upon the court committed by the court itself.
Obstruction of justice is deliberate denial of justice and all Constitutional
rights including due process, equal protection, free unrestricted access to courts,
government’s support of fraudulent takings without notice and opportunity to be
heard. Nothing could be more serious in civil court than Obstruction of Justice
Justice Harlan said,
“Litigation is often the desirable and orderly way............. of obtaining
vindication of fundamental rights.”. United Transp. Union. 401 U.S. at
585. Even Prisoners have a right to redress. “Inmate access to the courts
[must be] adequate, effective, and meaningful” and conceptualized meaningful
access as something broader than mere forum access, observing that judges
might “overlook meritorious cases” without effective litigation, and
emphasizing the remedial dynamic of legal petitions, judicial relief, and
protection of individual rights.” Bounds v. Smith. 430 U.S. 817 (1977).
Ninth Circuit agreed stating
“Restricting access to the courts is, however, a serious matter”. “The
right of access to the courts is a fundamental right protected by the
Constitution.” Delew v. Wasner. 143 F.3d 1219, 1222 (9th Cir. 1998).
Yet Ninth Circuit did the exact opposite by Obstructing Justice itself.

<£>
CD<D

&0

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

The right to petition the government for redress of grievances is
sacrosanct. Borough of Duryea v. Guarnieri. 564 U.S. 379, 403 (2011). District of
Columbia v. Heller, 554 U.S. 570, 577 (2008). The Court has repeatedly affirmed this
principle. Dep’t of Revenue v. Assn of Wash. Stevedoring Cos., 435 U.S. 734, 759
(1978); Rhode Island v. Palmer. 253 U.S. 350, 407 (1920); Knowlton v. Moore. 178
U.S. 41, 87 (1900); see also Marburv u. Madison. 5 U.S. 137, 174 (1803).
This Court has emphasized that
“interpretation of the Petition Clause must be guided by the objectives and
aspirations that underlie the right.” Guarnieri, 564 U.S. at 388. “The Court
distinguished petitioning from speech on the ground that “a petition conveys
the special concerns of its author to the government and, in its usual form,
requests action by the government to address those concerns.” Id. at 388-89.
Petitioners Appeal established her first right, according to this Court. Thus
when a lawsuit is filed, both the words written on physical piece of paper (the
complaint), and the expressive act of filing it at the clerk’s office, are already
protected by the Speech Clause. Holder v. Humanitarian Law Project. 561 U.S. 1, 4
(2010).
The Court also distinguished legal petitioning from speech on the ground that
“unlike speech of other sorts, a lawsuit demands a response.” Id. at 390. The Court
was likely referring to the duty of the court, to respond to the lawsuit and if the
court simply ignores a lawsuit, there is no need for the defendants to respond. “The
First Amendment Right to a Remedy:

Benjamin Plener Cover University of

California, Davis [Vol. 50:1741]”.
This is exactly what happened in the underlying Appeal where RespondentAppellees were notified in ex-parte communications of destruction of Petitioner’s
filings so they never responded despite being served pursuant to Rule 4. The Appeal

CTiCL)
TO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

was dismissed by Recused Ninth Circuit Denying Unopposed Recusal Motions and
Affirming Summary Affirmance of District Court after destroying Petitioner’s
Opposition. Unsigned Judgement even favored Defaulted-Defendants.
In

Rhodes

v.

Chapman, 452

U.S.

337

(1981),

this

court

also

said that federal courts will discharge their duty to protect constitutional rights.
This Court emphasized that the federal courts have a duty to remedy constitutional
violations. And more recently in Bill Johnsons Rests.. Inc, v. NLRB. 461 U.S.
731(1983) this Court said:
“The first amendment interests involved in private litigation [include]
compensation for violated rights and interests and the psychological benefits
of vindication . . ..”
This duty was abrogated by both the District Court and the Ninth Circuit by
actively obstructing justice to the extent of criminally destroying Petitioner’s filings
for “predetermined outcomes”. This behavior established Petitioner’s Claim.
These types of acts including criminal acts must be investigated, and the party
guilty of the obstruction of justice should be penalized. If this US Supreme Court
accepts these acts, after complaint is made, and is complicit than it has ratified and
condoned these acts. This will be an awful failure of justice.

00
CDCL)
00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

L. PETITIONER WAS DENIED DUE PROCESS BOTH SUBATANTIVE
AND PROCEDURAL BY NINTH CIRCUIT AND DSTRICT COURT - NO
DISCOVERY WAS ALLOWED, NO HEARNG HELD.
United States Supreme Court in Caverton v. A. T. Massey Coal Co 556 U.S.
868 129 S.Ct. 2252 (S. Ct. 2009) 173 L.Ed.2a 1208. 77 USLW 4456. stated
due process requires recusal. Pp 2259-2267.
“Held:
(a) The Due Process Clause incorporated the common-law rule requiring
recusal when a judge has “a direct, personal, substantial, pecuniary
interest” in a case, Tumev v. Ohio. 273 U.S. 510, 523, 47 S.Ct. 437, 71 L.Ed,
749, but this Court has also identified additional instance which, as an
objective matter, require recusal where “the probability of actual bias on
the part of the judge or decision maker is too high to be constitutionally
tolerable” Withrow v. Larkin 421 U.S. 35, 47, 95 S. Ct. 1456, 43 L.Ed.2d
712............
(b) Because the objective standards implementing the Due Process Clause do
not require proof of actual bias........”
In Caverton, Supreme Court also cited other cases where “recusal was
required” based on “temptation” so as to ’’lead him not to hold the balance nice, clear
and true”. Ward v. Monroeville, 409 U.S. 57, 93 S.Ct. 80, 34 L.Ed.2d 267. Aetna Life
Ins. Co. v. Lavoie. 475 U.S. 813, 106 S.Ct. 1580, 89 L.Ed.2d 823.
What can be more “direct, personal, substantial, pecuniary interest” than a
Circuit whose three Judges have been simultaneously defending their actions in
Petitioners other property case in Nevada Bankruptcy Court including Judge
Callahan on the case? How can they “hold the balance nice, clear and true” How is
this “constitutionally tolerable”?
US Supreme Court in Mathews v. Eldridse 424 U.S. 319 96 S.Ct. 893 stated
“Procedural due process imposes on government decisions which deprive
individuals of “
property” interests within the meaning of the Due Process
Clause of the Fifth or the Fourteenth Amendment.”
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CT)
OlQJ
00
CtJ
Q_

............. ’’This Court consistently has held that some form of hearing is required
before an individual is finally deprived of a property interest. Wolfe v.
McDonnell. 418 U.S. 539, 557-558 (1974). See e.g. Phillips v. Commissioner.
283 U.S. 589, 596-558 (1974). See also Dent v. West Virginia, 129 U.S. 114,124125 (1889).”
“requiring some type of pretermination hearing as a matter
of constitutional right”
“The right to be heard before being condemned
to suffer grievous loss of any kind, even though it may not involve stigma and
hardships of a criminal conviction, is a principle basic to our society.” Joint
Anti-Fascist Comm. V. McGrath. 341 U.S. 123, 168 (1951)”. Also see Armstrong
v. Manzo. 380 U.S. 545, 552 (1965); Grannis v. Ordean. 234 U.S. 385, 394
(1914).
No hearing was held in District Court or Ninth Circuit and discovery forbidden.
In Mathews Supreme Court stated Due Process
“requires consideration of three distinct factors: First, the private interest that
will be affected by the official action; Second, the risk of an erroneous
deprivation of such interest through the procedures used
and finally
the Government’s interest
” See e.g. Goldbers v. Kelly supra. at 263-271.”
Further adding “As we recognized last term in Fusari v. Steinbers. 419 U.s.
379, 369 (1975) “the possible length of wrongful deprivation of.
benefits
[also] is an important factor in accessing the impact of official action on the
private interests”.”
Supreme Court in Daniels v. Williams. 474 U.S. 327 (S.Ct. 1986).
“By requiring the government to follow appropriate procedures when its agents
decide to "deprive any person of life, liberty, or property," Due Process Clause
promotes fairness in such decisions. And by barring certain government
actions regardless of the fairness of the procedures used to implement them, e.
g., Rochin. supra, it serves to prevent governmental power from being "used
for purposes of oppression," Murray’s Lessee 332*332 v. Hoboken Land &
Improvement Co., 18 How 272, 277 (1856)
In County of Sacramento v. Lewis Supreme Court stated
“The principal and true meaning of the phrase has never been more tersely or
accurately stated than by Mr. Justice Johnson, in Bank of Columbia v. Okely. 4
Wheat. 235—244 [(1819)]: ‘
that they were intended to secure the
individual from the arbitrary exercise of the powers of government,
unrestrained by the established principles of private right and distributive
justice.’ ” Hurtado v. California. 110 U.S. 516, 527 (1884).

O
O
QJD

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

We have emphasized time and again that “the touchstone of due process is
protection of the individual against arbitrary action of government,
” Wolff v. McDonnell. 418 U.S. 539, 558 (1974), whether the fault lies in a
denial of fundamental procedural fairness, see, e.g., Fuentes v. Shevin. 407
U.S. 67, 82 (1972) (the procedural due process guarantee protects against
“arbitrary takings”), or in the exercise of power without any reasonable
justification in the service of a legitimate governmental objective,
see, e.g., Daniels v. Williams. 474 U.S., at 331 (the substantive due process
guarantee protects against government power arbitrarily and oppressively
exercised).”
Petitioner’s case exemplifies deliberate denial of procedural Due process and
substantive Due Process through exercise of government power arbitrarily and
oppressively by the Ninth Circuit and the District Court. They deliberately and
knowingly put hurdles in her way starting from District Court deliberately keeping
her unaware of proceedings as not one proof of service s attached to any of their
Orders, Notices etc. Discovery was forbidden, and not one allegation including SEC
Fraud investigated. Judgment even favored Defaulted defendants.
Ninth Circuit began by logging of Appeal fee pad to another case, delegating
the case to Clerk for adjudication, deliberately destroying Petitioner’s filings,
denying recusal even though three of their Judges including Defendant-Judge
Callahan appointed to the case, were simultaneously defending their actions in
another case filed by Petitioner in Nevada. No disclosure was made or consent of
parties sought. They affirmed District Courts Summary Affirmance also favoring
Defaulted Defendants.
U. S. Supreme Court in In Re Murchison. 349 U.S. 133, 75 S.Ct. 623, 99
L.Ed.942 stated “No man can be a judge in his own case”. Yet Ninth Circuit did.

t—I

O
t—I
a>

00
(Q

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

US Supreme Court in Gromlev v. Wood El. (S.Ct. 2014)
“Test for satisfying the state-created-danger doctrine (1) the harm ultimately
caused was foreseeable and fairly direct (2) the state actor acted in willful
disregard for the safety of the plaintiff (3) there existed some relationship
between the state and the plaintiff and (4) the state actors used their authority
to create an opportunity that otherwise would not have existed for the third
part’s crime to occur”
In case herein all above factors existed and Petitioner was harmed
deliberately and knowingly by the state actors. Both Courts deprived Petitioner from
recovering her home and monies illegally taken from her by Respondents.
U.S. Supreme Court stated in Price v. Vincent 538 U.S. 634 (2003) that a party
is

“entitled to relief’ if they can demonstrate that lower “court's adjudication of
his claim was "contrary to" or an "unreasonable application of' this Court's
clearly established precedents. 28 U. S. C. §2254(d)(l)
or if "it confronts
a set of facts that are materially indistinguishable from a decision of this Court
and nevertheless arrives at" a different result. Williams v. Taylor. 529 U.S.
362, 405-406.”
Petitioner was deliberately and knowingly denied both procedural and
substantive Due process and her free unbiased access to Courts restricted by Ninth
Circuit and District Court for personal gains to procure the desired outcome of
continuing Petitioners harm.
Ninth Circuit’s criminal destruction of Petitioner’s filing established her
claim, by Petitioner now turns to this Court for remedy of her Civil Rights repeated
violations and with hope that law will finally be upheld and her illegally stolen
property and monies will be returned to her as a matter of right.
CM

O
t—I

00

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

M.

PETITIONER WAS TREATED DIFFERENTLY PERHAPS BECAUSE

SHE WAS A WOMAN, AMINORITY AND A PRO PER
Petitioner is a minority woman of color, single mother of two who was
defrauded by the Respondents of hundreds and thousands of dollars and her
property worth about two million dollars. A simple “peek” at Deed of Trust including
unsigned copy and Secretary of State Record provided in complaint and appeal
establish that Lender did not exist and Petitioner is the only legal claimant of her
home.
Also SEC Records provided showing the “loan” was paid off in full in few
months of origination further establishes that Respondents had no claim
whatsoever. Yet Justice was denied to her by District Court and Ninth Circuit that
even destroyed Petitioner’s filings to favor Respondents and continue her harm.
All actions detailed in this Appeal even give an “appearance of justice”?
Also three Ninth Circuit Judges with appointed Defendant-Judge Callahan
were simultaneously defending their action in another case filed by Petitioner in
Nevada (NV Bk. Adv. 18-01074-ABL-GS). (Caverton v. A. T. Massey Coal Co 556 U.S.
868 129 S.Ct. 2252 (S. Ct. 2009) 173 L.Ed.2a 1208. 77 USLW 4456.)

Added “recusal

was required” based on “temptation” and that “due process requires recusal”.
U. S. Supreme Court in In Re Murchison. 349 U.S. 133, 75 S.Ct. 623, 99
L.Ed.942 stated “No man can be a judge in his own case” and “no man is permitted
to try cases where he has an interest in the outcome” id, at 136, 75 S.Ct. 623.

m
o
*—i

cv
00
ns
o_

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Was any case law or Recusal Statutes 144 and 455 followed? Of course not.
Petitioner’s was denied Due Process, equal protection, free unbased access to
Courts by Ninth Circuit that even deliberate obstruction of justice.
At Ninth Circuit Judges behest her filings were destroyed. Filings that
reminded them of their duty to recuse - unopposed motions denied. Also destroyed
was Petitioner’s Opposition Summary Affirmance which was then fraudulently
Affirmed.
Different treatment of Petitioner is also made quite clear in the Appeal
“adjudication” that was delegated to Clerk that did legal analysis, research and came
to conclusion/fact stating her orders to be Court Orders.
12/04/2018 Q <|g
s pg.liTu kb

Filed order (Deputy Clerk: CKP) Motion to dismiss case for failure to prosecute (Cir. Rule 42-1). Pursuant
to Ninth Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated
10/31/2018). This order served on the district court shall, 21 days after the date of the order, act as the
mandate of this court. (111086951 (CKP) [Entered: 12/04/201811:05 AM]

12/21/2018

Filed Appellant Salma Agha-Khan, M.0. motion to reconsider order of the Clerk of the Court filed on
11/01/2018. Deficiencies: None. Served on 12/21/2018. [11217834] (CW) [Entered: 03/06/201910:37 AM]

O JL
32 pg, 1.46 MB

04/02/2019 Q 18
Filed clerk order (Deputy Clerk: MF): On December 4,2018, the court dismissed this appeal for failure to
2 ps. mt4 kb prosecute because appellant had not paid the filing and docketing fees. See 9th Cir. R. 42-1. A review of
the district court's records reflects that appellant has now paid the filing and docketing fees for this appeal.
However, appellant erroneously paid the fees for this appeal in District of Nevada civil case No. 2:17-cv02739-GMN-CWH, not the above-referenced district court docket. The motion to reinstate this appeal is
granted (Docket Entry No. [J2). The December 4,2018 order is vacated, and the appeal is reinstated.
The Clerk shall amend the docket to reflect that the fees for this appeal have been paid. The Clerk shall
file the opening brief received on October 25,2018 (Docket Entry No. [10]). The answering brief is due
May 3,2019; and the optional reply brief is due within 21 days after service of the answering brief. The
Clerk shall send a copy of this order to the district court. The district court clerk shall transfer the fee
payment received on November 26,2018 in civil case No. 2:17-cv-02739-GMN-CWH to the abovereferenced district court docket [11250217] (AF) [Entered: 04/02/2019 01:20 PM]
04/02/2019 O 19

Fee status changed ([Case Number 18-15202: Paid]). (See 4/2/2019 order [ifi] of the court) [11250221]
(AF) [Entered: 04/02/2019 01:21 PM]

Eighteen out of total twenty-one Orders in Appeal were from the Clerk. Clerk
issued OSC, recalled OSC and Orders, issued Mandates, Recalled them, reissued
Partial Mandates etc. All unsigned. Even dismissal “Order” was unsigned and did
not identify anyone.

O
OJ

CkO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

02/05/2020 0

MANDATE ISSUED.(CMC, JHN and ADH) {11585750] (GW) [Entered: 02/05/2020 06:39 AM]

f pg, 87.5 KB

04/24/2020 Q_5t_
lpg.P0.33 KB

04/24/2020 0
i pg, B6.62 ke

Filed clerk order (Deputy Clerk: cw): Hie mandate issued on 02/05/2020 is recalled as issued in error.
[116709101 (CW) [Entered: 04/24/202011:35 AM]
PARTIAL MANDATE ISSUED issued as to all parties except Aurora Loan Services, LLC, Mortgage
Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin. (GMC, JHN and ADH)
[11670921] (CW) [Entered: 04/24/202011:38 AM]

Another Clerk Mandate
j 12/01/2020 O

MANDATE ISSUED.(BGS, JHN and ADH) [11910277] (GW) [Entered: 12/01/2020 07:14 AM]

J pg. G2.85 KB

Case: 18-15202,12/01/2020, ID: 11010277, DktErrtry: 54, Page 1 of 1

UNTIED' STATES COURT OF APPEALS’
FOR THE MN1H CIRCUIT

HOLE®
SEC012020
Matvc n»n»,am

SALMA AGHAKHAN, MD, MBls
Plaintiff - Appellant
v.
PACIFIC COMMUNITY
MORTGAGE, INC, a suspended
CaHfoiTua Corporation, its successors
and asapisn, ef aL,

13a 1S-15202

DC. No. 2:16-cr-01124-JCM-TT3K
US, District Court for Nevada. Las
Veeas
MANDATE

Defendants - Appellees.
The judgment oftins Court, enteredNovember 09.2020, fakes effect 6ns
date.

Thri constitutes the formal mandate ofthis Court issued pursuant to Rule
41(a) oftire Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C DWYER
CLERK OF COURT
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

LD

O
t—I

a>

GO

S.

This defies basic rules of even letter writing. No fling is admitted in any Court
unless it identifies the filer and bears the signature of the person. These Judges
know that their pay check will not get cashed f it does have their full name or
signature of the authority.
Petitioner was most certainly treated differently and her claims were
established by deliberate knowing actions of malice, bias and prejudice directed at
her by the Ninth Circuit and the District Court.
This case highlights the fact that laws are for public to follow and do not apply
to Judges while Judicial Codes of Conduct and Ethics etc. are to adorn books.

kD
O
I

<D
CD

CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

N. NINTH CIRCUIT’S USE OF THE WORD “INSUBTANTIAL” IS WITHOUT
LEGAL DIGNITY AND THIS COURT SHOULD GRANT CERTIORARI TO
PROHIBIT SUCH ARBITRARINESS
Ninth Circuit used the word “insubstantial” in their dismissal of Appeal as
follows while failing to recuse denying unopposed Second Disqualification Motion,
ignoring the first motion and deliberately destroying the third motion. Also
destroyed was Petitioner’s Opposition to Summary Affirmance which was affirmed.
01/14/2020 □
2pg. 188.B5KB

Filed order (CONSUELO M. CALLAHAN, JACQUELINE H. NGUYEN and ANDREW D. HURWITZ): Upon
a review of the record and the opening brief, we conclude that the questions raised in this appeal are so
insubstantial as not to require further argument See United States v. Hooton, 693 V2A 857,858 (9th Cir.
1982) (stating standard for summary affirmance); see also Hebbe v. Pier, 627 F.3d 338,34142 (9th Cir.
2010) (although pro se pleadings are construed liberally, plaintiff must present factual allegations
sufficient to state a plausible claim for relief). Accordingly, the opposed motions for summary affirmance
(Docket Entry Nos. (25j and (2Q]) are granted. We summarily affirm the district court’s judgment as to all
parties except Aurora Loan Services, LLC, Mortgage Electronic Registration Systems, Inc., Theodore
Schultz, and Trisha McMuIlin. This appeal has been administratively dosed as to Aurora Loan Sendees,
LLC, Mortgage Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMuIlin. See Docket
Entry No. [M]. Appellant’s motions for recusal of all Ninth Circuit judges and transfer of this appeal to
another circuit court (Docket Entry Nos. [12 and 14211 is denied. Appellant's request for oral argument, set
forth in the opening brief, is denied. AFFIRMED as to all parties except Aurora Loan Services, LLC,
Mortgage Bedronic Registration Systems, Inc., Theodore SChuttz, and Trisha McMuIlin. [11561075] (AF)
[Entered: 01/14/2020 09:13 AM]

Opinion of Ninth Circuit in Hooten was issued as clarification
“.....motions for summary disposition are ordinarily granted or denied without
opinion, see Page v. United States, 356 F.2d 337. 339 n. 1 (9th Cir. 1966), we
issue this opinion to clarify our position on such matters. ” United States v.
Hooton, 693 F.2d 857, 858 (9th Cir. 1982)
“Where the outcome of a case is beyond dispute, a motion for summary
disposition is of obvious benefit to all concerned”
Other case Judgment cited, Hebbe v. Pliler 627 F.3d 388, 341-42 (9th Cir.),
which was remanded and cited to show that Ninth Circuit construed Pro Se
proceedings liberally.
Certainly not followed in Appeal herein.
O
X—I
CD
bO
ro
Cl

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

To state a claim on which relief may be granted, the plaintiff must allege
"enough facts to state a claim to relief that is plausible on its face." Bell Atlantic
Cory, v. Twomblv. 550 U.S. 544, 570 (2007). In considering whether a
complaint states a cognizable claim, the court accepts as true the material
allegations in the complaint and construes the allegations in the light most
favorable to the plaintiff. Hishon v. Kins & Spalding, 467 U.S. 69, 73 (1984);
Hosy. Bids. Co. v. Trustees of Rex Hosp.. 425 U.S. 738, 740 (1976); Love u.
United States. 915 F.2d 1242, 1245 (9th Cir. 1989).
Pro se pleadings are held to a less stringent standard than those drafted by
lawyers. Haines v. Kerner. 404 U.S. 519, 520 (1972). However, the court need
not accept as true conclusory allegations, unreasonable inferences, or
unwarranted deductions of fact. Western Minins Council v. Watt. 643 F.2d 618,
624 (9th Cir. 1981).”
This Court’s most recent decision regarding substantial federal question is
very different from judgment in Appeal herein. The most recent dismissal of an
appeal for want of a substantial federal question. In Department of Commerce v.
United States House of Representatives, 525 U.S. 316 (1999), where two sets of
plaintiffs challenged the Census Bureau's plan to use statistical adjustment to
correct for undercount in determining the population used for apportioning
congressional seats among the states. After upholding one set of plaintiffs' statutory
challenge to the plan, the Court turned to the claims asserted by the House.
Concluding that the legal issues raised by the House had been resolved in the
companion case. The Court determined that the House's case "no longer presented a
substantial federal question" and dismissed the appeal. Thus Federal Question
becomes insubstantial following its resolution.
Petitioner’s Appeal adhered to standards established by the Ninth Circuit
itself as to alleging fraud with specificity, forgery, robo-signers, establishing her

OO
O
’c—I
CD

CUD
03
Cl.

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

standing and lack of Respondents standing, existence of “distinct palpable injury”
directly related to conduct of Petitioners and much more. Petitioner based her
allegations and claims by providing Proof including copies of State Records, County
Recorders records, Court filings. Also alleged was SEC Fraud, Bankruptcy Fraud,
Mortgage Fraud, Attorney Fraud, Perjury, etc. How are any of these “insubstantial”?
How is the ’’outcome.....beyond dispute”?
Also how were the issues so “insubstantial” and “beyond dispute” that these
same issues drove Ninth Circuit to perform criminal acts of destroying Petitioner’s
filings and violating US Constitution, statutes and laws?
Why were two criminal cases cited in a civil matter? Were they cited to send
a particular threating message to the Petitioner?

CT>
O
*—I

<L>
CUD
(Q

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

O. WRIT MUST BE GRANTED AS ALL FEDERAL EMPLOYEES VIOLATED
THEIR DUTY TO REPORT MISCONDUCT FOR INVESTIGATION
Federal government has a paramount interest in public good thus the right to
know about white collar crimes specially misconduct. Thus the government expects
disclosure as revelation can prevent or remedy wrongs and prevent further harm.
Non-disclosure amounts to active concealment.
There are statutes supporting ‘revelation”
a. 28 U.S. 535(b) requires that any information, allegation, matter, or complaint
witnessed, discovered, or received in a department or agency of the executive
branch of the Government relating to violations of Federal Criminal Law
involving Government Officers and employees to be expeditiously reported to the
Attorney General by the head of the department or agency, or the witness,
discoverer, or recipient, as appropriate.
b. Federal Whistle Blower Protection Act of 1989 5 U.S.C. 2302(b)(8)-(9),
Pub.L. 101-12 encourages and protects revelation of a wide range of criminal and
non-criminal wrongdoings.
c. 5 C.F.R. § 2635.101 Basic obligation of public service, (a)Public service is a public
trust. Each employee has a responsibility to the United States Government and
its citizens to place loyalty to the Constitution, laws and ethical principles above
private gain. To ensure that every citizen can have complete confidence in the
integrity of the Federal Government
See James E. Moliterno, Federal Government Lawyers Duty to Breach
Confidentiality; Roger C. Cramton, The Lawyer as Whistleblowe; Robert P. Lawry.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

O
\—I
^—I

d)

txo

Who is the Client of the Federal Government Lawyer: An Analysis of the Wrong
Question, 37Fed. B.Ass’n J. 61, 62 (1978).
Also see https://www.iustice.sov/imd/ethics-handbook
In Petitioners case not one Federal employee including Ninth Circuit and its
employees (Clerks etc), reported misconduct to Attorney General or FBI, violating
their duty owed to the Government. Petitioner now turns to U. S. Supreme Court in
the hope that this Court will certainly abide by its duty to report misconduct.

t—I

*—I
QJ
CLO

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

P. WRIT MUST BE GRANTED AS “FRAUD UPON THE COURT VITIATES
ALL PROCEEDINGS” AND JUDGMENTS ARE “VOID”
Whenever any officer of the court commits fraud during a proceeding in the
court, he/she is engaged in "fraud upon the court". In Bulloch v. United States. 763
F.2d 1115, 1121 (10th Cir. 1985), the court stated
"Fraud upon the court is fraud which is directed to the judicial machinery
itself. ... It is where the court or a member is corrupted or influenced or
influence is attempted or where the judge has not performed his judicial
function__ thus where the impartial functions of the court have been directly
corrupted."
"The maxim that fraud vitiates every transaction into which it enters applies
to judgments as well as to contracts and other transactions”; See In re Village
of Willowbrook. 37 Ill.App.2d 393 (1962); Allen F. Moore v. Stanley F. Sievers.
336 Ill. 316; 168 N.E. 259 (1929); Dunham v. Dunham. 57 Ill.App. 475 (1894),
affirmed 162 Ill. 589 (1896); Skelly Oil Co. v. Universal Oil Products Co.. 338
Ill.App. 79, 86 N.E.2d 875, 883-4 (1949); Thomas Stasel v. The American Home
Security Corporation. 362 Ill. 350; 199 N.E. 798 (1935).

FRCP Rule 60(b)(3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct

and (4) judgment is void.

However, “an independent action alleging fraud upon the court is completely
distinct from a motion under FRCP 60(b)”. See United States v. Burke. No. 05-5277,
2006 WL 2135044, *1 (3d Cir. 2006);

Herrins v. United States. 424 F.3d 384, 389

(3d Cir. 2005)); see also United States v. Barbosa. No. 07-1292, 2007 WL 2050881,
*1 (3d Cir. 2007).
Demianiuk v. Petrovsky. 10 F.3d 338, 348 (6th Cir. 1993), established that
fraud upon the court, unlike perjury, need not be based on affirmative misstatements

CM
t—I
^—I
CUD
^03

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

or proof of subjective knowledge of falsity, but based on nondisclosures and founded
on showing of willful blindness or reckless disregard for the truth.
What can be more fraudulent than criminal destruction of Petitioner’s filings
by Ninth Circuit?
The concept of "fraud on the court" embraces "only that species of fraud which
does, or attempts to, defile the court itself, or is a fraud perpetrated by officers of the
court so that the judicial machinery cannot perform in the usual manner its
impartial task of adjudging cases." Kupferman v. Consol. Research &Mfg. Corp., 459
F.2d 1072; Hadges v. Yonkers Racine Corp.. 48 F.3d 1320.
The Ninth Circuit holds that "to set aside a judgment or order because of fraud
upon the court, ... it is necessary to show an unconscionable plan or scheme which is
designed to improperly influence the court in its decision.” Bailey v. Internal Revenue
Service, No. 98-CV-123-TUC-RTT (JMR), 1998 U.S. Dist. Lexis 21517 at *26 (D. Ariz.
1998) (citing Wright, Miller & Kane at 2870 (quoting England v. Doyle. 21 F.2d 304,
309 (9th Cir. 1960).
The Appeal and underlying case detailed Respondents “scheme” to defraud
her of over $5,000.00 per month as mortgage in absence of a valid lender so that
assets and assignees could not exist. Also the fraud “loan” was fully paid off few
months after origination in SEC filings. Respondents then recorded forged title
document signed by robo-signers, presented the same to Bankruptcy Court to obtain
fraud relief and illegally sell Petitioner’s home worth millions of dollars.
District Court’s part in this “scheme” was to prohibit discovery and dismiss
the case without hearing even though SEC Fraud was alleged.
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

<D
I
*—I
CD

txo

<TJ
Cl.

Ninth Circuit furthered the concealment by refusing recusal, denying
unopposed motions for their recusal and destroying Petitioner’s Filings to dismiss
the Appeal by affirming the Summary Affirmance to call issues “insubstantial”.
Surely these Judgements were procured by Fraud Upon the Court?
The U.S. Supreme Court stated such a court is "without authority, its
judgments and orders are regarded as nullities. They are not voidable, but simply
void” Elliot v. Piersol. 1 Pet. 328, 340, 26 U.S. 328, 340 (1828)
Petitioner seeks this Writ of Certiorari ordering the Ninth Circuit to include
her destroyed filings into the docket and transfer of Appeal from Ninth Circuit.
Unless this Court decides to return Petitioner’s property to her, cancelling forged
recordings and awarding her damages.

rH
rH
&0

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

XI. CONCLUSION
Petitioner’s property and money stolen from her by Respondents who could
not possibly have any claim as the loan was provided by non-existing lender and
fully paid off almost immediately in SEC filings. These facts were known to
Respondents, District Court and Ninth Circuit that tried everything to stop
Petitioner from claiming her home and monies stolen.
Complaint had the following allegations

COMPLAINT mn
FRAUD
1, VIOLATION OF THE
NEVADA UNIFORM.
FRAUDULENT TRANSFER
act mm 1X2.180; nrs
112.190 ETSEQ
%

UNJUST ENRICHMENT

4.

BREACH OF CONTRACT

5. VIOLATION OF NEVADA
REV. STATUTES 645 IT
SEQ AND67S ETSEQ
6, VIOLATION OF US
STATUTE 15 US 1601; 26
use 860b; 18 USC 1341;
18IISC 1342; 1SUSC
1343; 18USC 1344
7. VIOLATION OF 42 USC
1982 AND 42 USC 1983

§, VIOLATION OF DUE
PROCESS CLAUSE OF US
constitution, Nevada
STATE CONSTITUTION/
CALIFORNIA STATE;
CONSTITUTION, LACK: OF
NOTICE AND TAKINGS
CLAUSE
9. NEGLIGENCE
10. VIOLATION OF US AND'
NEVADA RACKETEERING
STATUTES
11.. INTENTIONAL BAD FAITH I
VIOLATIONS OF FEDERAL,
DEBT COLLECTION
PRACTICES .ACT 15 U$C
1692
ia* PUNITIVE DAMAGES
ALLEGATION
PURSUANT TO NRS 42.001 ETSEQ

LO
rH

2W>
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Amended Complaint attached to Motion for Leave had following allegation
(ECF 105, 105.1). This was denied.
fPROPOSEDJ FIRST AMENDED
COMPLAINT FOR
I* INTENTIONAL
MISREPRESENTATION
1* FRAUD
3. VIOLATION OF THE
NEVADA UNIFORM
FRAUDULENT TRANSFER
ACT NRS 112,100; MRS
112,190 8? 510
4, VIOLATION OF NRS64S*
NRSG45F.420,
NRS643F.300 to
NRS64SF.4S0, INCLUSIVE
B, BREACH OF CONTRACT
0, VIOLATION OF NEVADA
REV,. STATUTES STS ET
SEQ
!

7. VIOLATION OF US
STATUTE IS US 1601; 26
USC 8S09I It USC 1341;
1SUSC 1342; ItUSC
1343; 18USC 1344
B. VIOLATION OF 42 USC
1982 AMD 42 U5C 1903
9. NEGLIGENCi
10*VIOLATION OF US'ANP
NEVADA RACKETEERING
STATUTES'

|f 11.WIRE FRAUD

12. VIOLATION OF DUE
PROCESS CLAUSE OF US
CONSTITUTION, NEVADA

state coNsnninoNi,

CALIFORNIA. STATE
CONSTITUTION, LACK OF
NOTICE AND TAKINGS
CLAUSE

13.INTENTIONAL BAD FAITH
VIOLATIONS OF FEDERAL
DEBT COLLECTION
PRACTICES ACT IS MSG
14. PUNITIVE DAMAGES
ALLEGATION PURSUANT
'TO NRS 42.001 ET" SEQ
15. CONVERSION
16. TRESPASS TO CHATTEL
IT. FRAUD UPON THE
BANKRPTCV COURT
It, UNJUST ENRICHMENT
19. RICO

Issues raised in Appeal were similar to those raised in this Writ with the
exception of
1. Petitioner’s filings deliberately destroyed by Ninth Circuit
2. Delegation of Appeal to Clerk for “Adjudication”.

LD
t—I

rH

De Novo Review was asked for based upon District Court’s decision being
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

CL)
00
TO

1. Clearly erroneous
2. Abuse of Discretion
3. Denial of Leave to Amend Complaint to a Pro Se Litigant
4. Constitutionality
5. Dismissal of §1983 Claim
Legal Argument n the Appeal included
A. Deed of Trust was executed by non-existing entity, thus void and
unenforceable where Appellees had no legal claim on Petitioner’s home
B. Foreclosing Defendant-Appellees cold not be “beneficiaries” of non-existing
entity and their recordings were fraudulent, void
C. Defendant-Appellees avoided Foreclosure Mediation and recorded forged
certificate as to mediation waived by Petitioner
D. Appellee MERS was not the original Lender and lacked standing
E. Appellee MERS was not registered to do business n Nevada on said dates as
required by Nevada law
F. Complaint had met the plausible standard for fraud, recording of forged title
documents Ninth Circuit had established in In re MERS (9th Cir. 2014)
G. Appellant had plead clouded title, slander, RICO, Bank Fraud, Wire Fraud
that constitute continuous harm
H. Appellant had plead that forged title documents were signed by established
robo-signers and thus void
I. Bankruptcy Fraud by Appellees presenting forged documents to obtain fraud
*—I

relief without any legal claim and Attorneys committing perjury
WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

(20

J. FDCPA, TILA, RESPA violations
K. Cloud on Title precluded Transfer/Sales etc (UFTA)
L. Plaintiff had demonstrated standing to bring the action
M. Recent cases with judgments up to 45 million US dollars
N. Wrongful foreclosure
O. Appellant had demonstrated “distinct palpable injury” from Appellant’s acts
P. District Court Judges ruling was disparate from other judges in same district
Q. Recent cases where Nevada Court had disparate ruling from other Courts,
Ninth Circuit and Supreme Court
R. Complaint dismissal amounted to denial of Due Process, violations of Rule 9,
9(b), 12(b)(6) that were clearly erroneous, indicating Abuse of Discretion
S. Equitable Estoppel Applied to Appellees-Defendants actions
T. Cancellation of Instruments recorded by Appellee-Defendants
Ninth Circuit like the District Court failed to consider anything, violated US
constitution, statutes, laws (including their own laws and standards they
established) and violating “limitations which the Due Process Clause of the
Fourteenth Amendment imposes on the conduct
This Judicial conduct “shocks the conscience”, offends “a sense of justice”
....runs counter to the “decencies of civilized conduct.” Ninth Circuit also ignored
Justice Black, U.S. Supreme Court statement in Rochin v. California 342 U.S. 165
(1952) “

our judgment must be grounded on “considerations deeply rooted in

reason and in the compelling traditions of the legal profession.”

00
2W>

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

Chief Justice Marshall stated “it is a constitution we are expounding,”
Daniels v. Williams, supra, at 332 (quoting McCulloch v. Maryland. 4 Wheat. 316,
407 (1819).
Appellant is turning to United States Supreme Court for Justice. Petitioner
hopes that
1. Destroyed filings will be entered into the Appeal case record
2. All proceedings will be deemed “void”
3. Her property and money stolen from her will be returned to her.
4. Damages awarded.
5. All fraud instruments recorded on her property cancelled
6. Frauds alleged will be forwarded to appropriate authorities for investigation
7. Order that all Judicial Orders bear signatures of issuing authority.
If this Court is otherwise disposed, then transfer the Appeal out of Ninth Circuit.

Respectfully awaiting intervention.

Sated: February 18, 2021
Salma Agha-Khan, MD.
Petitioner-Appellant-Plaintiff
Pro Se

CJ)
x—I
^—I

60
<TJ
CL

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

